No. ______________
IN THE

Supreme Court of the United States
CARLOS LOUMIET, ESQUIRE,

Petitioner,

v.
UNITED STATES OF AMERICA, MICHAEL RARDIN,
LEE STRAUS, GERARD SEXTON, AND RONALD
SCHNECK,
Respondents.

On Petition For A Writ Of Certiorari To The
United States Court Of Appeals For District of
Columbia
APPENDIX
Andres Rivero
Counsel of Record
Charles E. Whorton
Jorge A. Mestre
RIVERO MESTRE LLP
2525 Ponce de Leon Blvd.
Suite 1000
Miami, Florida 33134
(305) 445-2500
arivero@riveromestre.com
Counsel for Petitioner

TABLE OF CONTENTS
Appendix A:

Opinion of the U.S. Court of
Appeals for the District of
Columbia (Jan. 28, 2020).................... 1a

Appendix B:

Memorandum Opinion Order
On Motion to Dismiss of the
U.S. District Court for the
District of Columbia
(June 13, 2017) ................................. 17a

Appendix C:

Memorandum Opinion Order
On Motion for Reconsideration
of the U.S. District Court for
the District of Columbia
(November 28, 2017) ......................... 56a

Appendix D:

Complaint filed in the
U.S. District Court for
the District of Columbia
(July 9, 2012) .................................... 83a

1a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
Argued December 13, 2018 Decided January 28, 2020
No. 18-5020
CARLOS LOUMIET, ESQUIRE, APPELLEE
v.
UNITED STATES OF AMERICA, APPELLEE
MICHAEL RARDIN, ET AL., APPELLANTS
____________
Appeal from the United States District Court for the
District of Columbia
(No. 1:12-cv-01130)
___________
Tyce R. Walters, Attorney, U.S. Department of Justice,
argued the cause for appellants. With him on the briefs were
Jessie K. Liu, U.S. Attorney, and Mark B. Stern, Attorney.
Carlos Loumiet, pro se, argued the cause for appellee. On
the brief was Andrés Rivero.
Before: GARLAND, Chief Judge, KATSAS, Circuit
Judge, and WILLIAMS, Senior Circuit Judge.
Opinion for the Court filed by Circuit Judge KATSAS.

2a

KATSAS, Circuit Judge: In Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403 U.S. 388
(1971), the Supreme Court held that the Fourth Amendment
creates an implied damages action for unconstitutional
searches against line officers enforcing federal drug laws. In
this case, we consider whether the First Amendment creates
an implied damages action against officials in the Office of
the Comptroller of the Currency (OCC) for retaliatory
administrative enforcement actions under the Financial
Institutions Reform, Recovery, and Enforcement Act of 1989
(FIRREA). Consistent with the Supreme Court’s marked
reluctance to extend Bivens to new contexts, we hold that the
First Amendment does not create such an implied damages
action.
I
In 1999, the OCC began an investigation of Hamilton
Bank and three of its executives for the allegedly fraudulent
concealment of some $22 million in loan losses. The bank
retained an outside law firm to investigate the charges.
Carlos Loumiet, then a partner at the law firm, prepared two
reports. The first one, made for the bank’s auditing
committee and shared with the OCC, was issued in
November 2000. It found no convincing evidence that the
executives had fraudulently concealed the losses. The OCC
was skeptical and provided Loumiet with additional
evidence. In response, Loumiet prepared a second report,
issued in March 2001. It concluded that the disputed
transactions were poorly handled but still found insufficient
evidence to conclude that the executives had fraudulently
concealed the losses. The OCC disagreed and placed the
bank into a receivership. Later, the executives were indicted.
Two of them pleaded guilty; the third, Hamilton’s former
chairman and chief executive officer, was convicted and
sentenced to thirty years of imprisonment. United States v.
Masferrer, 514 F.3d 1158 (11th Cir. 2008).

3a

According to Loumiet, OCC officials engaged in various
forms of misconduct during the investigation. The alleged
misconduct included lying to Hamilton officers, threatening
to retaliate against its lawyers, and making racist
statements. In March and April 2001, Loumiet raised these
allegations with the Secretary of the Treasury, the Inspector
General of the Treasury Department, and the Comptroller.
In June 2001, Loumiet met with an attorney in the Inspector
General’s Office to discuss his allegations. In July 2001, the
Inspector General concluded that there was no basis to
investigate them any further. Nonetheless, Loumiet
represented the bank in suing the OCC for alleged civilrights violations. The bank voluntarily dismissed its suit in
2002. Order of Dismissal, Hamilton Bank, N.A. v.
Comptroller, No. 01-4994 (S.D. Fla. Oct. 16, 2002), ECF Doc.
64.
In 2006, after the Hamilton executives were convicted,
the OCC brought an administrative enforcement action
against Loumiet, one of his partners, and his law firm. The
OCC proceeded under FIRREA, which allows it to seek civil
penalties from “any institution-affiliated party” who
breaches a fiduciary duty to a federally-insured bank and
thereby “causes or is likely to cause more than a minimal
loss” to the bank. 12 U.S.C. § 1818(i)(2)(B). In turn, FIRREA
defines an “institution-affiliated party” to include “any
attorney” who “knowingly or recklessly participates in” a
breach of fiduciary duty that “caused or is likely to cause
more than a minimal financial loss to, or a significant
adverse effect on” the bank. Id. § 1813(u)(4). The law firm
and Loumiet’s partner settled with the OCC and agreed to
pay $750,000 in fines. Loumiet contested the charges against
him. An Administrative Law Judge recommended their
dismissal on the ground that Loumiet had not breached any
fiduciary duty. Recommended Decision, In re Loumiet, OCCAA-EC-06-102 (June 18, 2008). The Comptroller disagreed,
but nonetheless dismissed on the alternative ground that

4a

Loumiet had not caused the bank any harm. Final Decision
& Order, In re Loumiet, OCC-AA-EC- 06-102 (July 27, 2009).
Loumiet sought fees under the Equal Access to Justice
Act (EAJA). In pertinent part, EAJA allows a prevailing
private party in an administrative adjudication to recover
“fees and other expenses” unless the adjudicator “finds that
the position of the agency was substantially justified.” 5
U.S.C. § 504(a)(1). The OCC denied fees, but we reversed on
the ground that there was no substantial justification for the
OCC’s position that Loumiet could have significantly
harmed the bank. Loumiet v. OCC, 650 F.3d 796 (D.C. Cir.
2011). We reasoned that even if Loumiet’s false exoneration
of the executives caused the bank to “retain the dishonest
officers,” there was no evidence that this harmed the bank.
Id. at 800. On remand, Loumiet was awarded $675,000.
Loumiet then filed this lawsuit against the United States
and four OCC officials. He asserted Bivens claims against
the officials as well as various tort claims. The Bivens claims
rest on the theory that the officials caused the OCC
enforcement action in retaliation for Loumiet’s protected
speech criticizing the OCC investigation, in violation of the
First and Fifth Amendments of the Constitution. The
district court held that the Bivens claims were untimely, and
it dismissed the tort claims on other grounds. Loumiet v.
United States, 65 F. Supp. 3d 19 (D.D.C. 2014). We reversed
both rulings. Loumiet v. United States, 828 F.3d 935 (D.C.
Cir. 2016).
On remand, the district court declined to dismiss the
First Amendment Bivens claims. Loumiet v. United States,
255 F. Supp. 3d 75, 83–96 (D.D.C. 2017). The court reasoned
that prior decisions had already “recognized the existence of
a Bivens implied cause-of-action for retaliatory prosecution
in violation of the First Amendment.” Id. at 84. Likewise, the
court concluded that the procedural and remedial
protections provided under FIRREA do not counsel against

5a

recognizing an implied damages action. See id. at 85–90. The
court further held that the complaint plausibly stated First
Amendment claims against the OCC officials who allegedly
“induce[d] an enforcement action against Plaintiff in reprisal
for critical statements that he made against them and the
OCC more generally.” Id. at 95. And it denied those officials
qualified immunity on the ground that the “First
Amendment right to be free from retaliatory prosecution”
was clearly established long before 2006. Id. at 93 (quotation
marks omitted). Finally, the court held that the Fifth
Amendment count did not state a claim, converted the tort
claims against the individual defendants into claims against
the United States, and dismissed some but not all of the tort
claims. Id. at 97–100.
After the Supreme Court decided Ziglar v. Abbasi, 137 S.
Ct. 1843 (2017), the officials moved for reconsideration. The
district court denied the motion. Loumiet v. United States,
292 F. Supp. 3d 222 (D.D.C. 2017). In light of Abbasi, the
court assumed that Loumiet was seeking to extend Bivens
into a “new context.” Id. at 229. But the court concluded that
the “special factors counselling hesitation” in Abbasi, which
involved programmatic actions undertaken by high-ranking
officials in response to terrorist attacks, were not present in
this case. Id. at 227 (quotation marks omitted); see id. at
229–31. Finally, the court discounted the significance of
EAJA in its special-factors analysis because that statute was
not enacted as part of FIRREA. Id. at 232–38.
The OCC officials now seek review of the district court’s
refusal to dismiss the First Amendment claims against
them.

6a

II
We begin, as we must, with our jurisdiction. See Steel Co.
v. Citizens for a Better Env’t, 523 U.S. 83, 94 (1998). We have
jurisdiction to review “final decisions” of the district court.
28 U.S.C. § 1291. Under the collateral-order doctrine, the
“denial of a claim of qualified immunity, to the extent that it
turns on an issue of law, is an appealable ‘final decision’”
within the meaning of section 1291. Mitchell v. Forsyth, 472
U.S. 511, 530 (1985). We thus have jurisdiction to decide
whether the OCC officials are entitled to qualified immunity
on the First Amendment claims.
We also have jurisdiction to decide whether the First
Amendment confers upon Loumiet an implied cause of
action for damages. Because “the recognition of the entire
cause of action” is “directly implicated by the defense of
qualified immunity,” both questions are “properly before us
on interlocutory appeal.” Wilkie v. Robbins, 551 U.S. 537,
549 n.4 (2007) (quotation marks omitted); see Liff v. Office of
Inspector Gen. for U.S. Dep’t of Labor, 881 F.3d 912, 917–18
(D.C. Cir. 2018).
III
In this court, the OCC officials contend that the First
Amendment creates no implied cause of action for damages
and that, in any event, they are entitled to qualified
immunity on the facts alleged by Loumiet. We begin with the
cause-of- action question, which is antecedent to the
question of qualified immunity. See Liff, 881 F.3d at 918 (“it
is appropriate to determine the availability of a Bivens
remedy at the earliest practicable phase of litigation”).
A
The Free Speech Clause of the First Amendment
provides that “Congress shall make no law ... abridging the
freedom of speech.” Neither the First Amendment, nor any
other provision of the Constitution, provides an express

7a

cause of action for its own violation. Congress has provided
a statutory cause of action against state officials for
violations of the federal Constitution, 42 U.S.C. § 1983, but
it has provided no such cause of action against federal
officials. Nonetheless, Loumiet asks us to hold that the First
Amendment, by its own force, creates an implied cause of
action for damages against OCC and other federal officials
for retaliatory enforcement activities.
The Supreme Court first recognized an implied damages
action under the Constitution in Bivens. There, the Court
held that the Fourth Amendment creates an implied
damages action against federal narcotics officers for
unconstitutional searches and seizures. 403 U.S. at 389.
Over the next decade, the Supreme Court recognized two
more implied damages actions under the Constitution—one
under the Fifth Amendment against members of Congress
for employment discrimination on the basis of sex, Davis v.
Passman, 442 U.S. 228, 248–49 (1979), and one under the
Eighth Amendment against federal prison officials for
failure to provide adequate medical care, Carlson v. Green,
446 U.S. 14, 19 (1980).
Since Carlson, however, the Supreme Court has carefully
circumscribed Bivens and “consistently refused to extend
Bivens to any new context or new category of defendants.”
Abbasi, 137 S.Ct. at 1857 (quotation marks omitted).
Recognizing an implied damages action “is a significant step
under separation-of-powers principles.” Id. at 1856.
Imposing personal liability on federal officers may promote
important interests in deterring constitutional violations
and redressing injuries, but it also “create[s] substantial
costs” for the officers, the government, and citizens who
depend on the vigorous enforcement of federal law. Id. The
Constitution itself is silent on how to balance these
competing considerations in various contexts, and judges are
not well-suited to do so. Rather, “[i]n most instances ... the
Legislature is in the better position to consider if the public

8a

interest would be served by imposing a new substantive
legal liability.” Id. at 1857 (quotation marks omitted).
Moreover, in the decades since Bivens was decided, the
Court has grown wary of creating implied damages actions
in other contexts. See id. at 1855–56. For these reasons,
“expanding the Bivens remedy is now a disfavored judicial
activity,” so the Supreme Court demands “caution before
extending Bivens remedies into any new context.” Id. at 1857
(quotation marks omitted).
Exercising this caution, the Supreme Court has not
recognized a new Bivens action in the four decades since
Carlson was decided. At the same time, the Court has
declined to extend Bivens on ten separate occasions. Once, it
declined to create a Bivens cause of action because Congress
had made another remedy expressly exclusive. Hui v.
Castaneda, 559 U.S. 799, 805–07 (2010). Twice, it declined
to extend Bivens to areas where Congress had provided an
alternative scheme of protections and remedies. Schweiker
v. Chilicky, 487 U.S. 412, 424–29 (1988) (Social Security
disability benefits); Bush v. Lucas, 462 U.S. 367, 380–90
(1983) (federal employment). Three times, it declined to
extend Bivens to sensitive areas. Abbasi, 137 S. Ct. at 1860–
63 (national security); United States v. Stanley, 483 U.S. 669,
678–86 (1987) (military); Chappell v. Wallace, 462 U.S. 296,
298–305 (1983) (military). Three times, it declined to extend
Bivens to new categories of defendants. Minneci v. Pollard,
565 U.S. 118, 126–31 (2012) (private individuals); Corr.
Servs. Corp. v. Malesko, 534 U.S. 61, 70–74 (2001) (private
corporations); FDIC v. Meyer, 510 U.S. 471, 484–86 (1994)
(federal agencies). Once, it declined to extend Bivens simply
because Congress is better positioned to evaluate when
agency officials “push too hard for the Government’s
benefit,” and what consequences should follow if they do so.
Robbins, 551 U.S. at 562.
After reviewing these precedents, Abbasi set out a twopart test to decide when to recognize implied damages

9a

actions under Bivens. First, we must consider whether the
plaintiff seeks to extend Bivens into a “new context.” If so,
we then must consider whether there are any “special factors
counselling hesitation.” See 137 S. Ct. at 1857–60.
B
The new-context inquiry in this case is straightforward.
According to the Supreme Court, “[t]he proper test for
determining whether a case presents a new Bivens context
is as follows. If the case is different in a meaningful way from
previous Bivens cases decided by this Court, then the context
is new.” Abbasi, 137 S. Ct. at 1859. The Court has provided
a non-exhaustive “list of differences that are meaningful
enough to make a given context a new one”:
the rank of the officers involved; the constitutional
right at issue; the generality or specificity of the
official action; the extent of judicial guidance as to
how an officer should respond to the problem or
emergency to be confronted; the statutory or other
legal mandate under which the officer was operating;
the risk of disruptive intrusion by the Judiciary into
the functioning of other branches; or the presence of
potential special factors that previous Bivens cases
did not consider.
Id. at 1859–60. In addition, a “new context” is present
whenever the plaintiff seeks damages from a “new category
of defendants.” See id. at 1857 (quotation marks omitted);
Meshal v. Higgenbotham, 804 F.3d 417, 424 (D.C. Cir. 2015).
Under these criteria, “even a modest extension is still an
extension,” and so “the new-context inquiry is easily
satisfied.” Abbasi, 137 S. Ct. at 1864–65.
This case clearly presents a new Bivens context. First,
the constitutional right at issue differs from the ones at issue
in Bivens, Davis, and Carlson. Loumiet alleges a violation of
the Free Speech Clause of the First Amendment, but Bivens
was a Fourth Amendment search-and-seizure case, 403 U.S.

10a

at 389; Davis was a Fifth Amendment sex-discrimination
case, 442 U.S. at 231; and Carlson was an Eighth
Amendment medical- care case, 446 U.S. at 16 & n.1.
Although the Supreme Court twice has assumed that the
First Amendment creates an implied cause of action for
damages, see Ashcroft v. Iqbal, 556 U.S. 662, 675 (2009)
(Free Exercise Clause); Hartman v. Moore, 547 U.S. 250, 256
(2006) (Free Speech Clause), it has “never held that Bivens
extends to First Amendment claims,” Reichle v. Howards,
566 U.S. 658, 663–64 n.4 (2012). Abbasi removed any
possible doubt on this point. There, the Supreme Court
stressed that “three cases—Bivens, Davis, and Carlson—
represent the only instances in which the Court has
approved of an implied damages remedy under the
Constitution itself.” 137 S. Ct. at 1855. To the extent we
suggested otherwise in Munsell v. Department of
Agriculture, 509 F.3d 572, 587–88 (D.C. Cir. 2007)—a case
rejecting Bivens claims for failure to exhaust, see id. at 591—
Reichle and Abbasi have displaced that dicta. And though
we previously recognized First Amendment Bivens claims in
Haynesworth v. Miller, 820 F.2d 1245, 1255 (D.C. Cir. 1987),
and Moore v. Valder, 65 F.3d 189, 196 n.12 (D.C. Cir. 1995),
those cases have been overtaken by Abbasi’s holding that the
new-context analysis may consider only Supreme Court
decisions approving Bivens actions. See 137 S. Ct. at 1859.
Second, the legal mandate under which the OCC officials
were operating is different from the ones in Bivens, Davis,
and Carlson. The dispute here arose from the enforcement
of federal banking laws under FIRREA, whereas Bivens
involved the enforcement of federal drug laws, 403 U.S. at
389; Davis involved employment decisions by members of
Congress, 442 U.S. at 230; and Carlson involved the
provision of medical care to federal prisoners, 446 U.S. at 16.
Third, Loumiet seeks damages from a new category of
defendants. The defendants here are OCC officials, whereas
the defendants in Bivens were federal narcotics agents, 403

11a

U.S. at 389; the defendant in Davis was a former member of
Congress, 442 U.S. at 230; and the defendants in Carlson
were federal prison officials, 446 U.S. at 16. For each of these
reasons, this case presents a new context.
C
We next consider whether special factors counsel
hesitation. One factor stands out here: “if there is an
alternative remedial structure present in a certain case, that
alone may limit the power of the Judiciary to infer a new
Bivens cause of action.” Abbasi, 137 S.Ct. at 1858. Likewise,
“when alternative methods of relief are available, a Bivens
remedy usually is not.” Id. at 1863. Two Supreme Court
cases—Bush and Chilicky—illustrate these special factors.
In Bush, the Court refused to extend Bivens to a federal
employee allegedly demoted in retaliation for protected
speech criticizing his employer. 462 U.S. at 368–69. As the
Court explained, federal workers are “protected by an
elaborate, comprehensive scheme that encompasses
substantive provisions forbidding arbitrary action by
supervisors and procedures—administrative and judicial—
by which improper action may be redressed.” Id. at 385; see
also id. at 368 (observing that the scheme affords
“meaningful remedies against the United States”). The
Court held that such an “elaborate remedial system that has
been constructed step by step, with careful attention to
conflicting policy considerations,” should not be “augmented
by the creation of a new judicial remedy” for the claimed
First Amendment violation. Id. at 388.
In Chilicky, the Court refused to extend Bivens to
individuals denied Social Security disability benefits,
allegedly in violation of the Fifth Amendment Due Process
Clause. 487 U.S. at 414. Applying Bush, the Court concluded
that the “administrative structure and procedures of the
Social Security system” was a special factor counselling
hesitation. Id. at 424. That system established “federal

12a

standards and criteria” for the provision of benefits, created
“elaborate administrative remedies” for claimants denied
benefits, and provided for “judicial review, including review
of constitutional claims.” Id. But it made “no provision for
remedies in money damages against officials responsible for
unconstitutional conduct that leads to the wrongful denial of
benefits,” and the Court declined to recalibrate the scheme
to add that remedy. Id. at 424–25.
On three occasions, we have applied Bush and Chilicky
to reject Bivens claims. In Spagnola v. Mathis, 859 F.2d 223
(D.C. Cir. 1988) (en banc), we confirmed that the Civil
Service Reform Act bars First Amendment Bivens claims by
individuals allegedly denied federal employment or
promotion in retaliation for protected speech. See id. at 224–
25, 229. We stressed that, under Bush and Chilicky, “it is the
comprehensiveness of the statutory scheme involved, not the
‘adequacy’ of specific remedies extended thereunder, that
counsels judicial abstention.” Id. at 227. In Wilson v. Libby,
535 F.3d 697 (D.C. Cir. 2008), we held that the Privacy Act
barred First and Fifth Amendment Bivens claims brought by
a plaintiff alleging that her status as a covert agent had been
unconstitutionally disclosed. See id. at 702–04. And we did
so even though the Privacy Act, which authorizes private
damages actions for willful violations, exempts the Offices of
the President and the Vice President from coverage—and
thus afforded no remedy against the defendants in the case.
See id. at 706–08. In Liff, we held that the “myriad statutes
and regulations that provide remedies for contractingrelated disputes,” which collectively afford a “spectrum of
remedies,” bar the imposition of Bivens liability for claims
arising out of federal government contracts. See 881 F.3d at
920–21. In each of these cases, we declined to question
whether the remedial scheme at issue was the “best
response” in the specific context at issue, “for Congress is the
body charged with making the inevitable compromises
required.” Spagnola, 859 F.2d at 228 (cleaned up).

13a

Here, FIRREA’s administrative enforcement scheme is
likewise a special factor counselling hesitation. This scheme
permits the imposition of civil penalties only for defined
offenses such as knowingly breaching a fiduciary duty or
recklessly engaging in an unsound banking practice. 12
U.S.C. § 1818(i)(2)(A)–(C). Any party subject to a penalty is
entitled to advance notice and a hearing, id. § 1818(i)(2)(H),
which must be conducted in accordance with the
Administrative Procedure Act, id. § 1818(h)(1). Thus, the
party is entitled to make arguments, cross-examine
witnesses, and submit oral, documentary, and rebuttal
evidence. 5 U.S.C. § 554(c)(1); id. § 556(d). Enforcement
officials within the OCC bear the burden of proof and cannot
participate or advise in the decision. Id. § 556(b) & (d). And
the presiding official, if not the OCC itself, must be a duly
appointed ALJ, id. § 556(b), who must render a
recommended decision on a closed record with a statement
of reasons, id. § 557(c), and without any ex parte contacts
relevant to the proceeding, id. § 557(d). FIRREA also
requires the OCC to augment these procedures with
implementing regulations, 12 U.S.C. § 1818(i)(2)(K), under
which administrative respondents are entitled to be
represented by counsel, 12 C.F.R. § 19.35; seek summary
disposition, id. § 19.29; apply for document subpoenas, id. §
19.26; object to evidence, id. § 19.36(d); depose unavailable
witnesses, id. § 19.36(f); and more. The ALJ’s recommended
decision is then subject to further review by the Comptroller
himself, 5 U.S.C. § 557(b), and his decision in turn is subject
to judicial review in a court of appeals, 12 U.S.C. §
1818(h)(2). Similar rules, protections, and review attend
other exercises of OCC administrative enforcement,
including the adjudication of cease-and-desist orders, id. §
1818(b), and the removal of affiliated individuals from
participating in a bank’s affairs, id. § 1818(e). Together,
these provisions afford regulated parties an “alternative,
existing process for protecting [their] interest.” Abbasi, 137
S. Ct. at 1858 (quotation marks omitted).

14a

Moreover, the FIRREA enforcement scheme gives
regulated parties a sword as well as a shield. Under EAJA,
any party prevailing in a contested agency adjudication is
entitled to “fees and other expenses incurred by that party
in connection with that proceeding,” unless the ALJ “finds
that the position of the agency was substantially justified or
that special circumstances make an award unjust.” 5 U.S.C.
§ 504(a)(1). This stands in marked contrast to the American
Rule, under which “the prevailing litigant is ordinarily not
entitled to collect a reasonable attorneys’ fee from the loser.”
Alyeska Pipeline Serv. Co. v. Wilderness Soc’y, 421 U.S. 240,
247 (1975). Fee awards under EAJA can be substantial, as
evidenced by Loumiet’s own award of $675,000. The
FIRREA scheme thus affords “meaningful remedies against
the United States,” Bush, 462 U.S. at 368, as a general
matter and in this case.
One more aspect of the scheme is important—judicial
review, although available, is carefully circumscribed.
Specifically, FIRREA provides that “[j]udicial review” of any
OCC administrative adjudication “shall be exclusively as
provided” in FIRREA itself, which channels such review to
the courts of appeals. 12 U.S.C. § 1818(h)(1) & (2). Likewise,
FIRREA provides that, in any district-court action to enforce
a civil penalty, “the validity and appropriateness of the
penalty shall not be subject to review.” Id. § 1818(i)(2)(I)(ii).
These provisions come close to foreclosing a Bivens action
expressly, just as the exclusive-review provision at issue in
Castaneda expressly foreclosed Bivens actions against
officers of the Public Health Service. See 559 U.S. at 805–06.
At a minimum, the precise nature of the available judicial
review makes clear that Congress did not “inadvertently”
omit a damages remedy from FIRREA, see Liff, 881 F.3d at
921; Wilson, 535 F.3d at 708; Spagnola, 859 F.2d at 228,
underscoring that the courts should not augment the scheme
to supply one. See Abbasi, 137 S. Ct. at 1865 (“legislative

15a

action suggesting that Congress does not want a damages
remedy is itself a factor counseling hesitation”).
Loumiet’s contrary arguments are all without merit.
First, he contends that the procedural protections afforded
in the FIRREA administrative process are not remedies at
all. True enough, but they do help constrain the
unconstitutional exercise of government power—unlike the
largely or wholly unregulated search in Bivens, hiring
decision in Davis, and care provision in Carlson. Moreover,
as explained above, we rely not only on procedural
protections, but also on the affirmative EAJA remedy and
the channeled nature of the judicial review provided.
Second, Loumiet contends that EAJA cannot be considered
because it is a separate statute from FIRREA. But in Liff,
we assessed special factors by considering the full
“constellation of statutes and regulations governing federal
contracts, as well as the Privacy Act.” 881 F.3d at 920. There
is no reason to disregard any of the statutes establishing the
governing scheme. Third, Loumiet contends that he is not
subject to the FIRREA scheme at all, because the
Comptroller concluded that he is not an institution-affiliated
party. But Loumiet—as an attorney for a federally-insured
bank—was not wholly outside the regulatory scheme. To the
contrary, the Comptroller concluded that Loumiet was not
an institution- affiliated party only because his conduct did
not harm the bank. If it had, he might have been subject to
a penalty. Compare 12U.S.C. §1813(u)(4) (definition of
“institution-affiliated party”), with id. § 1818(i)(2)(A)–(C)
(penalties for institution- affiliated parties). Loumiet does
not fall outside the FIRREA scheme simply because he won
his individual case. Finally, Loumiet argues that the remedy
afforded to him was insufficient. But Bush and Chilicky were
decided on the premise that the available remedy in each of
those cases— setting aside an adverse personnel decision or
denial of benefits—was less effective than would be an
award of full damages for all consequential harms. See

16a

Chilicky, 487 U.S. at 425. Moreover, we later held that, so
long as the administrative scheme is comprehensive, a
Bivens remedy is unavailable even if the plaintiff before the
court is afforded no remedy at all. See Wilson, 535 F.3d at
709.
We recognize that retaliatory enforcement actions can be
hard to ferret out in administrative processes and can
impose harms well beyond those remediable through EAJA.
On the other hand, charges of a retaliatory motive are easy
to make, hard to disprove, potentially crippling to
regulators, and perhaps not unlikely in the context of hotly
contested adversarial proceedings. As in Abbasi, there is a
hard “balance to be struck” in considering whether to create
a damages remedy for the kind of claim that Loumiet seeks
to press here. 137 S. Ct. at 1863. That decision is best left to
Congress.
IV
The First Amendment creates no implied damages action
against OCC officials for inducing an allegedly retaliatory
administrative enforcement proceeding. We therefore
reverse the district court’s judgment and remand the case
with instructions to dismiss Loumiet’s First Amendment
claims.
So ordered.

17a

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

MEMORANDUM OPINION
(June 13, 2017)
Plaintiff Carlos Loumiet filed suit against the United
States Government for the actions of its agency, the Office of
the Comptroller of the Currency (“OCC”), under the Federal
Tort Claims Act (“FTCA”), and against Defendants Michael
Rardin, Lee Straus, Gerard Sexton, and Ronald Schneck
(collectively, the “Individual Defendants”), alleging claims
under Bivens v. Six Unknown Named Agents of Fed. Bureau
of Narcotics, 403 U.S. 388 (1971), as well as various statelaw tort claims. In a series of rulings, the Court previously
dismissed all of Plaintiff’s claims at the motion to dismiss
stage. Plaintiff appealed to the United States Court of
Appeals for the District of Columbia Circuit (“D.C. Circuit”),
which remanded for this Court to consider two issues: first,
as to Plaintiff’s FTCA claims, “whether [Plaintiff’s]
complaint plausibly alleges that the OCC’s conduct exceeded
the scope of its constitutional authority so as to vitiate
discretionary-function immunity;” and second, as to
Plaintiff’s Bivens claims, “the remaining defenses raised but
not yet decided in the district court.” Loumiet v. United

18a

States, 828 F.3d 935, 946, 949 (D.C. Cir. 2016) (“Loumiet
IV”). Following remand, the Court ordered the parties to
brief these and any other pertinent legal issues. Sept. 29,
2016 Order, ECF No. 61.
Pending before the Court are the Individual Defendants’
[62] Motion to Dismiss and the United States’ [63] Motion to
Dismiss. Upon consideration of the pleadings, 1 relevant
legal authorities, and the record as a whole, the Court
GRANTS IN PART AND DENIES IN PART the
Individual Defendants’ [62] Motion to Dismiss, and
GRANTS IN PART AND DENIES IN PART the United
States’ [63] Motion to Dismiss. Plaintiff’s First Amendment
Bivens claim for retaliatory prosecution shall proceed
against Defendants Rardin, Schneck, and Sexton. Plaintiff’s
Fifth Amendment Bivens claim, and all claims against
Defendant
Straus
are
DISMISSED
WITHOUT
PREJUDICE. Pursuant to the Westfall Act, the state-law
tort claims against the Individual Defendants are
CONVERTED to FTCA claims against the United States.
Plaintiff’s FTCA claims against the United States may
proceed, except that the abuse of process (Count III) and
malicious prosecution (Count IV) claims are DISMISSED
WITHOUT PREJUDICE, leaving only the claims for
intentional infliction of emotional distress (Count I),
1

The Court’s consideration has focused on the following documents:
• Individual Defs.’ Mot. to Dismiss and Statement of P&A
in Supp., ECF No. 62 (“Ind. Defs.’ Mem.”);
• United States’ Mot. to Dismiss and Statement of P&A
in Supp., ECF No. 63 (“U.S. Mem.”);
• Carlos Loumiet’s Opp’n to the Individual Defs.’ Mot. to
Dismiss under Fed. R. Civ. P. 12(b)(6) and the United States’
Mot. to Dismiss under Fed. R. Civ. P. 12(b)(6) and 12(b)(1), ECF
No. 64 (“Opp’n Mem.”);
• Reply Mem. of P&A in Supp. of the Defs.’ Mot. to
Dismiss, ECF No. 66 (“Reply Mem.”).

19a

invasion of privacy (Count II), negligent supervision (Count
V), and civil conspiracy (Count VIII).
I. BACKGROUND
The Court previously detailed the factual background of
this matter in its prior rulings, familiarity with which is
assumed. 2 See Loumiet v. United States, 968 F. Supp. 2d 142,
145 (D.D.C. 2013) (Loumiet I). To the extent particular
factual allegations are relevant to the Court’s analysis of the
pending motions, they are detailed below.
II. LEGAL STANDARD
A. Motion to Dismiss for Lack of Subject-Matter
Jurisdiction
To survive a motion to dismiss pursuant to Federal Rule
of Civil Procedure 12(b)(1), Plaintiff bears the burden of
establishing that the Court has subject-matter jurisdiction
over its claims. Moms Against Mercury v. FDA, 483 F.3d 824,
828 (D.C. Cir. 2007); Ctr. for Arms Control & NonProliferation v. Redd, No. CIV.A. 05-682 (RMC), 2005 WL
3447891, at *3 (D.D.C. Dec. 15, 2005). In determining
whether there is jurisdiction, the Court may “consider the
complaint supplemented by undisputed facts evidenced in
the record, or the complaint supplemented by undisputed
The full sequence of decisions is as follows: Loumiet v. United
States, 968 F. Supp. 2d 142 (D.D.C. 2013) (Loumiet I); Loumiet v.
United States, 65 F. Supp. 3d 19 (D.D.C. 2014) (Loumiet II); Loumiet v.
United States, 106 F. Supp. 3d 219 (D.D.C. 2015) (Loumiet III); Loumiet
v. United States, 828 F.3d 935 (D.C. Cir. 2016) (“Loumiet IV”). In
addition, the D.C. Circuit previously ruled on Plaintiff’s application for
attorney fees under the Equal Access to Justice Act (“EAJA”) in
connection with his defense before the OCC, Loumiet v. Office of
Comptroller of Currency, 650 F.3d 796, 798 (D.C. Cir. 2011) (“Loumiet
EAJA”).
2

20a

facts plus the court’s resolution of disputed facts.” Coal. for
Underground Expansion v. Mineta, 333 F.3d 193, 198 (D.C.
Cir. 2003) (internal quotation marks omitted); see also 5B
Charles Alan Wright & Arthur R. Miller, Federal Practice &
Procedure § 1350 (3d ed. 2017) (noting the “wide array of
cases from the four corners of the federal judicial system
involving the district court’s broad discretion to consider
relevant and competent evidence on a motion to dismiss for
lack of subject matter jurisdiction to resolve factual issues”).
“Although a court must accept as true all factual allegations
contained in the complaint when reviewing a motion to
dismiss pursuant to Rule 12(b)(1),” the factual allegations in
the complaint “will bear closer scrutiny in resolving a
12(b)(1) motion than in resolving a 12(b)(6) motion for failure
to state a claim.” Wright v. Foreign Serv. Grievance Bd., 503
F. Supp. 2d 163, 170 (D.D.C. 2007) (internal quotation
marks omitted).
B. Motion to Dismiss for Failure to State a Claim
Defendants also move to dismiss the Complaint for
“failure to state a claim upon which relief can be granted”
pursuant to Federal Rule of Civil Procedure 12(b)(6). “[A]
complaint [does not] suffice if it tenders ‘naked assertion[s]’
devoid of ‘further factual enhancement.’” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 557 (2007)). Rather, a complaint must contain
sufficient factual allegations that, if accepted as true, “state
a claim to relief that is plausible on its face.” Twombly, 550
U.S. at 570. “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable for the
misconduct alleged.” Iqbal, 556 U.S. at 678. In deciding a
Rule 12(b)(6) motion, a court may consider “the facts alleged
in the complaint, documents attached as exhibits or
incorporated by reference in the complaint,” or “documents
upon which the plaintiff’s complaint necessarily relies even

21a

if the document is produced not by the plaintiff in the
complaint but by the defendant in a motion to dismiss.”
Ward v. District of Columbia Dep’t of Youth Rehab. Servs.,
768 F. Supp. 2d 117, 119 (D.D.C. 2011) (internal quotation
marks omitted). The court may also consider documents in
the public record of which the court may take judicial notice.
Abhe & Svoboda, Inc. v. Chao, 508 F.3d 1052, 1059 (D.C. Cir.
2007).
III. DISCUSSION
The Court’s analysis below proceeds as follows. First, the
Court finds it appropriate to recognize a First Amendment
Bivens claim for retaliatory prosecution under the particular
factual circumstances of this case. Second, the Court finds
that Plaintiff has plausibly alleged such a First Amendment
Bivens claim against Defendants Rardin, Schneck, and
Sexton, and that they are not entitled to absolute
prosecutorial or qualified immunity at this procedural
juncture. Nonetheless, the Court finds that Defendant
Straus is entitled to absolute prosecutorial immunity, and
that any non-immunized conduct fails to state a First
Amendment retaliatory prosecution Bivens claim against
him. Third, the Court concludes that Plaintiff’s Fifth
Amendment Bivens claim must be dismissed for failure to
state a claim. Fourth, the Court converts the state-law tort
claims against the Individual Defendants to FTCA claims
against the United Stated. In sum, this means that the only
claims surviving with respect to the Individual Defendants
are Plaintiff’s First Amendment Bivens claims against
Defendants Rardin, Schneck, and Sexton.
Turning to the FTCA claims against the United States,
the Court finds first, that discretionary-function immunity
is vitiated under the circumstances of this case because
Plaintiff has plausibly alleged that the tortious conduct at
issue violated a clearly established First Amendment right

22a

against retaliatory prosecution; second, that Plaintiff’s
malicious prosecution and abuse of process claims must be
dismissed because the OCC employees at issue in this case
are not “investigative or law enforcement officers” as defined
by the FTCA; and third, that Plaintiff’s invasion of privacy
claim may proceed. Accordingly, Plaintiff’s surviving FTCA
claims are for intentional infliction of emotional distress
(Count I), invasion of privacy (Count II), negligent
supervision (Count V), and civil conspiracy (Count VIII).
A. The Court Recognizes a First Amendment
Bivens Claim in this Action
In Bivens, the Supreme Court of the United States
created an implied cause of action for money damages
stemming from an alleged Fourth Amendment violation at
the hands of federal officials. 403 U.S. at 397. “Since Bivens,
the Supreme Court has proceeded cautiously in implying
additional federal causes of action for money damages.”
Meshal v. Higgenbotham, 804 F.3d 417, 421 (D.C. Cir. 2015).
The Bivens issues in this case must be assessed in two
stages, and because the Fifth Amendment claim shall be
dismissed for failure to state a claim, this analysis is limited
to Plaintiff’s claim of retaliatory prosecution in violation of
his First Amendment right to free speech.
As an initial matter, the parties disagree on whether by
permitting Plaintiff’s Bivens claim to proceed, the Court
would in effect recognize a cause of action unprecedented in
Bivens case law. In other words, whether this case presents
a “new context.” If so, the Court would be required to ask
and answer two follow-up questions. First, whether
“Congress has provided an alternative remedy which it
explicitly declared to be a substitute for recovery directly
under the Constitution and viewed as equally effective.”
Carlson v. Green, 446 U.S. 14, 18–19 (1980); Wilkie v.
Robbins, 551 U.S. 537, 550 (2007) (“In the first place, there

23a

is the question whether any alternative, existing process for
protecting the interest amounts to a convincing reason for
the Judicial Branch to refrain from providing a new and
freestanding remedy in damages.”). Put differently, a Bivens
remedy will generally not be available if a comprehensive
statutory scheme already exists for a plaintiff to seek redress
of the alleged constitutional violation. Defendants concede
that no such scheme exists here. See Reply Mem. at 6.
As a result, the Court must turn to assess whether there
are “any special factors counselling hesitation before
authorizing a new kind of federal litigation.” Wilkie, 551 U.S.
at 550 (quoting Bush v. Lucas, 462 U.S. 367, 378 (1983)). One
such special factor “that precludes creation of a Bivens
remedy is the existence of a comprehensive remedial
scheme.” Wilson v. Libby, 535 F.3d 697, 705 (D.C. Cir. 2008).
Unlike the first question— which asks whether there is a
specific, equally effective alternative remedy to the implied
cause-of-action—this “special factor” analysis is intended to
isolate situations in which “the design of a Government
program suggests that Congress has provided what it
considers adequate remedial mechanisms for constitutional
violations that may occur in the course of its administration
. . . .” Schweiker v. Chilicky, 487 U.S. 412, 423 (1988). As a
result, the “comprehensive remedial scheme” need not
provide “complete relief” for the specific violation at issue;
rather, “the doctrine relates to the question of who should
decide whether such a remedy should be provided.” Wilson,
535 F.3d at 705 (internal quotation marks omitted).
Consequently, it is “the comprehensiveness of the statutory
scheme involved, not the ‘adequacy’ of specific remedies
extended thereunder, that counsels judicial abstention.”
Spagnola v. Mathis, 859 F.2d 223, 227 (D.C. Cir. 1988). In
sum, the doctrine reflects “an appropriate judicial deference
to indications that congressional inaction has not been
inadvertent.” Chilicky, 487 U.S. at 423.

24a

Both the D.C. Circuit and Supreme Court, at least
impliedly, have recognized the existence of a Bivens implied
cause-of-action for retaliatory prosecution in violation of the
First Amendment guarantee of freedom of speech. Hartman
v. Moore, 547 U.S. 250, 256 (2006) (“the law is settled that
as a general matter the First Amendment prohibits
government officials from subjecting an individual to
retaliatory actions, including criminal prosecutions, for
speaking out”); Moore v. Valder, 65 F.3d 189, 196 (D.C. Cir.
1995) (“Moore’s retaliatory prosecution claim, however, does
allege the violation of clearly established law.”);
Haynesworth v. Miller, 820 F.2d 1245, 1255 (D.C. Cir. 1987)
(“[w]e agree that the retaliatory prosecution constitutes an
actionable First Amendment wrong”). Defendants, however,
assert that this case presents a “new context” because “[n]o
court has ever extended Bivens to the conduct of government
officials engaged in oversight of the safety and soundness of
the national banking system.” Ind. Defs.’ Mem at 7. The D.C.
Circuit in Meshal noted the difficulty in distinguishing
various Bivens actions on the basis of context: “viewed at a
sufficiently high level of generality, any claim can be
analogized to some other claim for which a Bivens action is
afforded, just as at a sufficiently high level of particularity,
every case has points of distinction.” 804 F.3d at 424
(internal quotation marks omitted). Ultimately, Meshal
defined “context” by reference to its common usage in law:
the word “reflects[s] a potentially recurring scenario that
has similar legal and factual components.” Id. (emphasis
added) (internal quotation marks omitted).
Although Defendants seek to distinguish the
prosecutorial action in this case on the basis that it was
directed by a Federal agency overseeing the banking
industry, they have failed to explain why that distinction is
at all relevant to the case law recognizing claims against
Federal agents for retaliatory prosecution. For instance,
there is no indication in the record that Plaintiff’s

25a

prosecution was motivated out of a particular concern for the
safety of the banking system. In fact, the allegations of the
Complaint portray a prosecution that was levied against an
individual with relatively little involvement in the
perpetuation or concealment of the illicit activity subject to
the OCC’s regulatory action, and was instead, according to
the allegations, primarily motivated by Plaintiff’s
complaints regarding certain alleged racial comments made
by OCC staff, and the aggressive nature of the OCC’s
investigation into Hamilton Bank. See infra at 26–27.
Moreover, upon administrative review, the D.C. Circuit
found that the record did not support a finding that
Plaintiff’s prosecution was justified. See Loumiet EAJA, 650
F.3d at 800. Accordingly, while the fact that the retaliatory
prosecution was brought by a banking regulator is a point of
distinction, the salient legal and factual matters are similar
to those at issue in the controlling Supreme Court and D.C.
Circuit cases regarding retaliatory prosecution. As in
Hartman and Moore, the allegations here suggest that
employees of a Federal entity (there, the United States
Postal Service), in reprisal for speech critical of the Federal
entity, directed a meritless investigation and prosecution
(there, the trial court determined that there was a “complete
lack of direct evidence” for the alleged crime, while here, the
presiding Administrative Law Judge (“ALJ”), the
Comptroller, and the D.C. Circuit found that the
enforcement action was unwarranted, see Loumiet EAJA,
650 F.3d at 799–800).
In sum, the conduct at issue, although allegedly
perpetuated by banking regulators, plainly fits the mold of
the controlling authorities wherein a Bivens cause of action
has been recognized for retaliatory prosecution at the behest
of Federal officials. No doubt, the banking regulatory arena
is complex and of immense importance to the American
economy, but it can hardly be said that any Federal agency
does not administer an important facet of the American

26a

economy or society. And while the D.C. Circuit has on
several occasions refused to afford a Bivens remedy in
certain sensitive policy areas, the decisions pressed by
Defendants are limited to the national security and
intelligence context. See Reply Mem. at 3; see, e.g., Klay v.
Panetta, 758 F.3d 369 (D.C. Cir. 2014). Certainly, it is
conceivable that a factual context related to the banking
industry could present circumstances that distinguish it
from other cases in which a Bivens remedy for retaliatory
prosecution has been recognized. The essential point here,
however, is that Defendants have not shown how their
status as banking regulators is relevant to the question of
whether a Bivens remedy should be recognized under the
particular factual circumstances of this case, wherein any
banking law or regulatory issues seem, accepting the
allegations as true, completely peripheral to the challenged
conduct (i.e., the bringing of the enforcement action).
Even assuming that this case presents a “new context,”
however, the special factor analysis does not preclude a
Bivens remedy for Plaintiff’s retaliatory prosecution claim.
Defendants contend that the Financial Institutions Reform,
Recovery, and Enforcement Act (“FIRREA”), pursuant to
which the OCC took enforcement action against Plaintiff, is
a “comprehensive remedial scheme” that counsels against
finding an implied cause-of-action under the factual
circumstances of this case. As an initial matter, however,
there is no clear indication that Plaintiff was properly the
subject of a FIRREA enforcement action. As relevant here,
that statutory scheme applies to an “institution-affiliated
party” (“IAP”), which is defined to include: “[A]ny
independent contractor (including any attorney, appraiser,
or accountant) who knowingly or recklessly participates in .
. . any unsafe or unsound practice, which caused or is likely
to cause more than a minimal financial loss to, or a
significant adverse effect on, the insured depository
institution.” 12 U.S.C. § 1813(u)(4). The D.C. Circuit, in

27a

reviewing the denial of Plaintiff’s request for attorney fees
in connection with the enforcement action, concluded that
the administrative record was devoid of evidence linking
Plaintiff’s allegedly illicit actions (drafting two investigative
reports) with a “significant adverse effect on the Bank.”
Loumiet EAJA, 650 F.3d at 799. This accorded with the
decision of the Comptroller dismissing the action against
Plaintiff, which found that the “administrative record lacked
sufficient evidence that the two reports prepared by
[Plaintiff] caused, or were likely to cause, harm to the Bank
that satisfies the ‘effect’ requirement.” Id. at 800. As such,
the D.C. Circuit concluded that the record did not
demonstrate that the OCC’s “litigating position was
justified, let alone ‘substantially’ so.” Id. Consequently, this
case is brought in a posture wherein both the D.C. Circuit
and the Comptroller determined that Plaintiff did not
qualify under the statutory test that determines whether a
party like Plaintiff is subject to FIRREA.
Beyond this, the case at bar is readily distinguishable
from the controlling authorities that have declined to
establish a Bivens remedy due to the existence of a
comprehensive remedial scheme. In each such case, there
was a statutory scheme that provided relief for similarlysituated plaintiffs, but happened not to provide relief for the
litigant, either due to the particular factual circumstances,
or the nature of the relief sought. Given the existence of the
complex ameliorative scheme, however, the reasonable
inference to draw in these cases was that Congress weighed
competing policy goals and fashioned a system of remedies
that
reflected
its
policy-based
determinations.
Consequently, while the remedial scheme may have not
afforded complete relief to the particular plaintiff at bar,
judicial deference to Congressional law-making called for
hesitation before creating a remedy through judicial fiat
under circumstances where the evidence showed that
Congress had intentionally declined to do so.

28a

In Bush v. Lucas, the Supreme Court addressed a
putative First Amendment claim by a Federal employee who
had allegedly been terminated for making critical public
remarks regarding his agency. 462 U.S. at 369. Following a
review of the pertinent regulatory landscape, the Court
determined that “Federal civil servants are now protected by
an elaborate, comprehensive scheme that encompasses
substantive provisions forbidding arbitrary action by
supervisors and procedures—administrative and judicial—
by which improper action may be redressed.” Id. at 385.
Although recognizing that the current system would not
provide “complete relief” to the petitioner, the Court declined
to recognize a Bivens remedy under the circumstances given
the existence of an “an elaborate remedial system that has
been constructed step by step, with careful attention to
conflicting policy considerations . . . .” Id. at 388. This system
and other factors, in the Court’s view, evidenced that
“Congress is in a far better position than a court to evaluate
the impact of a new species of litigation between federal
employees on the efficiency of the civil service.” Id. at 389.
Similarly, in Chilicky, petitioners sought money damages
under Bivens stemming from the denial of their Social
Security benefits. 487 U.S. at 419. The Supreme Court
declined to recognize a Bivens remedy under the
circumstances, holding that “[w]hen the design of a
Government program suggests that Congress has provided
what it considers adequate remedial mechanisms for
constitutional violations that may occur in the course of its
administration, we have not created additional Bivens
remedies.” Id. at 423. In the Court’s view, the Social Security
system evidenced such a design, and “while respondents
ha[d] not been given a remedy in damages for emotional
distress or for other hardships suffered because of delays in
their receipt of Social Security benefits[,] . . . Congress . . .
ha[d] not failed to provide meaningful safeguards or
remedies for the rights of persons situated as respondents

29a

were.” Id. at 425. Based on these precedents, the D.C. Circuit
in Wilson declined to recognize a Bivens remedy against the
Vice President and others for injuries allegedly suffered by
the revelation of plaintiff’s employment with the Central
Intelligence Agency. 535 F.3d at 702. The D.C. Circuit
determined that the disclosure of personal information by
Federal officials, the crux of the complaint, was governed by
the Privacy Act, and the Act was a “comprehensive scheme”
that precluded a Bivens remedy. Although the Act did not
provide a cause of action against the three defendants,
because it excluded the Offices of the President and Vice
President, that exclusion was not inadvertent and thus did
not weigh in favor of granting Bivens relief; rather, the
legislative history of the Act showed that the exclusion was
intentional. Id. at 708. See also Davis v. Billington, 681 F.3d
377, 383 (D.C. Cir. 2012) (defining “comprehensive remedial
scheme” as “when Congress has put in place a
comprehensive system to administer public rights, has not
inadvertently omitted damages remedies for certain
claimants, and has not plainly expressed an intention that
the courts preserve Bivens remedies” (quoting Spagnola, 859
F.2d at 228) (internal quotation marks omitted)).
FIRREA was enacted in response to the savings-and-loan
crisis of the 1980s to “enhance the regulatory enforcement
powers of the depository institution regulatory agencies to
protect against fraud, waste, and insider abuse.” CityFed
Fin. Corp. v. Office of Thrift Supervision, 58 F.3d 738, 741
(D.C. Cir. 1995). FIRREA applies both to banks and, as
relevant here, institution-affiliated parties. If the OCC
determines that an IAP has engaged in actionable
misconduct, it may institute a “cease-and-desist” proceeding,
and if it does so, must provide the IAP with a notice of
charges and an administrative hearing. 12 U.S.C. § 1818(b).
The OCC may also seek civil monetary penalties, which are
likewise subject to an administrative hearing. 12 U.S.C. §
1818(i)(2)(H). The hearing must be conducted before an ALJ

30a

in accordance with the Administrative Procedure Act
(“APA”), and the IAP may choose to be represented by
counsel, and may present evidence and cross- examine
witnesses. 12 U.S.C. § 1818(h)(1); 12 C.F.R. §§ 19.35, 19.36.
In short, the hearing is “a full adversarial proceeding.” Ind.
Defs.’ Mem. at 9. Following the hearing, the ALJ issues a
written recommendation for the Comptroller, who reviews
the decision, the administrative record, and any objections
by the IAP, and issues a final written decision. 12 U.S.C. §
1818(h)(1); 12 C.F.R. §§ 19.38–19.40. The IAP may then seek
review of the final decision before a United States Court of
Appeals. 12 U.S.C. § 1818(h)(2).
Succinctly stated, Defendants’ position is that “the
comprehensive remedial scheme of the FIRREA, coupled
with judicial review under the APA, is a special factor that
counsels hesitation against authorizing a Bivens remedy in
this case.” Reply Mem. at 6. In support, Defendants press
Sinclair, a decision by the United States Court of Appeals
for the Eighth Circuit (“Eighth Circuit”), as dispositive of
FIRREA’s status as a “comprehensive remedial scheme” that
precludes the recognition of a Bivens claim under the
particular factual circumstances of this case. In Sinclair, the
proprietor of Sinclair National Bank (“SNB”) brought a
putative Bivens claim against OCC employees for a series of
adverse regulatory actions, which plaintiff claimed were
retaliatory and motivated by racial animus. These
culminated in the OCC declaring the bank insolvent and
appointing the Federal Deposit Insurance Corporation
(“FDIC”) as a receiver, which promptly sold the assets of
SNB to another bank. Sinclair v. Hawke, 314 F.3d 934, 938
(8th Cir. 2003). The Eight Circuit declined to recognize a
Bivens remedy for this allegedly retaliatory regulatory
action against SNB, finding that Congress had “been
establishing and extensively regulating national banks for
over two hundred years.” Id. at 940. In their view, FIRREA
was simply a further expansion of the already immense

31a

regulatory powers afforded to Federal bank regulators such
as the OCC and FDIC, and all of the “adverse regulatory
actions at issue fell within the OCC’s express statutory
powers to regulate national banks . . . .” Id. at 942.
Importantly, regulatory action was subject to judicial review
via the APA, and to the “extent these APA remedies are
limited, the long history of congressional regulation of
national banks confirms that the limitations are not
inadvertent. Rather, Congress has repeatedly adjusted, and
at times overhauled, these statutory remedies in a
continuing effort to resolve . . . a difficult and delicate
problem of reconciling conflicting interests . . . .” Id. As such,
the Eighth Circuit concluded that it was “for Congress to
decide whether the public interest in a sound national
banking system would be furthered by a cause of action
requiring bank regulators to pay damages personally unless
they can convince a jury that their conduct in aggressively
regulating a national bank was not the product of an
unconstitutional motive.” Id.
The analogy between this case and Sinclair, while
appealing, is ultimately specious. As an initial matter, the
D.C. Circuit in Munsell expressed skepticism with precisely
the sort of analysis pressed by Sinclair; namely, that APA
review precludes a Bivens remedy. In that case, the D.C.
Circuit assessed a claim that Federal Food Safety and
Inspection Service “officials used USDA enforcement powers
to retaliate against [plaintiff] for statements he made
concerning USDA’s handling of an E. coli outbreak in 2002.”
Munsell v. Dep’t of Agric., 509 F.3d 572, 589 (D.C. Cir. 2007).
In so doing, the court reviewed another decision by the Eight
Circuit, Nebraska Beef, which, in reliance on the holding in
Sinclair, concluded that when “Congress has created a
comprehensive regulatory regime, the existence of a right to
judicial review under the APA is sufficient to preclude a
Bivens action.” Nebraska Beef, Ltd. v. Greening, 398 F.3d
1080, 1084 (8th Cir. 2005) (citing Sinclair, 314 F.3d at 940).

32a

The D.C. Circuit noted that the decision in “Nebraska Beef
leaves some weighty issues unanswered[,]” and that it was
“unaware of any Supreme Court decision holding that APA
review alone is sufficient to eliminate the need for a Bivens
remedy.” Munsell, 509 F.3d at 590. Moreover, the D.C.
Circuit opined that even “assuming, arguendo, that the
existence of APA review might factor into a determination
as to whether a Bivens remedy is available, its relevance
would be minimal in a case involving claimants who are
ineligible for relief under the APA.” Id.
Whatever the significance of APA review may have been
in Sinclair, it does little here to obviate the need for a Bivens
remedy. In Sinclair, the OCC successfully engaged in
regulatory action that could have been challenged in court
pursuant to the APA. Here, the presiding ALJ and the
Comptroller ultimately declined to take any enforcement
action against Plaintiff. As a result, there was no final
decision to review, and Defendants have not proffered any
explanation of how Plaintiff, under the particular factual
circumstances of this case, could have sought relief through
the amalgam of FIRREA and the APA. However, while this
distinction is important, it does not end the inquiry. As
recounted above, the failure of a putative “comprehensive
remedial scheme” to afford “complete relief” is not
dispositive if the absence of such relief is the product of
intentional Congressional policy making. In this vein, the
Sinclair court determined that regulatory action pursuant
to FIRREA was limited to APA review as a result of
Congressional balancing of competing policy interests: those
of banks, who would benefit from additional review, against
those of depositors, who would benefit from the ability of
banking regulators to take prompt ameliorative action. As
such, the absence of a remedy equivalent to what would be
available under Bivens was not accidental, but a product of
that intentional balancing of competing interests. This
reasoning is consistent with that of the Supreme Court and

33a

D.C. Circuit authorities discussed earlier, each of which
concluded that although the pertinent remedial scheme was
limited as applied to the plaintiff at bar, that limitation was
the product of Congressional choice in an area subject to
Congressional law- making, and consequently counseled
against the recognition of a judicially created remedy.
In order to press a similar argument in this case,
Defendants would need to show that the absence of a remedy
for Plaintiff under the circumstances of this case was the
intentional product of how Congress constructed the
administrative review procedures under FIRREA. But
Defendants have completely failed to furnish any legislative
or other evidence that Congress intentionally excluded
claims similar to Plaintiff’s from FIRREA. Nor does the
statute itself indicate an intent to exclude such claims. While
it may be sensible for review of regulatory action to be
limited to what is available under the APA, that conclusion
does not flow so readily for prosecutorial action that is
alleged to have been wholly ultra vires. In fact, Defendants
have pointed to no mechanism under FIRREA for review of
prosecutorial abuse, other than the APA review that
generally applies to a final decision of the Comptroller.
Consequently, the question at hand ultimately reduces to
whether the absence of APA review for Plaintiff’s claim is
the product of intentional Congressional policymaking in
constructing FIRREA.
On this point, however, no evidence has been proffered,
nor does such intent seem likely. The absence of APA review
in this case stems from the fact that the presiding ALJ and
the Comptroller ultimately determined that the enforcement
action against Plaintiff had to be dismissed. As a result, to
agree with Defendants, the Court would need to conclude
that Congress intended to limit review of retaliatory
prosecution claims within the confines of FIRREA to only
those cases where the OCC rendered a final decision (i.e.,

34a

where the allegedly improper prosecution is successful),
regardless of the length of the prosecution and its toll on
plaintiff, and the practical reality that the most meritless
prosecutions are the ones that are most likely to prove
unsuccessful when subject to the review of a neutral arbiter.
Absent some affirmative evidence, the Court declines to
conclude that Congress intended this odd result. See
Munsell, 509 F.3d at 591 (“Thus, in a case of this sort, were
the possibility of APA review deemed sufficient to foreclose
a Bivens remedy, the very success of the unconstitutional
conduct in removing [Plaintiff] from the regulated arena
would make APA review unavailable and insulate the
conduct entirely from judicial review. That would make little
sense.”). Moreover, this determination comports with the
recognition of a Bivens claim for retaliatory prosecution in
the criminal context, given that in those cases further review
was plainly available via the appeals process (although, like
here, only for retaliatory prosecutions that proved
successful); and this determination also comports with other
district court decisions that have allowed Bivens claims to
proceed under similar circumstances. See Navab-Safavi v.
Broad. Bd. of Governors, 650 F. Supp. 2d 40, 69 (D.D.C.
2009) (recognizing Bivens remedy despite the availability of
APA review), aff’d sub nom. Navab-Safavi v. Glassman, 637
F.3d 311 (D.C. Cir. 2011); Zherka v. Ryan, 52 F. Supp. 3d
571, 580 (S.D.N.Y. 2014) (recognizing Bivens claim for
retaliation by employees of the Internal Revenue Service,
despite the availability of administrative review as provided
by the Internal Revenue Code, and also noting that
“[l]eaving plaintiff to pursue administrative remedies
through the very agency he asserts has targeted him for
retaliatory investigation would be, in essence, no remedy at
all”). Accordingly, for all of the foregoing reasons, the Court
concludes that FIRREA is not a “comprehensive remedial
scheme” that counsels against the recognition of a Bivens
remedy under the particular factual circumstances of this
case.

35a

Defendants’ remaining “special factor” argument is that
recognizing a Bivens claim here would have a “chilling effect”
on the willingness of banking regulators like the OCC
employees at issue “to aggressively attack unsafe banking
practices.” Ind. Defs.’ Mem. at 11 (citing Sinclair, 314 F.3d
at 939). As such, Defendants contend that “there is more
than a reasonable fear that a general Bivens cure would be
worse than the disease.” Id. (citing Wilkie, 551 U.S. at 561).
The Court disagrees. First, this case treads on familiar
ground, as its salient facts are not substantially dissimilar
from the controlling authorities that have recognized the
existence of a Bivens claim for retaliatory prosecution.
Second, the factual circumstances of this case are unique in
the context of regulatory enforcement actions undertaken by
banking regulators like the OCC. Plaintiff alleges that he
was prosecuted without cause, in connection with a matter
in which he had little substantive involvement, solely for
statements he made against the prosecuting agency. See
infra at 26–27. Although these allegations may, on their
own, seem self-serving, the Court is also guided by the
practical reality that the presiding ALJ and the Comptroller
determined that the prosecution should be dismissed, and
that the D.C. Circuit later concluded that the prosecution
was not “justified” by the administrative record. Loumiet
EAJA, 650 F.3d at 800. Based on these allegations, which
must be taken as true for purposes of the pending motions,
the case at bar is plainly not a run-of-the-mill lawsuit in
which the subject of adverse regulatory action, unhappy
with the result, sues the responsible government officials.
Rather, this case presents a unique constellation of factual
allegations—most importantly that neutral authorities have
expressed skepticism at the propriety of the challenged
prosecution—that are unlikely to be present in other cases.
Consequently, given the uniqueness of the allegations in this
case, in this Court’s view, allowing Plaintiff to proceed with
his First Amendment Bivens claim is unlikely to have a

36a

chilling effect on the proper regulatory activities of banking
regulators like the Individual Defendants. Accordingly, no
special factor pressed by Defendants counsels against the
recognition of a Bivens remedy in this case for Plaintiff’s
claim of retaliatory prosecution by the Individual
Defendants in violation of his First Amendment right to
freedom of speech. As such, Plaintiff’s First Amendment
claim is cognizable under Bivens, and the Court proceeds to
assess whether Plaintiff has stated viable claims against
each of the Individual Defendants to whom such a claim
could attach.
B.

Plaintiff Has Stated a Plausible First
Amendment Bivens Claim Against Defendants
Rardin, Schneck, and Sexton, But Not Straus

Before assessing whether the allegations of the
Complaint state a plausible First Amendment claim against
each of the Individual Defendants, the Court surveys the
legal framework of two doctrines that could potentially
preclude such a claim: absolute prosecutorial immunity, and
qualified immunity.
1. Absolute Immunity
Federal prosecutors enjoy absolute immunity for
“initiating a prosecution and in presenting the State’s case .
. . .” Imbler v. Pachtman, 424 U.S. 409, 431 (1976). This
principle has been extended by the Supreme Court to agency
officials who perform tasks under administrative auspices
that are equivalent to that of a prosecutor in a court of law.
Butz v. Economou, 438 U.S. 478, 515 (1978) (“agency officials
performing certain functions analogous to those of a
prosecutor should be able to claim absolute immunity with
respect to such acts”). Consequently, “those officials who are
responsible for the decision to initiate or continue a
proceeding subject to agency adjudication are entitled to

37a

absolute immunity from damages liability for their parts in
that decision.” Id. at 516; see also Gray v. Poole, 243 F.3d
572, 577 (D.C. Cir. 2001) (extending absolute immunity to a
government attorney for initiating a civil child neglect
action). Nonetheless, an act is not immune merely because
it is performed by a prosecutor; for instance, absolute
prosecutorial immunity does not extend to “investigative
functions normally performed by a detective or police
officer[,]” which are generally only afforded qualified
immunity. Buckley v. Fitzsimmons, 509 U.S. 259, 273 (1993).
In Hartman, the Supreme Court explained the effect of
absolute immunity in the context of a First Amendment
Bivens claim for retaliatory prosecution. There, the Court
instructed that a Bivens
action for retaliatory prosecution will not be brought
against the prosecutor, who is absolutely immune
from liability for the decision to prosecute . . . .
Instead, the defendant will be a nonprosecutor, an
official, like an inspector here, who may have
influenced the prosecutorial decision but did not
himself make it, and the cause of action will not be
strictly for retaliatory prosecution, but for successful
retaliatory inducement to prosecute.
Hartman, 547 U.S. at 261–62. Thus, in light of absolute
prosecutorial immunity, the focus of a retaliatory
prosecution claim is primarily on the non-prosecuting
officials who induced the allegedly improper prosecution,
and not the prosecutors themselves, unless they perform
non-immunized tasks that likewise engender the improper
prosecution. Id. at 262 n.8 (noting that “[a]n action could still
be brought against a prosecutor for conduct taken in an
investigatory capacity,” and noting that plaintiff’s complaint
“charged the prosecutor with acting in an investigative as
well as in a prosecutorial capacity, . . . but dismissal of the

38a

complaint as against the prosecutor was affirmed . . . , and
no claim against him is before us now”). The Court addresses
whether any of the Individual Defendants are entitled to
dismissal on the basis of absolute prosecutorial immunity
below, in connection with its assessment of whether Plaintiff
has stated a plausible claim for retaliatory prosecution.
2. Qualified Immunity
The Individual Defendants also contend that they are
shielded from litigation by the doctrine of qualified
immunity, which “protects government officials from
liability for civil damages insofar as their conduct does not
violate clearly established statutory or constitutional rights
of which a reasonable person would have known.” Pearson v.
Callahan, 555 U.S. 223, 231 (2009) (internal quotation
marks omitted). In order for a complaint to counter an
assertion of qualified immunity, a plaintiff must plead “facts
showing (1) that the official violated a statutory or
constitutional right, and (2) that the right was clearly
established at the time of the challenged conduct.” Ashcroft
v. al–Kidd, 563 U.S. 731, 735 (2011) (internal quotation
marks omitted). With respect to the second element, “though
in the light of pre-existing law the unlawfulness of the
officer’s conduct must be apparent, there is no need that the
very action in question have previously been held unlawful.”
Navab-Safavi, 637 F.3d at 317 (internal quotation marks
and alterations omitted) (declining to remand on the basis of
qualified immunity because it “cannot be gainsaid that a
person expressing her viewpoint is exercising an established
constitutional right”); Ashcroft, 563 U.S. at 735 (“We do not
require a case directly on point, but existing precedent must
have placed the statutory or constitutional question beyond
debate.”). Put differently, qualified immunity does not
attach simply because the factual circumstances of the
present case are in some sense unique. Hope v. Pelzer, 536
U.S. 730, 741 (2002) (“officials can still be on notice that their

39a

conduct violates established law even in novel factual
circumstances”). Rather, the “relevant, dispositive inquiry in
determining whether a right is clearly established is
whether it would be clear to a reasonable officer that his
conduct was unlawful in the situation he confronted.”
Saucier v. Katz, 533 U.S. 194, 201–02 (2001).
Defendants contend that they did not violate a “clearly
established” right because when the OCC initiated its
enforcement action against Plaintiff in November 2006,
there “was no law establishing that the initiation of a civil
administrative proceeding—as opposed to a criminal
prosecution—can support a retaliatory prosecution claim.”
Ind. Defs.’ Mem. at 18. The Court notes that this is the only
instance in their briefing on the pending motions where
Defendants seek to distinguish the OCC’s enforcement
action from other retaliatory prosecution cases on the basis
that the prosecution here proceeded under administrative
auspices (for example, they do not argue that this case
presents a new Bivens context on that basis). This position
is also somewhat at odds with Defendants’ claim of absolute
prosecutorial immunity. In any event, the argument is of no
avail.
The D.C. Circuit has stated unequivocally that it “clearly
established in 1988 . . . the contours of the First Amendment
right to be free from retaliatory prosecution.” Moore v.
Hartman, 704 F.3d 1003, 1004 (D.C. Cir. 2013). More
generally, in Hartman, the Supreme Court stated that “the
law is settled that as a general matter the First Amendment
prohibits government officials from subjecting an individual
to retaliatory actions, including criminal prosecutions, for
speaking out . . . .” 547 U.S. at 256. As support for that
general proposition, the Supreme Court relied upon two
earlier decisions, Crawford, issued in 1998, and Perry,
issued in 1972. Id.; Crawford–El v. Britton, 523 U.S. 574,
588, 592 (1998) (“the general rule has long been clearly

40a

established [that] the First Amendment bars retaliation for
protected speech”); Perry v. Sindermann, 408 U.S. 593, 597
(1972) (noting that the government may not punish a person
or deprive him of a benefit on the basis of his
“constitutionally protected speech”). Based on these
precedents, it has been clearly established, long before the
OCC instituted the enforcement action against Plaintiff,
that retaliatory action by Federal officials against protected
speech is unconstitutional. And this general principle was
further crystalized by authorities which held that retaliatory
prosecutions were a particular example of this sort of
unconstitutional behavior. That these cases did not involve
an administrative proceeding is ultimately a distinction
without a difference. The pertinent question is whether the
general constitutional principle was sufficiently established
that it should have been clear to the Individual Defendants
that their conduct, if the allegations prove true, was
unlawful. Here, the case law had clearly established the
unlawfulness of retaliatory conduct generally, and
retaliatory prosecutions more specifically. The OCC’s
enforcement powers, by Defendants’ own admission, are
immense and may be exercised in an administrative hearing
with all the hallmarks of full court proceeding. See supra at
14. Moreover, the possible sanctions, albeit not criminal, are
no less severe than what could face a criminal defendant.
Plaintiff, in particular, faced a $250,000 fine and exclusion
from the banking industry, and by extension, his chosen
legal practice. 3 Compl. ¶ 80.
3 These factual circumstances distinguish this case from the noncontrolling authority pressed by Defendants: Bank of Jackson County v.
Cherry, 980 F.2d 1362 (11th Cir. 1993). See Ind. Defs.’ Mem. at 18–19.
There, the United States Court of Appeals for the Eleventh Circuit
(“Eleventh Circuit”) affirmed a grant of summary judgment on the
basis of qualified immunity for a Bivens suit in which plaintiff, a small
bank, alleged that it was “debarred” from working with the Farmers
Home Administration, a federal agency that guaranteed the bank’s

41a

Given the gravity of the enforcement action, and the
established case law just recounted, if the allegations are
substantiated, it should have been clear to the Individual
Defendants that using their immense enforcement powers
as a means to retaliate against Plaintiff for his protected
speech was unconstitutional. Accordingly, the Court
concludes that the right against retaliatory prosecution was
clearly established at the time the Individual Defendants
initiated the enforcement action. As a result, the Individual
Defendants are not entitled to dismissal on the basis of
qualified immunity so long as Plaintiff has stated a plausible
claim that they violated this right, an issue addressed in the
following section.
3. Plaintiff Has Stated a Plausible Claim
Against Defendants Rardin, Schneck, and
Sexton, But Not Straus
The “essential elements” of a retaliatory prosecution
claim are
[F]irst, that the conduct allegedly retaliated against
or sought to be deterred was constitutionally
protected, and, second, that the State’s bringing of the
criminal prosecution was motivated at least in part by
a purpose to retaliate for or to deter that conduct. If
loans to farmers, in retaliation for a legal dispute with the agency. Id.
at 1364–65. In relevant part, the Eleventh Circuit held that “[a]ny legal
similarity between [the] debarment, on the one hand, and criminal
prosecution, on the other, would not have been readily apparent to
government officials attempting to do their jobs on a day-to-day basis.”
Id. at 1370. Here, for the reasons stated, the allegations suggest that
the similarity was far more apparent.

42a

the Court concludes that the plaintiffs have
successfully discharged their burden of proof on both
of these issues, it should then consider a third:
whether the State has shown by a preponderance of
the evidence that it would have reached the same
decision as to whether to prosecute even had the
impermissible purpose not been considered.
Haynesworth, 820 F.2d at 1257 n.93. 4
Plaintiff alleges that Defendant Rardin was the
examiner-in-chief (“EIC”) in charge of Hamilton Bank from
2000 to 2001, and that he was “actively involved” in the OCC
enforcement action against Plaintiff, Compl. ¶ 3; that Lee
Straus “is an enforcement attorney at the OCC who was the
lead counsel” in the enforcement action, id. ¶ 4; that
Defendant Schneck “is Director of the Special Supervision
and Fraud Division at the OCC [and] was actively involved
in the OCC’s various dealings with Hamilton from 2000 to
2001,” as well as with the enforcement action, id. ¶ 5; and
finally, that Defendant Sexton is “Assistant Director of the
Enforcement and Compliance Division of the OCC,” and was
similarly “actively involved in the OCC’s various dealings
with Hamilton from 2000 to 2001,” and the enforcement
action, id. ¶ 6. Defendant Sexton, like Defendant Straus, is
an “experienced Government enforcement lawyer.” Id.
Plaintiff alleges that the Individual Defendants were all
In Hartman, the Supreme Court added the additional
requirement that plaintiffs bringing a retaliatory prosecution suit must
plead and prove the absence of probable cause. 547 U.S. at 265.
Defendants do not challenge the Complaint on the basis that it has
failed to adequately plead the absence of probable cause (or its
equivalent), an unsurprising result given the D.C. Circuit’s
determination that the enforcement action was not justified. In any
event, the Court finds that Plaintiff has adequately pled the absence of
probable cause, or its equivalent in the administrative setting in which
the enforcement action was brought.
4

43a

“senior, influential employees of the OCC, with particularly
strong say and influence on enforcement matters.” Id. ¶ 7.
According to the Complaint, Plaintiff’s critical
statements toward the OCC caused severe embarrassment
to OCC “officials who had been involved in the OCC behavior
relating to Hamilton that those letters criticized, including
prominently, and in senior roles, defendants Rardin,
Schneck, and Sexton.” Id. ¶ 52. According to Plaintiff, these
same officials, “all embarrassed and angered by [Plaintiff’s]
whistle-blowing, began discussing how to retaliate against
him for his temerity, [and] all three of these defendants were
actively involved in the case brought by the OCC.” Id. ¶ 61.
Defendant Sexton, in particular, is alleged to have said, in
reference to the investigative reports prepared by Plaintiff,
that Plaintiff had “gone too far,” and that he and others “had
to pay.” Id. ¶ 64. Consequently, Plaintiff alleges that the
decision to bring an enforcement action against him was
“unduly influenced by defendants Rardin, Sexton and
Schneck . . . .” Id. ¶ 72.
Taking the foregoing allegations as true and drawing all
reasonable inferences in Plaintiff’s favor, as the Court must
at this procedural juncture, Plaintiff’s allegations, taken as
a whole, plausibly suggest that Defendants Rardin, Schneck,
and Sexton used the fruits of their investigation into
Hamilton Bank (i.e., their scrutiny of the investigative
reports drafted by Plaintiff) to improperly induce an
enforcement action against Plaintiff in reprisal for critical
statements that he made against them and the OCC more
generally. This view of the Complaint is corroborated by the
fact that the ALJ, the Comptroller, and the D.C. Circuit
ultimately concluded that the enforcement action was not
meritorious. Loumiet EAJA, 650 F.3d at 800; see also
Hartman, 547 U.S. at 261 (“[d]emonstrating that there was
no probable cause for the underlying criminal charge will
tend to reinforce the retaliation evidence and show that

44a

retaliation was the but-for basis for instigating the
prosecution”). Moreover, Plaintiff has alleged that an action
was brought against him—and not other advisors involved
with the Hamilton Bank investigation—despite him having
relatively less involvement with that investigation, id. ¶¶
28, 84, and that the OCC ultimately concluded that
Plaintiff’s work product, which was the purported basis of
the enforcement action, did not “cause[] more than a
minimal financial loss to, or a significant adverse effect on
[Hamilton Bank,]” Loumiet EAJA, 650 F.3d at 800. Taken as
a whole, the foregoing suffices to state a claim of retaliatory
prosecution against Defendants Rardin, Schneck, and
Sexton.
Because the allegations against these three Defendants
plausibly state that they induced the enforcement action
against Plaintiff through their investigative conduct, and
did not merely act as prosecutors who made the ultimate
decision to prosecute, they are not entitled to absolute
prosecutorial immunity at this procedural juncture. See
supra at 19–20. Furthermore, because the Complaint
plausibly alleges that they violated a right that the Court
has concluded was clearly established at the time of the
alleged violation, these three Defendants are also not
entitled to qualified immunity at this procedural juncture.
Nonetheless, further factual development may show that
these Defendants are entitled to one or both of these
immunities. The only allegations in the Complaint with
respect to Defendant Straus, however, are that he was lead
counsel of the enforcement action, and that he made certain
comments to the press in the course of the prosecution that
were critical of Plaintiff. Compl. ¶¶ 4, 78, 85. Of these two,
the only actionable conduct is Defendant Straus’ press

45a

commentary, 5 his prosecutorial conduct being entitled to
absolute immunity, see supra 19–20. But the gravamen of a
retaliatory prosecution claim is the decision to, or
inducement of, prosecution, and consequently the
statements that Defendant Straus allegedly made to the
press in the course of the prosecution do not make out a claim
of retaliatory prosecution. Accordingly, Plaintiff’s First
Amendment Bivens claim shall proceed against Defendants
Rardin, Schneck, and Sexton, but shall be dismissed,
without prejudice, against Defendant Straus on the basis of
absolute immunity and for failure to state a claim.
C.

Plaintiff Has Not Stated
Amendment Bivens Claim

a Viable Fifth

Plaintiff also alleges a Fifth Amendment due process
claim against the Individual Defendants. The count in the
Complaint alleging this claim merely mirrors the First
Amendment count. Compare Compl. ¶¶ 140–142, with id. ¶¶
137–139. Moreover, Plaintiff has not briefed whether a Fifth
Amendment claim for retaliatory prosecution is cognizable
under Bivens, or whether such a Fifth Amendment claim
was sufficiently established to avoid dismissal on the basis
of qualified immunity. To the extent Plaintiff’s Fifth
Amendment claim is intended to bring a substantive due
process claim for the First Amendment violation already
discussed at length, that is foreclosed by Supreme Court
precedent. Albright v. Oliver, 510 U.S. 266, 273 (1994)
(“Where a particular Amendment provides an explicit
textual source of constitutional protection against a
particular sort of government behavior, that Amendment,
not the more generalized notion of substantive due process,
must be the guide for analyzing these claims.” (internal
Defendants acknowledge that the press commentary alleged in
the Complaint is not entitled to absolute prosecutorial immunity. Reply
Mem. at 8 (citing Buckley, 509 U.S. at 278).
5

46a

quotation marks omitted)). However, in his opposition to the
pending motions, Plaintiff seeks to restyle his Fifth
Amendment claim as a “stigma plus” or “reputation plus”
due process claim. Opp’n Mem. at 32. To bring such a claim
in the D.C. Circuit, Plaintiff must plausibly allege that the
Individual Defendants engaged in conduct that not only
harmed Plaintiff’s reputation, but that also either formally
excluded Plaintiff from a chosen trade or profession, or
caused “harms approaching, in terms of practical effect,
formal exclusion from a chosen trade or profession . . . .”
Trifax Corp. v. District of Columbia, 314 F.3d 641, 644 (D.C.
Cir. 2003). “The key inquiry then is this: Has the
government, by attacking personal or corporate reputation,
achieved in substance an alteration of status that, if
accomplished through formal means, would constitute a
deprivation of liberty?” Id. Absent such “broad preclusion”
from a chosen trade or profession, a Fifth Amendment claim
will not lie even if the government conduct would “impair
[plaintiff’s] future employment prospects . . . so long as such
damage flows from injury caused by the defendant to a
plaintiff's reputation.” Siegert v. Gilley, 500 U.S. 226, 234
(1991). For example, in Kartseva, the D.C. Circuit remanded
for the district court to determine whether the government
conduct in that case had effectively precluded plaintiff “from
pursuing her profession as a Russian language translator,”
or whether plaintiff had “merely lost one position in her
profession but is not foreclosed from reentering the field,” in
which case her Fifth Amendment claim would not be viable.
Kartseva v. Dep’t of State, 37 F.3d 1524, 1529 (D.C. Cir.
1994).
Here, Plaintiff has not alleged that the conduct of the
Individual Defendants has precluded him from engaging in
his chosen career as a banking law practitioner. Rather, the
Complaint alleges that Plaintiff’s “practice—particularly in
the banking field—largely evaporated,” and that his “income
dropped significantly,” and that he “fell six partnership

47a

levels . . . .” Compl. ¶ 106. Although these allegations
plausibly state that Plaintiff’s employment prospects were
impaired, that is not equivalent to him being precluded from
practicing law as a banking attorney. Indeed, by the plain
terms of the Complaint, he remained a partner at a law firm,
and his practice only “largely” evaporated; it did not cease to
exist. Accordingly, the Complaint does not state a plausible
“reputation-plus” or “stigma-plus” Fifth Amendment Bivens
claim, and Plaintiff has not presented any other theory of
how his Fifth Amendment claim could proceed. As a result,
the Fifth Amendment claim shall be dismissed.
D.

The State-Law Tort Claims Against the
Individual Defendants are Converted to FTCA
Claims Against the United States

Defendants contend that the state-law tort claims
against the Individual Defendants for intentional infliction
of emotional distress (Count I), invasion of privacy (Count
II), abuse of process (Count III), malicious prosecution
(Count IV), and conspiracy (Count VIII), are automatically
converted to FTCA claims against the United States
pursuant to the Westfall Act, 28 U.S.C. § 2679(d), which
“accords federal employees absolute immunity from
common-law tort claims arising out of acts they undertake
in the course of their official duties.” Osborn v. Haley, 549
U.S. 225, 229 (2007). Pursuant to the Westfall Act, all that
is required for conversion of the state-law claims against the
Individual Defendants is a certification of a designee of the
Attorney General that the Individual Defendants were
“acting within the scope of [their] office or employment at
the time of the incident out of which the claim[s] arose . . . .”
28 U.S.C. § 2679(d)(1). Here, such a certification has been
provided by the Director of the Torts Branch of the
Department of Justice’s Civil Division, a designee of the
Attorney General, and Plaintiff does not oppose the
conversion in his opposition to the pending motions. Ind.

48a

Defs. Mem at 21, Ex. 1; see FDIC v. Bender, 127 F.3d 58, 67–
68 (D.C. Cir. 1997) (“It is well understood in this Circuit that
when a plaintiff files an opposition to a motion to dismiss
addressing only certain arguments raised by the defendant,
a court may treat those arguments that the plaintiff failed
to address as conceded.”). Accordingly, the state-law tort
claims against the Individual Defendants are converted to
FTCA claims against the United States.
E. Plaintiff’s FTCA Claim
1. Discretionary-Function Exception
The D.C. Circuit has instructed that “the discretionaryfunction exception does not categorically bar FTCA tort
claims where the challenged exercise of discretion allegedly
exceeded the government’s constitutional authority to act.”
Loumiet IV, 828 F.3d at 939. The task for this Court on
remand was to determine whether Plaintiff’s “complaint
plausibly alleges that the OCC’s conduct exceeded the scope
of its constitutional authority so as to vitiate discretionaryfunction immunity.” Id. at 946. For the reasons discussed
above, the Court has concluded that Plaintiff has plausibly
alleged that Defendants engaged in conduct that violated a
clearly established First Amendment right against
retaliatory prosecution. See supra at 28. As Defendants
make no other challenges on this point, the Court concludes
that the United States may not make use of the
discretionary-function exception of the FTCA under the
circumstances of this case to shield itself from Plaintiff’s
state-law tort claims predicated on the OCC’s allegedly
retaliatory enforcement action.
2. Plaintiff’s Malicious Prosecution and Abuse of
Process Claims Must be Dismissed

49a

The waiver of sovereign immunity afforded by the FTCA
generally does not apply to claims of malicious prosecution
or abuse of process, among a number of other intentional
torts. 28 U.S.C. § 2680(h). Nonetheless, the Act contains an
exception to this general rule, known as the Law
Enforcement Proviso, which states that “with regard to acts
or omissions of investigative or law enforcement officers of
the United States Government, the [FTCA] shall apply to
any claim arising . . . out of . . . abuse of process, or malicious
prosecution.” Id. Accordingly, in order for Plaintiff to pursue
these two claims, as he seeks to do in the Complaint, he must
establish that the OCC employees who engaged in the
allegedly tortious activity were “investigative or law
enforcement officers of the United States.”
The FTCA defines “investigative or law enforcement
officer” as “any officer of the United States who is
empowered by law to execute searches, to seize evidence, or
to make arrests for violations of Federal law.” Id. According
to Plaintiff, OCC officials are vested with
so-called “visitorial powers,” which allows federal
agents to (i) examine a bank; (ii) inspect a bank’s
books and records; (iii) regulate and supervise the
bank; and (iv) enforce compliance with any applicable
federal or state laws concerning those activities. The
agents also are empowered to engage in
comprehensive investigations, where they can
command attendance at depositions, administer
oaths, and depose officers, directors, employees, or
agents of the bank under oath.
Opp’n Mem. at 35 (citing 12 U.S.C. §§ 481, 484, 1820). The
officials are also empowered to “issue, revoke, quash, or
modify subpoenas.” Id. (citing 12 U.S.C. § 1818(n)). In the
Court’s view, however, these powers do not suffice to render
OCC officials “investigative or law enforcement officers,” as

50a

none of these rights amount to a power to execute searches,
to seize evidence, or to make arrests. In a closely analogous
case, another district court held that officials of the Office of
Thrift Supervision (“OTS”), a bank regulator, were not
investigative or law enforcement officers, as there was no
“legal authority vested in the OTS to execute searches, to
seize evidence, or to make arrests for violations of Federal
law.” Biase v. Kaplan, 852 F. Supp. 268, 281 (D.N.J. 1994);
see also Saratoga Sav. & Loan Ass’n v. Fed. Home Loan Bank
of San Francisco, 724 F. Supp. 683, 689 (N.D. Cal. 1989)
(finding that Federal bank examiners with the Federal
Home Loan Bank were not “investigative or law enforcement
officers”). In particular, the Biase court noted that while
“OTS is empowered to examine bank documents and issue
subpoenas therefor, . . . OTS must make application to a
district court to compel access to documents,” which does not
suffice to render such bank examiners law enforcement
officers. 852 F. Supp. at 281 n.9 (collecting cases).
The same is true here. Of the various powers described
above, the only one that potentially suffices to render the
OCC officials subject to the Law Enforcement Proviso is the
ability to subpoena evidence. Nonetheless, much like the
OTS officials in Biase, the OCC officials in this case can only
enforce witness and document subpoenas by application to a
United States District Court. 12 U.S.C. § 1818(n) (“such
agency . . . may apply to the United States District Court . .
. for enforcement of any subpena or subpena duces tecum
issued pursuant to this subsection”). Accordingly, OCC
officials are not subject to the Law Enforcement Proviso
merely by virtue of their subpoena powers. See Art MetalU.S.A., Inc. v. United States, 577 F. Supp. 182, 185 (D.D.C.
1983) (“[o]btaining evidence by subpoena is the antithesis of
obtaining it through search and seizure”), aff’d, 753 F.2d
1151 (D.C. Cir. 1985).

51a

The other powers afforded to OCC officials—to review
bank records and engage in regulatory activities—likewise
do not constitute the types of powers to execute searches,
seize evidence, or make arrests that were envisioned by the
Law Enforcement Proviso. The Proviso was enacted by
Congress “as a counterpart to the Bivens case and its
progeny, in that it waives the defense of sovereign immunity
so as to make the Government independently liable in
damages under state law for the same type of conduct that
is alleged to have occurred in Bivens[,]” which involved
federal narcotics agents searching a residence and making
arrests. Denson v. United States, 574 F.3d 1318, 1336 (11th
Cir. 2009) (citing S. Rep. No. 93–588 (1974)) (alterations in
original omitted). Consequently, the bank examination
functions of the OCC described above are plainly not
equivalent to the type of law enforcement searches and
seizures that Congress intended to waive immunity for with
the passage of the Law Enforcement Proviso.
Finally, although Plaintiff requests that the Court
permit discovery on this issue, which would be tantamount
to jurisdictional discovery given that sovereign immunity
implicates this Court’s subject matter jurisdiction, 6 he does
not explain how that discovery would be helpful to the
resolution of this issue. The FTCA makes clear that whether
See FC Inv. Grp. LC v. IFX Markets, Ltd., 529 F.3d 1087, 1094
(D.C. Cir. 2008) (“a request for jurisdictional discovery cannot be based
on mere conjecture or speculation”); Atlantigas Corp. v. Nisource, Inc.,
290 F. Supp. 2d 34, 53 (D.D.C. 2003) (“Where there is no showing of
how jurisdictional discovery would help plaintiff discover anything
new, it is inappropriate to subject defendants to the burden and
expense of discovery.” (internal quotation marks and alterations
omitted)); Williams v. ROMARM, 187 F. Supp. 3d 63, 72 (D.D.C. 2013),
aff’d sub nom. Williams v. Romarm, SA, 756 F.3d 777 (D.C. Cir. 2014)
(“[W]hen requesting jurisdictional discovery, a plaintiff must make a
detailed showing of what discovery it wishes to conduct or what results
it thinks such discovery would produce.” (internal quotation marks and
alterations omitted)).
6

52a

an official is an “investigative or law enforcement officer”
depends on whether they are “empowered by law” to execute
the functions enumerated in the statute. Here, the Court has
reviewed the relevant law and found that the OCC officials
are not so empowered. Furthermore, the two out-of-Circuit
authorities relied upon by Plaintiff to seek discovery are not
persuasive. First, in Sutton, the Fifth Circuit did not require
the district court on remand to permit discovery, as Plaintiff
contends, but rather required the court to make a
determination as to whether the official at issue fit the
Proviso. Sutton v. United States, 819 F.2d 1289, 1294 n.8
(5th Cir. 1987). And while Plaintiff seeks to equate the
powers of the OCC officials here with those of the Postal
Inspectors in Sutton, the Fifth Circuit expressly noted that
the latter are empowered to “[m]ake arrests without warrant
. . . .” Id. The other authority relied upon by Plaintiff,
Pellegrino, faced the question of whether “airport security
screenings” by Transportation Security Agents constituted
“searches” for purposes of the Law Enforcement Proviso. The
Pellegrino court expressly noted the similarity between
these “screenings” and the type of unlawful, warrantless
searches that were the subject of Bivens and the Law
Enforcement Proviso, and consequently permitted discovery
to determine whether this conduct in fact amounted to a type
of warrantless search subject to the Proviso. Pellegrino v.
U.S. Transp. Sec. Admin., 855 F. Supp. 2d 343, 356 (E.D. Pa.
2012). As already stated here, there is no indication in the
applicable law, or any allegation in the Complaint, that OCC
officials are empowered to engage in conduct that
approximates the activities envisaged by the Law
Enforcement Proviso. Accordingly, the Court finds that the
OCC officials at issue were not “investigative or law
enforcement officers,” and that, as a result, Plaintiff’s
malicious prosecution and abuse of process claims shall be
dismissed without prejudice.

53a

3. Based on the Court’s Prior Ruling, The
Invasion of Privacy Claim Can Proceed
“Invasion of privacy is not one tort, but a complex of four,
each with distinct elements and each describing a separate
interest capable of being invaded.” Greenpeace, Inc. v. Dow
Chem. Co., 97 A.3d 1053, 1061 (D.C. 2014) (internal
quotation marks omitted). Of the four, the one relevant here
is “public disclosure of private facts.” Id. The elements of this
claim are “(1) publicity, (2) absent any waiver or privilege,
(3) given to private facts (4) in which the public has no
legitimate concern (5) and which would be highly offensive
to a reasonable person of ordinary sensibilities.” Wolf v.
Regardie, 553 A.2d 1213, 1220 (D.C. 1989). Plaintiff alleges
that private facts were tortiously disclosed in two instances:
the November 6, 2006 Notice of Charges, and an October 3,
2006 press release issued by the OCC with respect to the
enforcement action. Opp’n Mem. at 39–40. Both of these
documents are subject to the Court’s review as they are
“public records and government documents available from
reliable sources.” Al-Aulaqi v. Panetta, 35 F. Supp. 3d 56, 67
(D.D.C. 2014).
Although the Court agrees with Defendants that some of
the statements in these documents do not appear to concern
private facts and/or are matters of public concern (e.g., the
results of the Hamilton Bank investigation), the amount of
fees charged by Plaintiff and his firm, relayed by both
documents, is a seemingly private fact, the public
importance of which is not apparent, and the disclosure of
which may be highly offensive to a reasonable person (much
like one may be offended by the disclosure of his or her
salary). As such, Plaintiff has stated a plausible claim for
invasion of privacy, in particular, the public disclosure of
private facts.

54a

The remaining question is whether this claim is timely.
On this, the Court previously ruled that the continuing tort
doctrine tolled the statute of limitations with respect to
Plaintiff’s FTCA claims, all of which arose out of the
allegedly retaliatory prosecution, until the “final disposition
of the case.” Loumiet I, 968 F. Supp. 2d at 154 (citing Whelan
v. Abell, 953 F.2d 663, 674 (D.C. Cir. 1992)). Because
Plaintiff brought an administrative action within two years
of the cessation of the prosecution, the Court concluded that
“Plaintiff’s FTCA claims need not be dismissed on statute of
limitations grounds.” Id. at 155. Defendants point the
Court’s towards its later decision, which held that the
statements underling the invasion of privacy claim did not
warrant application of the continuing tort doctrine. Loumiet
III, 106 F. Supp. 3d at 225–26. Importantly, this decision
was rendered after the Court had determined that
Defendants’ decision to
prosecute was not actionable under the discretionaryfunction exception. Id. at 222. That decision has now been
reversed, and accordingly, the Court’s analysis reverts to its
prior conclusion that the pendency of the prosecution
constituted a continuing tort that tolled the statute of
limitations for Plaintiff’s FTCA claims. Accordingly,
Plaintiff’s invasion of privacy claim may proceed.
IV. CONCLUSION
For all of the foregoing reasons, the Court GRANTS IN
PART AND DENIES IN PART the Individual Defendants’
[62] Motion to Dismiss, and GRANTS IN PART AND
DENIES IN PART the United States’ [63] Motion to
Dismiss. Plaintiff’s First Amendment Bivens claim for
retaliatory prosecution shall proceed against Defendants
Rardin, Schneck, and Sexton. Plaintiff’s Fifth Amendment
Bivens claim, and all claims against Defendant Straus are
DISMISSED WITHOUT PREJUDICE. Pursuant to the

55a

Westfall Act, the state-law tort claims against the Individual
Defendants are CONVERTED to FTCA claims against the
United States. Plaintiff’s FTCA claims against the United
States may proceed, except that the abuse of process (Count
III) and malicious prosecution (Count IV) claims are
DISMISSED WITHOUT PREJUDICE, leaving only the
claims for intentional infliction of emotional distress (Count
I), invasion of privacy (Count II), negligent supervision
(Count V), and civil conspiracy (Count VIII).
An appropriate Order accompanies this Memorandum
Opinion.
Dated: June 13, 2017
/s/
COLLEEN KOLLAR-KOTELLY
United States District Judge

56a

APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

MEMORANDUM OPINION
(November 28, 2017)
Plaintiff Carlos Loumiet brought this suit against the
United States Government for certain actions of its agency,
the Office of the Comptroller of the Currency (“OCC”), and
against Defendants Michael Rardin, Lee Straus, Gerard
Sexton, and Ronald Schneck (together, the “Individual
Defendants”), alleging a variety of torts under federal and
state law. After a series of rulings by this Court and the U.S.
Court of Appeals for the District of Columbia Circuit (“D.C.
Circuit”), on remand this Court granted-in-part and deniedin-part the United States’ and Individual Defendants’ latest
motions to dismiss. Loumiet v. United States, 255 F. Supp.
3d 75 (D.D.C. 2017) (“Loumiet V”). The Court allowed the
following claims to proceed: a First Amendment claim for
retaliatory prosecution under Bivens v. Six Unknown
Named Agents of Fed. Bureau of Narcotics, 403 U.S. 388
(1971), against Defendants Rardin, Schneck, and Sexton,
and claims under the Federal Tort Claims Act (“FTCA”) for
intentional infliction of emotional distress (Count I),
invasion of privacy (Count II), negligent supervision (Count

57a

V), and civil conspiracy (Count VIII), against the United
States. Loumiet V, 255 F. Supp. 3d at 81.
In light of the Supreme Court’s recent decision in Ziglar
v. Abbasi, 137 S. Ct. 1843 (2017), Individual Defendants now
urge this Court to revisit its decision on their [62] motion to
dismiss. 1 See Individual Defs.’ Rule 54(b) Mot. to Reconsider
in Light of Ziglar v. Abbasi and Supporting Mem. of P&A,
ECF No. 74, at 1-2 (“Ind. Defs.’ Mem.”). While their specific
request is somewhat ambiguous, Individua l Defendants
essentially ask the Court not to recognize subject-matter
jurisdiction over Plaintiff’s First Amendment Bivens claim,
and in turn to reverse its decision to deny their motion with
respect to Defendants Rardin, Schneck, and Sexton. See
Loumiet V, 255 F. Supp. 3d at 82-83 (discussing standard for
surviving Rule 12(b)(1) motion and recognizing First
Amendment Bivens claim); Ind. Defs.’ Mem. at 1-2 (“[T]his
Court should . . . decline to recognize a Bivens remedy in this
case.”).
Upon consideration of the briefing and notices of
supplemental authority, 2 the relevant legal authorities, and
1 The United States has not filed a motion to reconsider the Court’s
decision on the United States’ [63] Motion to Dismiss. Therefore, only
the First Amendment claim for retaliatory prosecution under Bivens
against Individual Defendants is considered here.
2

The Court’s consideration has focused on the following documents:
• Individual Defs.’ Rule 54(b) Mot. to Reconsider in Light
of Ziglar v. Abbasi and Supporting Mem. of P&A, ECF No. 74
(“Ind. Defs.’ Mem.”);
• Carlos Loumiet’s Opp’n to Individual Defs.’ Rule 54(b)
Mot. to Reconsider in Light of Ziglar v. Abbasi, ECF No. 75
(“Opp’n Mem.”);
• Reply Mem. in Supp. of Individua l Defs.’ Rule 54(b)
Mot. to Reconsider in Light of Ziglar v. Abbasi, ECF No. 76
(“Reply Mem.”);

58a

the record as a whole, the Court DENIES the Individual
Defendants’ [74] Rule 54(b) Motion to Reconsider in Light of
Ziglar v. Abbasi and Supporting Memorandum of Points and
Authorities (“Motion to Reconsider”). Plaintiff’s First
Amendment Bivens claim for retaliatory prosecution shall
proceed against Defendants Rardin, Schneck, and Sexton.
Plaintiff’s FTCA claims for intentional infliction of
emotional distress (Count I), invasion of privacy (Count II),
negligent supervision (Count V), and civil conspiracy (Count
VIII) shall proceed against the United States.
I. BACKGROUND
In prior proceedings, the Court has extensively discussed
the factual background, e.g., Loumiet v. United States, 968
F. Supp. 2d 142, 145-47 (D.D.C. 2013) (“Loumiet I”), 3 and
• Carlos Loumiet’s Mot. for Leave to File Sur-Reply, ECF
No. 78 (“Sur-Reply Mot.);
• Carlos Loumiet’s Sur-Reply in Opp’n to Individual
Defs.’ Mot. for Recons., ECF No. 781 (“Sur-Reply Mem.”);
• Individual Defs.’ Notice of Suppl. Auth., ECF No. 77
(“Notice Suppl. Auth.”);
• Carlos Loumiet’s Resp. to Individual Defs.’ Notice of
Suppl. Auth., ECF No. 79 (“Resp.
to Notice Suppl. Auth.”);
• Individual Defs.’ Second Notice of Suppl. Auth., ECF
No. 80 (“Second Notice Suppl.
Auth.”).
3 The list of past rulings consists of Loumiet v. United States, 968 F.
Supp. 2d 142 (D.D.C. 2013) (“Loumiet I”); Loumiet v. United States,65
F. Supp. 3d 19 (D.D.C.2014) (“Loumiet II”); Loumiet v. United States,
106 F. Supp. 3d 219 (D.D.C. 2015) (“Loumiet III”); Loumiet v. United
States, 828 F.3d 935 (D.C. Cir. 2016) (“Loumiet IV”); and Loumiet v.
United States, 255 F. Supp. 3d 75 (D.D.C. 2017) (“Loumiet V”). In
addition, the D.C. Circuit previously ruled on Plaintiff’s application for
attorney fees under the Equal Access to Justice Act (“EAJA”) in
connection with his defense before the OCC. Loumiet v. Office of

59a

shall deal here only with those details necessary to evaluate
Individual Defendants’ [74] Motion to Reconsider.
II. LEGAL STANDARD
A. Motion to Dismiss for Lack of Subject-Matter
Jurisdiction
In order to hear Plaintiff’s Bivens claim, the Court must
be satisfied that it has subject- matter jurisdiction. At the
motion to dismiss stage, Plaintiff bore the burden of
establishing that the Court has subject-matter jurisdiction
over its claims. Moms Against Mercury v. FDA, 483 F.3d 824,
828 (D.C. Cir. 2007); Ctr. for Arms Control & NonProliferation v. Redd, No. CIV.A. 05- 682 (RMC), 2005 WL
3447891, at *3 (D.D.C. Dec. 15, 2005). In determining
whether there is jurisdiction, the Court may “consider the
complaint supplemented by undisputed facts evidenced in
the record, or the complaint supplemented by undisputed
facts plus the court’s resolution of disputed facts.” Coal. for
Underground Expansion v. Mineta, 333 F.3d 193, 198 (D.C.
Cir. 2003) (internal quotation marks omitted). “Although a
court must accept as true all factual allegations contained in
the complaint when reviewing a motion to dismiss pursuant
to Rule 12(b)(1),” the factual allegations in the complaint
“will bear closer scrutiny in resolving a 12(b)(1) motion than
in resolving a 12(b)(6) motion for failure to state a claim.”
Wright v. Foreign Serv. Grievance Bd., 503 F. Supp. 2d 163,
170 (D.D.C. 2007) (internal quotation marks omitted).

Comptroller of Currency, 650 F.3d 796, 798 (D.C. Cir. 2011) (“Loumiet
EAJA”).

60a

B. Motion to Reconsider
Now on a motion for reconsideration, the burden shifts.
Under Federal Rule of Civil Procedure Rule 54(b), “any order
. . . that adjudicates fewer than all the claims or the rights
and liabilities of fewer than all the parties . . . may be revised
at any time before the entry of a judgment adjudicating all
the claims and all the parties’ rights and liabilities.” Fed. R.
Civ. P. 54(b). As it has before, the Court again shares the
view in this district that a Rule 54(b) motion may be granted
“as justice requires.” E.g., Loumiet II, 65 F. Supp. 3d at 24;
Coulibaly v. Tillerson, Civil Action No. 14-189, 2017 WL
4466580, at *5 (D.D.C. Oct. 5, 2017) (Contreras, J.); United
States v. Dynamic Visions, Inc., Civil Action No. 11-695
(CKK), 2017 WL 1476102, at *2 (D.D.C. Apr. 24, 2017)
(Kollar-Kotelly, J.); Singh v. George Washington Univ., 383
F. Supp. 2d 99, 101 (D.D.C. 2005) (Lamberth, J.) (quoting
Cobell v. Norton, 224 F.R.D. 266, 272 (D.D.C. 2004)
(Lamberth, J.)). While this is a broad standard, Individual
Defendants carry the burden of proving “that some harm,
legal or at least tangible, would flow from a denial of
reconsideration,” and accordingly persuading the Court that
in order to vindicate justice it must reconsider its decision.
Dynamic Visions, Inc., Civil Action No. 11-695 (CKK), 2017
WL 1476102, at *2 (quoting Cobell, 355 F. Supp. 2d at 540)
(internal quotation marks omitted). Among the ways that a
movant may attempt to do so is by proposing that “a
controlling or significant change in the law or facts has
occurred since the submission of the issue to the Court,” id.
(citing Singh, 383 F. Supp. 2d at 101), as Individual
Defendants have done here. Ind. Defs.’ Mem. at 1-2, 6-7. But
“motions for reconsideration . . . cannot be used as an
opportunity to reargue facts and theories upon which a court
has already ruled, nor as a vehicle for presenting theories or
arguments that could have been advanced earlier.” Loumiet
II, 65 F. Supp. 3d at 24 (quoting Estate of Gaither ex rel.

61a

Gaither v. District of Columbia, 771 F. Supp. 2d 5, 10 & n.4
(D.D.C. 2011)) (internal quotation marks omitted).
III. DISCUSSION
Only if Abbasi made a “controlling or significant change”
to an aspect of the Bivens inquiry shall the Court need to
reevaluate its decision to deny in pertinent part Individua l
Defendants’ [62] motion to dismiss. 4 The Court shall first
address Individual Defendants’ arguments that Abbasi
renders this a “new context” for a Bivens claim and that
Abbasi further discourages courts from finding a new
context. See Ind. Defs.’ Mem. at 1-2. Next the Court shall
evaluate whether Abbasi adjusted the two Wilkie v. Robbins
inquiries into “any special factors counselling hesitation,”
and—although Individual Defendants do not discuss it quite
this way—any “alternative, existing process” that should
displace Bivens. See Wilkie v. Robbins, 551 U.S 537, 550
(2007); Ind. Defs.’ Mem. at 2 (arguing that “Abbasi
demonstrates that special factors preclude recognition of a
Bivens remedy in this case,” and naming among such alleged
factors, “Loumiet’s access to alternative statutory and
judicial remedies”). 5

The Court has no reason to doubt that a four-justice majority
opinion issued when the Supreme Court had satisfied the six-justice
quorum represents controlling precedent. See Reply Mem. at 1 n.1
(citing 28 U.S.C. § 1 (2015)); Amgen Inc. v. Connecticut Ret. Plans &
Trust Funds, 568 U.S. 455, 461 n.1 (2013) (applying 28 U.S.C. § 1 to
four-justice portion of opinion in Basic Inc. v. Levinson, 485 U.S. 224
(1988), which also met quorum of six justices).
4

Individual Defendants make no argument that Abbasi should
affect this Court’s prior determination regarding absolute prosecutorial
immunity and qualified immunity. See, e.g., Loumiet V, 255 F. Supp. 3d
at 95-96.
5

62a

Consistent with the approach in Wilkie, the Court shall
evaluate any alternative, existing process separately from
the special factors analysis; the Court finds that Abbasi’s
slightly different structure of discussing any alternative,
existing process in the course of the special factors analysis
makes no practical difference in this case. See Wilkie, 551
U.S. at 550-61 (“assessing the significance of any alternative
remedies at step one” before proceeding to “Bivens step two
[involving] weighing reasons for and against the creation of
a new cause of action”); Abbasi, 137 S. Ct. at 1857-58, 186063 (discussing the “special factors” consideration before
examining, “[i]n a related way,” whether “there is an
alternative remedial structure” (citing Wilkie, 551 U.S. at
550)).
While the Court endeavors to give complete consideration
to the Individual Defendants’ motion, and the parties’
extensive briefing and supplemental notices, the Court
addresses here only those aspects to which justice requires
attention in the wake of Abbasi. 6
A. Abbasi Does Not Affect This Court’s “New
Context” Assumption
Individual Defendants make much of Abbasi’s
articulation of what may be a new standard for finding a
“new context” for a Bivens claim. Furthermore, they
emphasize that Abbasi renders this case a new context. For
example,

Individual Defendants point to various post-Abbasi cases in courts
outside this circuit that allegedly “have already begun to decline
invitations to expand the Bivens remedy to new contexts.” Reply Mem.
at 2; see also Notice Suppl. Auth.; Second Notice Suppl. Auth. The
Court finds that these cases do not add meaningfully to the analysis in
the parties’ briefs or the Court’s own analysis in this opinion.
6

63a

After Abbasi, it is crystal clear that permitting a
constitutional tort action in this case extends the
Bivens remedy into a new context. Abbasi establishes
that the familiar context of Bivens is now limited to
the three cases—Bivens, Davis, and Carlson—in
which the Supreme Court itself (not the Courts of
Appeals) has approved of an implied damages remedy
under the Constitution. Abbasi, 2017 WL 2621317, at
*9 (“These three cases—Bivens, Davis, and Carlson—
represent the only instances in which the Court has
approved of an implied damages remedy under the
Constitution itself.”); Id. [sic] at *15 (“The proper test
for determining whether a case presents a new Bivens
context is as follows. If the case is different in a
meaningful way from previous Bivens cases decided
by this Court, then the context is new.”) (emphasis
added). Thus, after Abbasi, it is no longer appropriate
to look to circuit precedent in determining whether a
case presents a familiar or new Bivens context. Id.
Ind. Defs.’ Mem. at 8. Even if the Supreme Court’s language
does establish a new standard for identifying a new Bivens
context—a point that the D.C. Circuit has not yet addressed
and which this Court need not decide—that point would not
compel this Court to reevaluate its decision to recognize this
Bivens claim. Because the Court decided the new context
inquiry in the alternative, any adjustment that Abbasi may
have made to the relevant standard is inapposite. See
Loumiet V, 255 F. Supp. 3d at 85 (“Even assuming that this
case presents a ‘new context,’ however, the special factor
analysis does not preclude a Bivens remedy for Plaintiff’s
retaliatory prosecution claim.”); Opp’n Mem. at 3 (citing id.).
Individual Defendants also insist that Abbasi raises the
bar for finding that a Bivens remedy may be extended to a
particular new context. Notably,

64a

Abbasi emphasizes that expanding the Bivens
remedy is “now a disfavored judicial activity,” given
Congress’s primary role in deciding whether
establishing a private right of action is the best means
to enforce a constitutional guarantee. As a result, the
determination that a plaintiff seeks to extend the
Bivens remedy to a new context weighs heavily
against permitting the claim to proceed, given the
strong policy against expanding Bivens to any new
context.
Ind. Defs.’ Mem. at 2. Individual Defendants appear to make
some kind of argument that Abbasi adds a further
presumption against finding a Bivens remedy, a
presumption that is suggested to exceed the Supreme
Court’s already clear trend against such findings, and that
is somehow independent of the “special factors” and
“alternative, existing process” inquiries that the Supreme
Court distilled in Wilkie. The Court is not persuaded that
Abbasi should be read this way. As if in agreement, later in
their brief Individual Defendants seem to back away from
this argument because they never explain what this Court is
supposed to do with such an added presumption aside from
doing what it already did: assume arguendo a new context,
and give serious attention to any special factors and any
alternative, existing processes (or vice versa, in the Wilkie
articulation) that should prevent extension of Bivens here.
Moreover, the Court finds unpersuasive Individual
Defendants’ argument to the effect that, after Abbasi, a
district court may no longer rely on circuit court precedent
recognizing a Bivens cause of action in a context that has not
expressly been recognized (or expressly rejected) by the
Supreme Court. See Ind. Defs.’ Mem. at 10 (“Abbasi
unequivocally declares that whether a case presents a new
Bivens context is determined only by reference to the three
decisions in which the Supreme Court has approved the

65a

remedy.”). Rather, the Supreme Court observes simply that
the “three cases—Bivens, Davis, and Carlson—represent the
only instances in which the Court has approved of an implied
damages remedy under the Constitution itself.” Abbasi,137
S. Ct. at 1855. While this Court is of the view that Abbasi
should not require relitigating the “new context” question for
every Bivens action recognized by circuits but not (yet) by
the Supreme Court, that issue need not be decided here due
to the Court’s assumption that this is, in fact, a new context.
Consequently, the Court shall proceed to consider
whether any adjustments that Abbasi may have made to the
subsequent two Bivens/Wilkie steps dictate a change in the
Court’s ruling on Individual Defendants’ motion to dismiss.
B. Abbasi Does Not Change the Outcome of This
Court’s “Special Factors” Inquiry
Individual Defendants repeat arguments about special
factors that they concede the Court already has considered.
Three of the special factors that barred the plaintiffs’
Bivens claims in Abbasi are the same special factors
that the Individual Defendants argued in their motion
to dismiss—specifically, (1) Loumiet’s access to
alternative statutory and judicial remedies; (2) the
harmful effect introduction of a Bivens remedy will
have on the performance of official duties; and (3)
Congress has been establishing and extensively
regulating national banks for two hundred years, but
has never seen fit to establish a Bivens cause of action
against federal bank regulators.
Ind. Defs.’ Mem. at 2. As adverted above in the
introduction to this Part III, the Court shall defer until the
following subpart Individual Defendants’ first argument,
about alternative remedies— Wilkie clearly states that this

66a

deserves separate consideration, and Abbasi does not
expressly state otherwise.
Turning to Individual Defendants’ second argument, the
Court is not convinced that Abbasi requires a change in the
Court’s analysis of any potential chilling effect in lawful
enforcement activity. Unlike the facts in Abbasi, this is not
a case in which “high officers who face personal liability for
damages might refrain from taking urgent and lawful action
in a time of crisis.” Abbasi, 137 S. Ct. at 1863. Rather,
Plaintiff’s prosecution was separate from, and subsequent
to, the OCC’s enforcement action against his bank client; the
prosecution against Plaintiff does not seem to have been
“urgent,” driven by “crisis,” or, for that matter, necessary to
the underlying enforcement action against Plaintiff’s client.
See, e.g., Loumiet I, 968 F. Supp. 2d at 145-47; Opp’n Mem.
at 22 (“The Individual Defendants brought their retaliatory
prosecution more than four-and- a-half-years after
[Plaintiff’s client] Hamilton Bank failed.”). Indeed, the Court
already made a fact-specific determination that a Bivens
claim will not deter lawful enforcement activity. See Loumiet
V, 255 F. Supp. 3d at 91 (considering the facts and finding
that, “given the uniqueness of the allegations in this case, in
this Court’s view, allowing Plaintiff to proceed with his First
Amendment Bivens claim is unlikely to have a chilling effect
on the proper regulatory activities of banking regulators like
the Individual Defendants”). No further consideration of an
alleged chilling effect is necessary.
As for their third argument, Individual Defendants
resurrect assertions about Congress’s extensive regulation
of the banking system, but, despite copious citations to
Abbasi, fail to identify why Abbasi dictates a different
outcome. See Ind. Defs.’ Mem. at 2, 13-14, 19. This Court
already thoroughly considered whether a Bivens remedy
should be implied in light of the statutory scheme
established by the Financial Institutions Reform, Recovery,

67a

and Enforcement Act (“FIRREA”) and backstopped by
review under the Administrative Procedure Act (“APA”). See
Loumiet V,255 F. Supp. 3d at 83-90. Individual Defendants
contend that this Court “required [them] to affirmatively
prove that Congress expressly considered and rejected a
damages remedy against federal banking regulators.” Ind.
Defs.’ Mem. at 2, 13. That is a distortion of the Court’s
rationale for concluding that the FIRREA and APA do not
supplant a Bivens remedy here. Rather, Individual
Defendants could not show “how Plaintiff, under the
particular factual circumstances of this case, could have
sought relief through the amalgam of FIRREA and the
APA,” or in the alternative, that “the absence of a remedy for
Plaintiff under the circumstances of this case was the
intentional product of how Congress constructed the
administrative review procedures under FIRREA.” Loumiet
V, 255 F. Supp. 3d at 89. At least one of these indicators is
necessary for the Court logically to conclude that Congress
intended to forego an implied damages remedy.
In Abbasi, the Supreme Court noted that “the silence of
Congress is relevant; and here that silence is telling,”
because none of the extensive congressional involvement in
countering terrorism since September 11—including in
addressing confinement conditions—had resulted in a
damages remedy. Abbasi,137 S. Ct. at 1862-63. There is no
parallel silence here, for the remedy at issue concerns a
subject—retaliatory
prosecution—which
Individual
Defendants have not shown that Congress even
contemplated, much less expressly rejected, from the
relevant statutory scheme. “[Individual] Defendants have
completely failed to furnish any legislative or other evidence
that Congress intentionally excluded claims similar to
Plaintiff’s from FIRREA. Nor does the statute itself indicate
an intent to exclude such claims.” Loumiet V, 255 F. Supp.
3d at 89. And as for “whether the absence of APA review for
Plaintiff’s claim is the product of intentional Congressional

68a

policymaking in constructing FIRREA,” “no evidence has
been proffered, nor does such intent seem likely.” Id.
At the end of their opening brief, Individual Defendants
also make the argument that “the existence of procedural
safeguards against the retaliatory initiation of an OCC
enforcement action is a special factor that weighs against
implying a Bivens remedy in this case.” Ind. Defs.’ Mem. at
21-22. However, they do not explain why Abbasi dictates
that the Court consider this argument, aside from observing
that “Abbasi reaffirms that the purpose of Bivens is to deter
misconduct by individual officers, not to challenge agency
action or policy.” Id. at 21 (citation omitted). The Court is
aware of this purpose of a Bivens action and dealt with it
before when addressing the chilling effect argument. Even if
it were proper to raise this special factor now, the Court does
not find Individual Defendants’ treatment persuasive.
Elsewhere in Abbasi, the Supreme Court elaborates on
the scope of “special factors,” a point which Individual
Defendants cite only summarily in their rush to urge
deference to Congress. See Ind. Defs.’ Mem. at 19. “[T]he
decision to recognize a damages remedy requires an
assessment of its impact on governmental operations
systemwide,” which “include[s] the burdens on Government
employees who are sued personally, as well as the projected
costs and consequences to the Government itself when the
tort and monetary liability mechanisms of the legal system
are used to bring about the proper formulation and
implementation of public policies.” Abbasi, 137 S. Ct. at
1858. Such an “assessment” could potentially sweep quite
broadly. But Individual Defendants have not raised any
specific “burdens” or “costs and consequences” that the Court
is not satisfied are otherwise addressed by the Court’s
dispatch of the “chilling effect” argument on the basis of the
unique facts at issue. See Loumiet V, 255 F. Supp. 3d at 9091. Moreover, on these facts, the Court is satisfied that this

69a

is not a case targeting public policy change—as Abbasi
echoes precedent in prohibiting—but rather is properly
focused on specific activities of individual officers. See
Abbasi, 137 S. Ct. at 1860 (citing Correctional Services Corp.
v. Malesko, 534 U.S. 61, 74 (2001); FDIC v. Meyer, 510 U.S.
471, 485 (1994)).
In summary, Individual Defendants do not make any
arguments about Abbasi that cause this Court to reevaluate
its conclusion that the special factors inquiry does not
preclude a Bivens remedy.
C. Individual Defendants Have Not Proven That
the Equal Access to Justice Act Is an
“Alternative Remedial Structure” Sufficient to
Preclude a Bivens Claim
Next, the Court turns to the Individual Defendants’
argument about “[a]lternative avenues for protecting the
interest at stake,” insofar as they assert that “[t]he statutory
and judicial remedies available to Loumiet under the
FIRREA, [Equal Access to Justice Act (“EAJA”)], and APA
provided ample opportunity for him to protect his interests
and thus render a Bivens action unnecessary.” Ind. Defs.’
Mem. at 18-19. At the outset, the Court observes a technical
reason that this argument is flawed, as Plaintiff notes. Opp’n
Mem. at 8-9.
Individual Defendants arguably forewent their
opportunity to pursue this argument in their prior Motion to
Dismiss. See Opp’n Mem. at 8; Individual Defs.’ Mot. to
Dismiss and Statement of P&A in Supp., ECF No. 62, at 12
(“[T]he defendants do not contend that the FIRREA afforded
Loumiet an ‘alternative, existing process’ to pursue his
constitutional claims. In other words, the defendants are not
invoking the first step of the Wilkie analysis.” (citing Wilkie,
551 U.S. at 550)). And this Court already dealt with the

70a

issue. Loumiet V, 255 F. Supp. 3d at 84 (“[A] Bivens remedy
will generally not be available if a comprehensive statutory
scheme already exists for a plaintiff to seek redress of the
alleged constitutional violation. Defendants concede that no
such scheme exists here.” (citing Reply Mem. of P&A in
Supp. of the Defs.’ Mots. to Dismiss, ECF No. 66, at 6)). The
Court could have elaborated its citation of support:
Individual Defendants do not contend that judicial
review of agency action under the APA, standing
alone, precludes a Bivens remedy. Rather, the
defendants’ position is that the comprehensive
remedial scheme of the FIRREA, coupled with judicial
review under the APA, is a special factor that counsels
hesitation against authorizing a Bivens remedy in
this case.
Reply Mem. of P&A in Support of the Defs.’ Mots. to
Dismiss, ECF No. 66, at 6. Together with Individual
Defendants’ aforementioned concession that FIRREA alone
is not an “alternative, existing process,” the concession here
that APA is not either seals the deal. Defendants’ last-gasp
attempt to package FIRREA and APA together as a special
factor does not suffice; the Court addresses above why the
combination of these two statutory schemes is not a special
factor causing the Court to hesitate from recognizing a
Bivens remedy. See supra Part III.B. As such, the Court is
not persuaded by Individua l Defendants’ argument that
they did not waive this argument because Abbasi allegedly
“characterized access to alternative forms of relief as a
‘special factor.’” Reply Mem. at 6.
Having come this far, it may not do justice to decide a
motion to reconsider based only on the argument (or lack
thereof) in Individual Defendants’ prior briefing. From a
more substantive perspective, the Court observes one
potential “alternative, existing process” that warrants

71a

further consideration, namely Plaintiff’s recovery of
attorney’s fees under the EAJA. The parties only skirted this
argument when they briefed Individual Defendants’ [62]
Motion to Dismiss. At the time, they appeared to focus
instead on Individual Defendants’ argument that FIRREA
and the APA qualified as alternatives. See, e.g., Individual
Defs.’ Mot. to Dismiss and Statement of P&A in Supp., ECF
No. 62, at 11 (“Not only did Loumiet have access to these
remedies [i.e., through the FIRREA and the AP A], but he
successfully invoked them and recovered a substantial
amount of attorney’s fees as the prevailing party.”); Carlos
Loumiet’s Opp’n to Individual Defs.’ Mot. to Dismiss under
Fed. R. Civ. P. 12(b)(6) and United States’ Mot. to Dismiss
under Fed. R. Civ. P. 12(b)(6) & (b)(1), ECF No. 64, at 18
(“[I]t’s simply absurd to suggest that [future lawyers] will
view FIRREA’s procedures, its reference to the ADA [sic], or
even the possibility of recovering attorneys’ fees, as
adequately protecting them, their careers, and their futures
from the type of mercenary retaliatory conduct undertaken
by the Individua l Defendants in this case.”). Accordingly,
recovery under the EAJA was not a focus of this Court’s
decision in Loumiet V when it found no alternative remedies.
Fueled by Abbasi, the parties now devote significant
portions of their briefing, especially in the reply and surreply, to the issue of whether attorney’s fees under the EAJA
amount to an alternative remedy sufficient to preclude a
Bivens remedy. See Reply Mem. at 6-11 (“Having prevailed
in the enforcement proceeding and pocketed $675,000 in fees
and defense costs, how does Loumiet reasonably claim that
‘it is damages or nothing’ for him in this case?” (citing Opp’n
Mem. at 20)); Sur-Reply Mem. at 4-5 (deeming Individual
Defendants’ EAJA argument a “red herring that hopes to
distract the Court from the truly dispositive fact that there
is a complete absence of congressional intent in any
statutory scheme to which the Individual Defendants have
pointed” and furthermore arguing “Loumiet did not ‘pocket’

72a

anything”); see also Ind. Defs.’ Mem. at 17 (noting in the
course of their “new context” argument that “the recovery of
attorney’s fees under EAJA is a remedy that Congress has
expressly provided for a civil enforcement proceeding that
was brought without substantial justification” (citing 5
U.S.C. § 504(a)(1) (2016)).
Even so, the Court would not feel compelled to overlook
this omission and reconsider its decision, absent a plausible
argument for some movement in the controlling case law.
But Abbasi could be interpreted as lowering the threshold
for finding an alternative remedy sufficient to preclude a
Bivens claim. See, e.g., Abbasi, 137 S. Ct. at 1858 (“[I]f there
is an alternative remedial structure present in a certain
case, that alone may limit the power of the Judiciary to infer
a new Bivens cause of action.”). Individual Defendants
parrot this line from Abbasi—italicizing “alone” without
noting that the emphasis is their own, Ind. Defs.’ Mem. at
18—but fail to provide any corresponding explanation of the
practical difference that this purported standard makes, if
any, in the pre-Abbasi approach to alternative processes for
relief. On such a minimal showing, the Court does not feel
obligated to trace the Individual Defendants’ steps for them,
but in the interest of a complete analysis, the Court shall
consider whether Abbasi in fact adjusted the threshold for
recognizing an alternative remedy, and even if not, whether
this Court should consider the EAJA to be an alternative in
the first instance.
As the Supreme Court has limited the availability of
Bivens remedies in recent decades, the standard for
recognizing an alternative to a Bivens claim has arguably
evolved as well. Early Supreme Court cases set a high bar
for a showing of congressional intent that an alternative
would preclude Bivens. In Bivens itself, the Supreme Court
rejected defendants’ argument that it should defer to
seemingly inadequate state tort law remedies and found “no

73a

explicit congressional declaration that persons injured by a
federal officer’s violation of the Fourth Amendment may not
recover money damages from the agents, but must instead
be remitted to another remedy, equally effective in the view
of Congress.” Bivens, 403 U.S. at 394-97. The Bivens Court
thereby demonstrated a concern with both the adequacy of a
purported alternative, and any clear indication that
Congress intended it, or any other remedy, to supplant
damages against individual officers, finding neither to be so
in that case. See also Davis v. Passman,442 U.S. 228, 248
(1979) (“[W]ere Congress to create equally effective
alternative remedies, the need for damages relief might be
obviated.” (citing Bivens, 403 U.S. at 397)).
Shortly thereafter in Carlson v. Green, the Supreme
Court again decided that a candidate alternative was not
sufficient to preclude a Bivens remedy. There, a deceased
prisoner’s estate sought to recover against individual prison
officials for alleged violation of his Eighth Amendment and
other constitutional rights. 446 U.S. 14, 16 (1980). The Court
reasoned that a Bivens claim could only be defeated by a
purported alternative “when defendants show that Congress
has provided an alternative remedy which it explicitly
declared to be a substitute for recovery directly under the
Constitution and viewed as equally effective.” Id. at 18-19
(citing Bivens, 403 U.S. at 397; Davis v. Passman, 442 U.S.
at 245-47). The Court rejected the argument that the FTCA
should count as such an alternative, because no evidence
could be mustered “to show that Congress meant to pre-empt
a Bivens remedy or to create an equally effective remedy for
constitutional violations”; on the contrary, legislative history
to a pertinent FTCA amendment demonstrated beyond
doubt that Congress intended the two causes of action to
coexist. Id. at 19-20. Here again, the Supreme Court rejected
a purported alternative for lack of congressional intent, this
time without assessing whether that alternative would
otherwise have been adequate to remedy the harm.

74a

Subsequent cases confirmed that the (in)adequacy of a
purported alternative is not dispositive. See Malesko, 534
U.S. at 68-69 (discussing, e.g., Schweiker v. Chilicky, 487
U.S. 412 (1988); Bush v. Lucas, 462 U.S. 367 (1983)).
More recently, consistent with the general curbing of the
Bivens remedy, the Supreme Court has at least once
declined to infer a Bivens remedy apparently without relying
on either the adequacy of any alternatives or Congress’s
intent with respect to those alternatives. In Correctional
Services Corp. v. Malesko, a former federal inmate sought to
recover damages for injuries suffered while he was confined
to a privately owned halfway house. 534 U.S. at 63-64. The
Court refused to recognize a Bivens remedy because a suit
against the operator of the halfway house fell outside the
objective of the Bivens remedy, namely to deter
constitutional torts by individual officers, not their
employers, federal or otherwise. Id. at 70-71. This grounds
was sufficient to preclude Bivens, see id. at 71 (“There is no
reason for us to consider extending Bivens beyond this core
premise here.”), but the Court also observed the availability
of alternative remedies. “It was conceded at oral argument
that alternative remedies are at least as great, and in many
respects greater, than anything that could be had under
Bivens.” Id. at 72. Those remedies included tort law,
administrative processes, or a federal suit for injunction
against future such harms. Id. at 72-74. While Malesko did
not rest on the available alternatives, the Court still found
it worthwhile to mention that there were some.
In Wilkie, however, we see that Malesko did not
necessarily dispose of previous Bivens considerations. Wilkie
demonstrated that Congressional intent behind a given
alternative was again a focal point. The Supreme Court
articulated perhaps its most definitive standard yet
governing the availability of an alternative remedy. A court
must ask “whether any alternative, existing process for

75a

protecting the [constitutionally recognized] interest
amounts to a convincing reason for the Judicial Branch to
refrain from providing a new and freestanding remedy in
damages.” Wilkie, 551 U.S. at 550 (citing Bush, 462 U.S. at
378); see also Minneci v. Pollard, 565 U.S. 118, 122-23 (2012)
(describing two-step inquiry from Wilk as “standards [that]
seek to reflect and to reconcile the Court’s reasoning set forth
in earlier cases”). The Wilkie Court discussed a number of
alternative methods of addressing plaintiff-respondent’s
problems, some of which he did not exhaust—e.g., tort law
remedies for damages from trespass, administrative
remedies for challenging administrative claims, and most
analogously to the EAJA in this case, timely appeal of the
district court’s denial of attorney’s fees sought under the
Hyde Amendment in a criminal case—without finding that
any of these disqualified his efforts to obtain a Bivens
remedy. Wilkie, 551 U.S. at 553-54. Rather, considering the
“patchwork” of remedies, “an assemblage of state and
federal, administrative and judicial benches applying
regulations, statutes, and common law rules,” the Supreme
Court declined to infer that Congress meant to preclude a
Bivens remedy. Id. at 554 (finding it necessary to proceed to
special factors inquiry). Accordingly, Wilkie demonstrates
that as of at least 2007 it remained important in the
Supreme Court’s Bivens jurisprudence to consider
congressional intent with respect to purported alternatives.
For this reason, even a plethora of alternatives might not be
sufficient to preclude a Bivens claim.
One might argue that the Supreme Court took a step in
the restrictive direction, with respect to alternative
remedies, in Minneci, but that argument would be flawed
too. There the Court observed that a federal prisoner could
pursue state law tort remedies against private employees
operating the prison, and accordingly, no Bivens action for
an alleged Eighth Amendment violation should be
permitted. 565 U.S. at 120, 127. In dictum the Court

76a

appeared to recognize a low bar for a finding of an
alternative remedy sufficient to preclude Bivens. See id. at
127 (referring to Malesko as “noting that the Court has
implied Bivens action only where any alternative remedy
against individual officers was ‘nonexistent’ or where
plaintiff ‘lacked any alternative remedy’ at all” (quoting
Malesk o, 534 U.S. at 70)). Like Malesk o, however, Minneci
contained an alternative that did not test this bottom limit,
for the Court “believe[d] that in the circumstances present
here state tort law authorizes adequate alternative damages
actions—actions that provide both significant deterrence
and compensation.” Id. at 120 (citing Wilkie, 551 U.S. at
550).
As noted above in this subpart, certain language in
Abbasi could be read to slightly lower the threshold for a
finding of an alternative remedy sufficient to preclude a
Bivens claim. See supra (discussing whether “an alternative
remedial structure” “alone” suffices). But the facts of Abbasi
did not test the lower limit. Abbasi observed that a habeas
petition, an injunction, “or some other form of equitable
relief” may have been available to plaintiff-respondents and
concluded that “when alternative methods of relief are
available, a Bivens remedy usually is not.” Abbasi, 137 S. Ct.
at 1863, 1865 (emphasis added). Abbasi carefully avoided a
pronouncement that alternative remedies always will
suffice; it also did not say—because that case was not before
it—that a single candidate alternative about which there is
some debate over the sufficiency (as the Court shall address
below) will be enough to keep a court from inferring a Bivens
remedy. In short, Abbasi does not conclusively address the
only question remaining: whether the single candidate
alternative remaining in this case, the EAJA, qualifies as an
alternative remedy sufficient to keep the Court from
inferring a Bivens remedy.

77a

The D.C. Circuit has yet to interpret Abbasi, and D.C.
Circuit cases since Wilkie have not had the opportunity to
clarify that case’s standard for the minimum alternative
remedy sufficient to preclude Bivens. See, e.g., Meshal v.
Higgenbotham, 804 F.3d 417, 425 (D.C. Cir. 2015) (applying
Wilkie steps and finding parties in agreement that plaintiffappellant had no other remedies, before moving on to special
factors inquiry). Perhaps the closest the D.C. Circuit came
to directly addressing this issue was in Wilson v. Libby,
which denied a Bivens claim after recognizing that plaintiffappellants allegedly harmed by the disclosure of covert
employment with the Central Intelligence Agency could seek
some, albeit incomplete, relief under the Privacy Act. 535
F.3d 697, 709 (D.C. Cir. 2008). But it is not clear that this
would have been enough for the court to preclude Bivens if
not for the consideration of a congressional omission as a
special factor. The D.C. Circuit found that the Privacy Act is
a comprehensive remedial scheme from which Congress had
“intentionally” excluded claims against certain of the
Executive Branch officials being sued in that case, and that
accordingly the court would “not supplement the scheme
with Bivens remedies.” Id. at 706-10; see also Davis v.
Billington, 681 F.3d 377, 383-84 (D.C. Cir. 2012) (finding a
“comprehensive remedial scheme” in which “Congress’s
choice to omit damages remedies for claimants in [plaintiffappellee’s] posture was a deliberate one”).
In this case, by contrast, Individual Defendants have not
demonstrated that the EAJA— alone or in combination with
the FIRREA and APA—is such a “comprehensive remedial
scheme” by which Congress intends to supplant a damages
remedy against the OCC officials. See Loumiet V, 255 F.
Supp. 3d at 89-90 (rejecting this argument with respect to
the FIRREA and APA). Rather, the most they offer is a thin
comparison to a statutory scheme that is not at issue in this
case. See Reply Mem. at 11 (“The same congressional
judgment [behind foregoing a Bivens remedy for improper

78a

criminal prosecutions in favor of the Hyde Amendment] is
reflected in the EAJA, which operates similarly in the civil
context to deter ‘substantially unjustified’ administrative
enforcement actions.”).
As the foregoing discussion illustrates, the parties have
not identified, nor has this Court found, controlling case law
that provides a clear, consistent standard for evaluating
whether Plaintiff’s recovery under the EAJA should
preclude a Bivens remedy. See, e.g., Minneci, 565 U.S. at 125
(noting that “the Court, in reaching its [Bivens] decisions,
has not always similarly emphasized the same aspects of the
cases,” and proceeding with the Wilkie analysis). However,
the case law does illustrate that at least three considerations
have been significant to the disposition of controlling Bivens
cases: congressional intent (see, e.g., Supreme Court
decisions in Bivens, Carlson, and Wilkie, and D.C. Circuit
decisions in Wilson and Davis v. Billington); deterrent effect
(see Malesko and Minneci); and adequacy of the remedy (see
Bivens and Minneci). And these considerations remain
relevant in recent cases. See, e.g., Wilkie, 551 U.S. at 554
(illustrating the continuing relevance of assessing whether
“Congress expected the Judiciary to stay its Bivens hand”);
Minneci, 565 U.S. at 120-21 (citing both “significant
deterrence and compensation” from alternative remedies as
reason for denying Bivens claim). Yet, none of these
considerations suggests that the Court should decline a
Bivens remedy here.
First, the Court is not persuaded by Individual
Defendants’ meager efforts to prove, by analogy alone, that
Congress intended the EAJA to preclude a Bivens remedy.
Individual Defendants point to congressional intent
underlying the Hyde Amendment in 1997, which created a
means by which prevailing criminal defendants could
recover attorney’s fees and other litigation costs under
certain circumstances when “the position of the United

79a

States was vexatious, frivolous, or in bad faith.” Reply Mem.
at 10-11 (quoting Pub. L. No. 105-119, § 617, 111 Stat. 2440,
2519 (1997) (codified at 18 U.S.C. § 3006A note (2016)
(Award of Attorney’s Fees and Litigation Expenses to
Defense))) (internal quotation marks omitted); see also id.
(citing Statement of Honorable Henry J. Hyde Before the
House Rules Committee on an Amendment to H.R. 2267 to
Allow for the Recovery of Attorneys Fees and Litigation
Costs in a Criminal Prosecution, 1997 WL 545756 (Sept. 5,
1997) (showing amendment sponsor’s satisfaction that this
mechanism would “deter unjustifiable governmental
conduct” even without “impos[ing] personal liability on
prosecutors for negligence” or subjecting them to “the tort of
malicious prosecution”)). Even if Congressman Hyde’s
intentions were properly said to reflect those of the whole
Congress, a point which Individual Defendants seem to
assume without support, see Reply Mem. at 11, it is by no
means certain that Congress had the same intent in
fashioning the EAJA in 1980. Moreover, the opportunity for
the Wilkie plaintiff to pursue fees and costs under the Hyde
Amendment following his acquittal in a prior criminal case
was among the alternatives that collectively were found not
to be sufficient to preclude Bivens. Wilkie, 551 U.S. at 54546, 552-54. The facts of Wilkie are particularly salient
because the prior criminal case concerned the Wilkie
plaintiff’s resistance to certain activity of an agency official
against whom he later sought the Bivens remedy in his civil
case. See id. at 545-46 (discussing charges of “knowingly and
forcibly impeding and interfering with a federal employee”).
Yet, Individual Defendants say nothing about why recovery
under the EAJA alone—setting aside their FIRREA and
APA arguments, which, as discussed above, the Court
dispatched in its prior ruling, see Loumiet V, 255 F. Supp. 3d
at 89-90—should be sufficient to preclude Bivens while the
availability of the Hyde Amendment was not sufficient to do
so in Wilkie. See supra Part III.B (discussing FIRREA and
APA).

80a

Second, the EAJA arguably lacks the deterrent effect on
individual officers that a Bivens remedy would have.
Recovery under the EAJA is awarded out of the pockets of
the government, not the individual officers. 5 U.S.C. § 504(d)
(2016) (“Fees and other expenses awarded under this
subsection shall be paid by any agency over which the party
prevails from any funds made available to the agency by
appropriation or otherwise.”). 7 Moreover, Abbasi reinforces
that deterrence is at the core of Bivens: “The purpose of
Bivens is to deter the officer.” Abbasi, 137 S. Ct. at 1860
(quoting Meyer,510 U.S. at 485) (internal quotation marks
omitted). Without damages recovery against the OCC
officers themselves, provided that Plaintiff can prove his
claims, it is not clear that officers similarly positioned in the
future would find the personal risks of pursuing a retaliatory
prosecution to caution adequately against it.
Lastly, Individual Defendants make much of the
quantity of Plaintiff’s recovery under the EAJA, effectively
arguing that it adequately compensates his loss. E.g., Reply
Mem. at 10. While the Supreme Court has sometimes
considered the adequacy of a given remedy, such as in Bivens
and Minneci, Individual Defendants have not pointed to, nor
is the Court aware of, any case considering whether
attorney’s fees under the EAJA are adequate. The closest
case is Wilkie, where the availability of attorney’s fees in the
parallel criminal context was found to be part of an
inadequate “patchwork” of remedies. Wilkie, 551 U.S. at 554.
In evaluating a motion to dismiss, and without the benefit of
discovery, the Court is not in a position to assess whether
7 Conceivably, the provision for payment through funds from
appropriation “or otherwise” could include indemnification by the
individual officers held responsible, but Individual Defendants do not
pursue that argument.

81a

the award of $675,000 in attorney’s fees under the EAJA
adequately compensates Plaintiff’s damages, alleged to be $4
million. 8 See Compl. ¶ 148; Coal. for Underground
Expansion, 333 F.3d at 198 (noting that only “the complaint
supplemented by undisputed facts evidenced in the record,
or the complaint supplemented by undisputed facts plus the
court’s resolution of disputed facts” may be considered on
motion to dismiss for lack of subject-matter jurisdiction); cf.
Koubriti v. Convertino, No. 07-13678, 2008 WL 5111862, at
*7 (E.D. Mich. Dec. 3, 2008), aff’d in part, rev’d in part on
other grounds, 593 F.3d 459 (6th Cir. 2010) (finding in
criminal case that opportunity to recover attorney’s fees
under Hyde Amendment is not “alternative process
mandating restraint” from recognizing a Bivens remedy
“[b]ecause recovery of attorney fees is such a minimal part
of the damages resulting from the criminal prosecution that
occurred here”). It is also true that the Supreme Court has
on occasion found that the inadequacy of a given alternative
to address fully a plaintiff’s injury is not, of itself, a reason
to permit a Bivens remedy. See Malesko, 534 U.S. at 68- 69
(discussing, e.g., Schweiker, 487 U.S. 412; Bush, 462 U.S.
367). But the Supreme Court has not gone so far as to say
that an allegedly inadequate alternative that Congress does
not clearly intend to supplant a Bivens remedy and that does
not act as an adequate deterrent to the activity of individual
officers is nevertheless a remedy sufficient to preclude
Bivens.
***
Individual Defendants have failed to persuade the Court
that Abbasi dictates reevaluating this Court’s subjectIn their briefing, Individual Defendants often cite the $675,000
award; at one point Plaintiff quotes Individua l Defendants’ use of this
figure without objecting to it. See, e.g., Sur-Reply Mem. at 4 (quoting
Reply Mem. at 8).
8

82a

matter jurisdiction over Plaintiff’s Bivens claim against
Individua l Defendants. Discovery will make clear whether
Plaintiff can support this claim. Until then, that claim must
be allowed to go forward.
IV. CONCLUSION
For all of the foregoing reasons, the Court DENIES the
Individual Defendants’ [74] Motion to Reconsider. Plaintiff’s
First Amendment Bivens claim for retaliatory prosecution
shall proceed against Defendants Rardin, Schneck, and
Sexton. Plaintiff’s FTCA claims for intentional infliction of
emotional distress (Count I), invasion of privacy (Count II),
negligent supervision (Count V), and civil conspiracy (Count
VIII) shall proceed against the United States.
An appropriate Order accompanies this Memorandum
Opinion.
Dated: November 28, 2017
/s/
COLLEEN KOLLAR-KOTELLY
United States District Judge

83a

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Case No. 1:12-cv-01130-CKK
CARLOS LOUMIET
v.
THE UNITED STATES OF AMERICA,
MICHAEL RARDIN, LEE STRAUS,
GERARD SEXTON, and RONALD
SCHNECK, each in their individual
capacities
defendants.
______________________________________/
COMPLAINT FOR DAMAGES
Carlos Loumiet sues defendant, the United States
Government, for actions of its agency, the Office of the
Comptroller of the Currency (“OCC”), and also sues Michael
Rardin, Lee Straus, Gerard Sexton and Ronald Schneck
(together the “Individual Defendants”).
GENERAL ALLEGATIONS
1.
Mr. Loumiet is an individual who is a member
of the Bars of the States of New York and Florida and has
been a citizen of the United States since approximately 1972.
Since 1980, Mr. Loumiet has been a resident of South
Florida.

84a

2.
Defendant Government is the federal
government of the United States of America, being sued
because of the actions of its agency, the OCC.
3.
Defendant Michael Rardin is an examiner at
the OCC who was the examiner-in-chief (“EIC”) in charge of
Hamilton Bank, N.A., in Miami, Florida (“Hamilton”) during
2000 to 2001, and who was also actively involved in the
OCC’s action against Mr. Loumiet discussed in this
complaint (the “OCC Action”).
4.
Defendant Lee Straus is an enforcement
attorney at the OCC who was the lead counsel in the OCC
Action.
5.
Defendant Ronald Schneck is Director of the
Special Supervision and Fraud Division at the OCC and an
investigative officer as that term is used in 28 U.S.C. 2680(h)
because, at all relevant times, he had the authority to
execute searches and to seize evidence. Defendant Schneck
was actively involved in the OCC’s various dealings with
Hamilton from 2000 to 2001, as well as in the OCC Action.
6.
Defendant Gerard Sexton is Assistant Director
of the Enforcement and Compliance Division of the OCC and
an investigative officer as that term is used in 28 U.S.C.
2680(h) because, at all relevant times, he had the authority
to execute searches and to seize evidence. Defendant Sexton
was actively involved in the OCC’s various dealings with
Hamilton from 2000 to 2001, as well as in the OCC Action.
Like defendant Straus, defendant Sexton is a veteran,
experienced Government enforcement lawyer.
7.
The defendants identified in paragraphs 3
through 6 are at times collectively referred to as the
“Individual Defendants.” At all times relevant to this
complaint, the Individual Defendants were senior,
influential employees of the OCC, with particularly strong

85a

say and influence on enforcement matters. Additional
individual defendants may be added to this complaint as
discovery develops.
8.
Mr. Loumiet sues the Government under the
Federal Tort Claims Act (the “FTCA”), and the Individual
Defendants under the First Amendment and Fifth
Amendment (Due Process Clause) of our Constitution, the
decision of the U.S. Supreme Court in Bivens v. Six
Unknown Agents, 403 U.S. 388 (1971), and various other
relevant cases, including Hartman v. Moore, 126 S. Ct. 1695
(2006). In Bivens, the Supreme Court ruled that individuals
working for agencies of the federal government could be held
liable for their violations of a citizen’s rights under our
federal Constitution. In Hartman, the Supreme Court ruled
that a prosecution brought by federal agents in retaliation
for a citizen’s criticism of those agents violates the citizen’s
right to free speech under the First Amendment of our
Constitution. The Supreme Court further stated that when
nonretaliatory grounds are insufficient to explain a
prosecution, then “retaliation is subject to recovery as the
but-for cause of official action offending the Constitution.”
Further, the Court held that, “When the vengeful officer is
federal, he is subject to an action for damages on the
authority of Bivens.” As will be seen below, the OCC’s
prosecution of Mr. Loumiet—both in its initial charging
decision and in the manner the OCC conducted the
litigation—was trumped-up and is inexplicable other than
as retaliation against Mr. Loumiet for his earlier strong
criticism of certain improper behavior of OCC staff,
including some of the Individual Defendants who
themselves were later actively involved in the OCC Action.
JURISDICTION AND VENUE
9.
This is an action for damages in excess of US $
75,000, exclusive of interest and costs.

86a

10.
This Court has subject matter jurisdiction
under 28 U.S.C. § 1331 as this is an action brought against
the United States under the Federal Torts Claims Act (28
U.S.C. § 2671, et seq. and 28 U.S.C. § 1346(b)) for money
damages as compensation for injuries that were caused by
the wrongful acts of employees of the United States
Government while acting within the scope of their offices
and employment, and under circumstances where the
United States, if a private person, would be liable to Mr.
Loumiet. The United States has waived immunity from
these claims under 28 U.S.C. § 1346.
11.
This Court also has subject matter jurisdiction
as this is a private right under Bivens v. Six Unknown
Agents, 403 U.S. 388 (1971), and various other cases,
including the decision of the U.S. Supreme Court in
Hartman v. Moore, 126 S. Ct. 1695 (2006), to redress
violations of the First Amendment and Fifth Amendment
(Due Process Clause) of our Constitution.
12.
This Court has venue under 28 U.S.C. § 1391
in that the defendant resides in this district, and under 28
U.S.C. § 1402 because all, or a substantial part of the acts
and omissions forming the basis of these claims occurred in
the District of Columbia.
13.
Mr. Loumiet has fully complied with the
provisions of 28 U.S.C. § 2675 of the Federal Torts Claims
Act.
14.
Mr. Loumiet timely files this suit, in that he
first presented his claims to the OCC on July 20, 2011, and
the OCC denied them in writing by mail on January 9, 2012.
THE OCC ACTION
15.
Franz Kafka and Lewis Carroll would have
found rich literary fodder in the OCC Action. As described

87a

fully below, the OCC Action was directed by a group of
Government officials who—in pursuing their own retaliatory
agenda against Mr. Loumiet because he had earlier
exercised his Constitutional right to complain about their
behavior to the Treasury Office of Inspector General
(“OIG”)—brought a sham action based on patently ridiculous
claims; ignored indisputable facts adverse to their position,
or “played ostrich” so as to not face them; intentionally
misled the press; threatened punishment that was
completely disproportionate to the supposed wrongdoing;
knowingly ignored all of the overwhelming factual and legal
arguments against their position, including the OCC’s own
rules and guidelines; made up the law and standards as they
went along; disregarded through the end the absolute lack
of evidence in support of their position; intentionally took
positions contrary to sworn testimony of witnesses put
forward by that same Government; deliberately exaggerated
claims against Mr. Loumiet and repeatedly publicly defamed
him to the press; knowingly presented false testimony in a
judicial proceeding; made a complete mockery of “expert”
evidence; violated a series of Bar ethical rules applicable to
the conduct of litigation by legal counsel; and vindictively
and obstinately continued to pursue a case to its inevitable
losing conclusion so as to inflict maximum injury on Mr.
Loumiet long after it was clear that the action could not
prosper. In short, this was the truly ugly and abusive side of
Government regulatory enforcement power. However, Mr.
Loumiet does not mean to implicate or disparage the many
thousands of fine current and former public servants at the
OCC who were not involved in the action described here, or
to suggest that all OCC enforcement actions are conducted
in this same ghastly manner.
16.
This action arises from an administrative
proceeding brought by the OCC against Mr. Loumiet on
November 6, 2006. After an approximately three-week trial
held in October 2007, the administrative law judge (“ALJ”)

88a

presiding over the case issued a 56-page Recommended
Decision on June 18, 2008 that exonerated Mr. Loumiet on
all charges. Thirteen months later, on July 27, 2009, the
Comptroller of the Currency issued his Final Decision
dismissing all charges against Mr. Loumiet.
17.
On August 26, 2009, Mr. Loumiet sued the
OCC under the federal Equal Access to Justice Act (the
“EAJA”), to recover legal fees and expenses he had incurred
in defending the OCC Action. The ALJ in the OCC Action
initially rejected Mr. Loumiet’s EAJA claim. Mr. Loumiet
appealed that decision to the D.C. Circuit Court of Appeals.
On July 12, 2011, the D.C. Circuit unanimously reversed the
ALJ’s denial of the EAJA claim and awarded Mr. Loumiet’s
legal fees and expenses, finding that the OCC Action lacked
“substantial justification”—a finding that has been held by
the courts to be synonymous with “lacking a reasonable basis
in law and fact.”
Evidencing the same institutional
arrogance and lack of respect for the rule of law
demonstrated throughout this Complaint, almost one year
later the OCC has not paid a cent of the awarded amount.
18.
Under Hartman v. Moore, unless “probable
cause” for the Government’s criminal prosecution can be
shown to have existed, retaliation becomes the “but-for”
cause behind the Government’s behavior. “Probable cause”
is widely understood to mean “a reasonable ground to
suspect.” See, e.g., Black’s Law Dictionary 1219 (7th ed.
2007). Translating the criminal law concept of “probable
cause” to an administrative prosecution such as the OCC
Action, the D.C. Circuit already held, as noted above, that
after considering all of the OCC’s attempted justifications,
the OCC Action lacked any reasonable basis in law and
fact—i.e., was without “substantial justification.”
19.
After the D.C. Circuit’s decision, the OCC
opposed Mr. Loumiet’s request to that same Court for legal

89a

fees and expenses he had spent in pursuing his successful
EAJA action, including his successful appeal. On January
24, 2012, the D.C. Circuit, per curiam, again ruled for Mr.
Loumiet and ordered the OCC to pay him the full amount of
fees and costs he was claiming.
20.
Mr. Loumiet now brings this action under the
FTCA and the First and Fifth Amendments to our U.S.
Constitution for damages defendants have caused him by
their tortious and unconstitutional behavior. The OCC’s own
embarrassing and otherwise-inexplicable behavior and
positions in the OCC Action are the best evidence of
defendants’ improper motives in persecuting Mr. Loumiet.
THE HAMILTON BANK SAGA
21.
In 2000, Mr. Loumiet was a Principal
Shareholder at the law firm Greenberg Traurig
(“Greenberg”), heading both its International and Banking
Practices. Mr. Loumiet had then been practicing successfully
as a banking lawyer for about 22 years, and had also taught
banking law-related courses at the law schools at the
University of Miami and Yale University for several years
each.
22.
Among Greenberg’s clients was a Hispaniccontrolled bank based in Miami named Hamilton Bank, N.A.
(“Hamilton”). At the time, on information and belief,
Hamilton was the second largest Hispanic-controlled bank
in the continental United States. The bank was 100% owned
by a holding company named Hamilton Bancorp (“Bancorp”).
Of Hamilton’s 270 or so staff, on information and belief
roughly 250 were Hispanic (mostly of Cuban origin) or black.
Bancorp’s and Hamilton’s Boards of Directors and its
management were largely the same, primarily consisting of
Hispanic individuals. Most of Hamilton’s clients were from
Latin America and the Caribbean. Hamilton specialized in

90a

short-term trade financing, which historically has been a
very safe form of lending.
23.
Mr. Loumiet over the years had not personally
done much work for Hamilton, though under Greenberg’s
client origination system he was listed as one of six or seven
originating attorneys given credit for work coming from
Hamilton. (At the time, Greenberg did not have a formula
that directly linked work origination to shareholder
compensation, so it was not uncommon for multiple
shareholders to claim some credit for a client.) Hamilton had
never been a large client for Greenberg—the fees Hamilton
paid annually represented less than 1% of Greenberg’s
revenues, and before 1997, much, much less. In 1997,
Greenberg had handled an initial public offering of stock for
Hamilton, and, thereafter, securities law attorneys at
Greenberg had also handled a trust preferred offering, and
also continued advising Hamilton on its periodic securities
filings.
24.
As a national bank, Hamilton was regulated by
the OCC. Because state banking regulators do not regulate
nationally-chartered banks, alone among federal and state
bank regulators the OCC is able to act on enforcement
matters with respect to the banks it regulates—and the
people they employ or with whom they contract—without
having to consult another regulator and take into account its
views. Until 1998, the OCC gave Hamilton very good
examination ratings. In 1998, the EIC for Hamilton was
transferred to the OCC’s headquarters in Washington, D.C.,
and replaced with a new EIC, who, among other things, later
made the anti-Cuban statements described below. Not long
after, the relationship between Hamilton and the OCC
began seriously deteriorating.
25.
As reported in the press, in the Fall of 1998, the
OCC held a meeting in Miami with the various small

91a

national banks headquartered in that city and advised them
that they had to decrease their international lending
because it was not safe for smaller banks to engage in that
business. On information and belief, only Hamilton among
the Miami-headquartered national banks resisted this
instruction. Again on information and belief, this defiance
created additional friction between Hamilton and the OCC.
26.
In the early Summer of 2000, Mr. Loumiet was
approached by the then-General Counsel of Hamilton and
Bancorp. He wanted Mr. Loumiet to advise the Board of
Directors of Hamilton on the possible consequences to them
of a Consent Agreement to be entered into between the OCC
and Hamilton, which Mr. Loumiet was not previously aware
of. Hamilton had negotiated the agreement with the
assistance of one of the preeminent bank regulatory law
firms in the United States, Arnold & Porter, its lead outside
regulatory counsel. Nevertheless, the Hamilton General
Counsel wanted Mr. Loumiet to briefly review the proposed
agreement and explain to the Board the potential personal
liability of members of the Board should this agreement not
be performed, all while not spending much time (or
Hamilton money) on it. Limiting his role further, the
Hamilton Bank General Counsel also instructed Mr.
Loumiet not to become involved in the specific provisions of
the agreement, which had already been negotiated at length
with the assistance of Arnold & Porter and were essentially
agreed to. Over the course of the two following months or so,
Mr. Loumiet, without assistance from anyone else at
Greenberg, spent a total of 8 to 9 hours on this task, meeting
with the entire Board once, speaking with them by
conference phone a second time, reviewing two drafts of the
agreement, and ultimately writing a brief comment letter
with some general observations to the General Counsel.
(Unbeknownst to Mr. Loumiet, he actually sent his letter
after Hamilton had already signed the agreement with the
OCC.) Mr. Loumiet never communicated or consulted with

92a

any member of the Board individually, and Greenberg sent
the modest bill for Mr. Loumiet’s work to Hamilton’s General
Counsel, and Hamilton paid the bill. In one provision out of
many in the draft agreement, Hamilton agreed in the future
not to engage in “adjusted price trades.” Mr. Loumiet was
not given any background for the inclusion of this language
and, consistent with his very limited engagement, Mr.
Loumiet did not enter into detail.
27.
In August of 2000, the Board of Hamilton and
Bancorp, without Mr. Loumiet’s involvement, began
speaking to another shareholder at Greenberg about the
possibility of Greenberg advising the Audit Committee of
Hamilton on an investigation of certain transactions
Hamilton had engaged in October 2008 (the “Transactions”),
involving the sale of certain loans and the simultaneous
purchase of other loans. (Greenberg had not participated in
the Transactions as they were made.) The Greenberg
shareholder involved had led the securities offerings
Greenberg had handled for Bancorp and provided securities
law advice for some time to Bancorp as called on from time
to time. The investigation primarily concerned whether
those purchases and sales were sufficiently closely-linked
that they should be treated as an “adjusted price trade”
under generally accepted accounting principles (GAAP).
Unfortunately, this determination does not involve a “bright
line” test, but depends on all of the facts and circumstances
involved. As a result, reasonable men and women may differ
on the conclusion to be drawn as regards any particular set
of transactions, depending on its facts. The investigation
was being conducted at the request of Deloitte & Touche,
Hamilton’s and Bancorp’s auditors. The Greenberg
securities shareholder informed Mr. Loumiet of the possible
engagement. Mr. Loumiet offered to assist as needed on the
banking and banking-law aspects of the matter but also
made note that it was important to consider the work done
by Mr. Loumiet for the Board that same Summer to make

93a

sure there was no conflict. Deloitte also asked that the Board
consider Greenberg’s independence in handling this matter,
which the Board did. Ultimately, a big factor in Greenberg’s
engagement appears to have been that the investigation had
to be done and the report completed by early November, and
Greenberg’s existing familiarity with Hamilton and Bancorp
by virtue of the securities legal work it handled for Bancorp
made this more feasible than would have been true for an
entirely new law firm. In any event, if an “adjusted price
trade” were found, many SEC filings done by Bancorp in the
previous 18 months or so would have to be refiled,
presumably with Greenberg’s assistance. Greenberg was
engaged in mid-September. Mr. Loumiet had no
involvement in this decision to engage Greenberg.
28.
The investigation that followed over the next
six weeks or so was primarily handled by the securities
shareholder at Greenberg, with the help of two associates.
Greenberg attorneys sought to interview every individual
who appeared likely to have pertinent information, but as is
often the case in private-sector investigations where there is
no way of forcing people to speak, some individuals
approached by the Greenberg lawyers refused to talk. While
it was contemplated that Mr. Loumiet would help with any
banking law concepts and documents that surfaced, there
was relatively little of that work involved. Thus, over a sixweek investigatory period, Mr. Loumiet spent a total of
about 10 hours, or roughly 1.6 hours a week, on the matter,
mostly serving as a resource and occasional sounding board
on banking-related issues for those doing the investigating.
In fact, the Transactions had already been thoroughly
investigated for about 18 months by the OCC, using far
greater resources than a law firm like Greenberg could
possibly bring to bear, including subpoena powers, the
possibility or threat of involving sister law enforcement
government agencies, and the international reach of the U.S.
Government. Some 15 to 20 OCC examiners, investigators,

94a

lawyers and consultants had already investigated the
matter before Greenberg. In addition, both Deloitte and
Arnold & Porter, as auditors and regulatory counsel for
Hamilton, respectively, had also investigated the matter
thoroughly before Greenberg. Consequently, by the time
Greenberg became involved, the investigative path had
already been well-trod.
29.
Originally, the initial drafting of the necessary
report was entrusted to a mid-level associate involved in the
investigation. By late October, as the deadline for the report
loomed, it became apparent the associate was in over his
head, so Mr. Loumiet took over the drafting of that report
based on information provided to him by the lawyers doing
the investigation. The report was completed and sent out on
November 15, 2000.
30.
One of the tasks of the report was to try to
determine whether three members of Hamilton’s senior
management, including its Chair and CEO, had lied to
Hamilton’s Board, Deloitte, Arnold & Porter and the OCC
about the Transactions. The OCC, after its investigation,
had provided to Deloitte a series of documents that it had
culled from Hamilton’s files and from the files of other banks
involved in the Transactions that the OCC felt were
particularly significant. The Greenberg report expressly
discussed each of those documents and attached them all as
exhibits, exactly as received. Ultimately, because of
inconclusive facts, the report was unable to reach a
conclusion whether or not the members of Hamilton’s senior
management had lied about the Transactions. In fact, that
was the same non-conclusion that Deloitte, Arnold & Porter
and the OCC itself (as discussed below) had reached at that
point in time, presumably for the same reasons. However, on
review of the report, the OCC did concede that the report
was well-organized and thorough.

95a

31.
One document attached to the report was a fax
that had been sent to both the bank through which the loan
sales had been done, and another bank through which loans
had apparently been purchased. As discussed below, the
cover sheet to this fax was to become a focal point of the
OCC’s harsh public accusations against Mr. Loumiet,
designated by the OCC itself as the “smoking gun” in its
case.
32.
Two weeks after the Greenberg report was sent
out, there was a lengthy pre-scheduled meeting at OCC
headquarters in Washington, D.C. to discuss the situation.
In attendance were numerous representatives of the OCC,
members of Hamilton’s Board, two attorneys from Arnold &
Porter, representatives of Deloitte, and the securities
shareholder and Mr. Loumiet from Greenberg. By then the
Hamilton Board, based on the Greenberg report, had
concluded that the purchases and sales had been sufficiently
linked that they should have been considered part of a single
“adjusted price trade,” and that the bank therefore had to
report a loss on its books. The exact amount of that loss was
a big topic of discussion at the Washington meeting, with the
discussion ranging from US$ 4 million (advocated by some
of the Hamilton Directors) to US$ 24 million (the amount
advocated by the OCC).
33.
At that meeting, the OCC also stated that, of
all of the national banks that it regulated, Hamilton had
become its biggest headache. In addition, the topic of
Hamilton’s access to a Congressionally-mandated OCC
ombudsman was discussed. Hamilton had sought access to
that ombudsman because it disagreed with instructions
from its OCC examiners on the write-down of certain of its
loans. At the meeting the senior OCC official present openly
stated that Hamilton should stop seeking access to the
ombudsman, because that ombudsman would only do what
the OCC told him to do anyway. In fact, it is Mr. Loumiet’s

96a

understanding that the ombudsman was never helpful to
Hamilton Bank. At least part of this may have been
attributable to the fact that under OCC rules in effect at that
time, loans that were the subject of investigation by the OCC
could not be considered by the ombudsman. Thus, the OCC
could insulate its decision on any given loan from review by
the Congressionally-mandated ombudsman by the tactic of
simply designating the loan as subject to investigation even
after the ombudsman had already been approached on the
particular loan.
34.
Also noteworthy is that, at the Washington
meeting, both Mr. Loumiet and his fellow Greenberg
shareholder expressly asked if the OCC had any additional
information on the issues Greenberg had investigated and
addressed in its report, to which the OCC’s very clear
response was, “no.” A couple of weeks later Deloitte asked
the OCC the same question, and was also told, “no.” In fact,
during the OCC’s action against Mr. Loumiet years later, it
became apparent that the OCC did have significant
additional information that it simply did not share with
Greenberg, while misleading Greenberg (and Deloitte) that
the information did not exist. At the Washington meeting,
when asked directly about Hamilton management, all the
OCC stated was that it could not “strongly endorse” that
management.
35.
As already suggested, a couple of weeks after
the D.C. meeting, Hamilton’s Board agreed to write down its
books by US$ 22 million, an amount very near to the US$ 24
million the OCC had advocated, to reflect the “adjusted price
trades.” This required Bancorp’s securities filings from late
2008 and on to be revised and resubmitted. After the writedown was completed, Hamilton remained a “wellcapitalized” bank under OCC standards at the beginning of
2001.

97a

36.
Since he had heard nothing more from the OCC
after the meeting in D.C. at the end of November, by midJanuary Mr. Loumiet assumed that this matter had been
concluded. Then, unexpectedly, a letter arrived from the
OCC describing a deposition it had taken of an official at a
counterparty-bank involved in the Transactions that
directly contradicted what Greenberg had been told by the
least senior of the three Hamilton officers whom the OCC
suspected of wrongdoing. To make matters even more
confusing, the deposition statements of the counterpartybank official also directly contradicted what that person’s
own lawyer, a partner at a major Wall Street law firm, had
told the Greenberg investigators the previous Fall,
statements that had actually been included in the Greenberg
report. Mr. Loumiet promptly reached out to the Hamilton
officer whose truthfulness was being challenged to see if he
would change his story in light of this contradictory
deposition. The officer did not and, eventually, at Mr.
Loumiet’s insistence, that Hamilton officer signed a sworn
Affidavit prepared by Mr. Loumiet confirming what that
Hamilton officer had told Greenberg investigators the
previous Fall, which directly conflicted with the deposition
testimony the OCC had described to Mr. Loumiet. (Mr.
Loumiet prepared the sworn Affidavit to make sure there
was no wiggle room: if the Hamilton officer signed it, either
he or the counterparty-bank official had to be wrong on at
least some facts.) At the same time, Mr. Loumiet tried to get
the lawyer of the counterparty-bank official to explain the
contradiction between his own statements included in the
Greenberg report, and his client’s sworn deposition to the
OCC. The lawyer never gave an explanation; to this day, the
contradiction between client and counsel remains
unexplained. Following Bar ethical rules, Mr. Loumiet also
asked that counsel for access to his counterparty-bank
client, but that access was denied. Mr. Loumiet, of course,
had no way of compelling the counterparty-bank official or
the lawyer to speak to Greenberg.

98a

37.
Mr. Loumiet, the Greenberg securities
shareholder, and two Deloitte partners visited OCC
headquarters in Washington, D.C. a second time in early
February 2001. This time, Mr. Loumiet and the other three
were ushered into a meeting in the smaller conference room
with several OCC officials, one of whom read them excerpts
from the counterparty-bank official’s deposition to the OCC.
Since they were concerned that excerpted, redacted
language taken out of context can sometimes be misleading,
both Mr. Loumiet and the other Greenberg shareholder
asked if, within the confines of that same room, they could
just look at—not even take with them—the deposition from
which the extracts were derived. The OCC officials refused;
the visitors were not allowed to even touch the folder that
contained the deposition. Later, at the same meeting, the
OCC also advised the Greenberg shareholders of six “red
flags” that the OCC wanted Greenberg to use to reconsider
its earlier conclusions.
38.
On returning to Miami, the securities
shareholder spoke to the Hamilton Board and then informed
Mr. Loumiet that a new report had to be written taking into
account the sworn statement by the counterparty-bank
official as well as the OCC’s “red flags.” Moreover, since the
securities shareholder was very busy redoing past Bancorp
securities filings and putting together the annual report for
that company, Mr. Loumiet would have to lead this effort.
Mr. Loumiet suggested having other Greenberg
shareholders handle the matter instead, but it was pointed
out to him that the only two shareholders who knew the case
were Mr. Loumiet and the unavailable securities
shareholder, and that it would be costly and unfair to the
client to now bring in additional senior attorneys with no
background in the matter.
39.
Further complicating matters was that a
securities class action had been filed in January against

99a

Bancorp, Hamilton, the Boards of both, as well as the three
Hamilton officers who had principally been involved in the
transactions Greenberg had investigated in the Fall.
Without Mr. Loumiet’s involvement in any manner,
Hamilton had approached a litigation shareholder at
Greenberg to represent all of the defendants. When he
subsequently found out about this, Mr. Loumiet discussed
with that shareholder making sure, before undertaking the
matter, that all legal conflicts arising from Greenberg’s work
for the Audit Committee were resolved in the course of
opening the file. Greenberg, like all major law firms, had
established internal conflicts clearance procedures when
new matters were undertaken, and it was traditionally up to
the senior attorney opening a matter to make sure conflicts
were resolved. (The undisputed first-hand testimony at Mr.
Loumiet’s trial was that any conflict was in fact waived, and
the ALJ so found in her Recommended Decision.) Further,
Mr. Loumiet understood that Greenberg at that point simply
planned to handle on behalf of all of the defendants the early
procedural stages in any class action—for example,
challenging class certification—which could be done
collaboratively on behalf of all the defendants and did not
require a determination of any particular defendant’s
behavior, or conflicts among them on substantive issues that
would have to be addressed before a responsive pleading
relating to the merits would have to be filed months later.
This would leave to a later date a decision as to whether
separate counsel was appropriate for the different
defendants, once the early procedural stages passed and
before the merits of the action were reached. Nevertheless,
thereafter Mr. Loumiet kept away from that litigation
matter, except for a couple of occasions when the litigation
shareholder, on his own initiative and as an intended
courtesy to Mr. Loumiet, informed him at what early
procedural stages the litigation was (e.g., we’ve asked for an
extension of time and are filing a motion challenging the

100a

class). By mutual agreement, there was no discussion of the
substance of the matter between the two shareholders.
40.
By this time, Mr. Loumiet knew that he would
be leaving Greenberg for another law firm not long after that
same Spring, together with a group of younger shareholders
who worked with Mr. Loumiet. He also knew that the OCC
matter would remain at Greenberg after he left, because it
was primarily a securities law (disclosure) matter that had
come in through the securities shareholder, who would
continue to handle it, with Arnold & Porter acting as bank
regulatory counsel. Similarly, the class action (with which
Mr. Loumiet, as noted, had no involvement) would remain
at Greenberg in the hands of the litigation shareholder. In
addition, as already noted, Hamilton had never been a
significant personal client of Mr. Loumiet. Altogether, Mr.
Loumiet had little reason or desire to continue his
involvement in the OCC matter. However, after giving the
matter some thought, Mr. Loumiet reluctantly concluded
that he could not just walk away and leave the client
hanging.
41.
Unlike an auditor’s investigations and reports,
there is no published guidance for lawyers on how to conduct
an Audit Committee investigation, or how to write the
ensuing report. There are neither “generally accepted
accounting principles” nor published standards by a
governing body of the legal profession on how a lawyer
should proceed in these situations. The matter is therefore
largely left to the judgment of the attorney involved. Since
the OCC had not suggested that Greenberg had missed any
information in its investigation other than the statement
from the counterparty-bank official who would not speak to
Greenberg, Mr. Loumiet believed the crux lay in resolving
the factual dispute between the most junior of the three
Hamilton officers, who occupied a mid-level position at the
bank, and the counterparty-bank official. However, since

101a

that official and his lawyer declined to speak to Greenberg,
and the OCC, despite requests from Mr. Loumiet and the
securities shareholder, appeared to be doing nothing to
persuade them to do otherwise, Mr. Loumiet felt his best
choice was to focus on the Hamilton officer and try to break
him down. As noted, Mr. Loumiet himself had earlier been
unable to do so, so he believed it was time to bring in bigger
guns. Mr. Loumiet did not believe that the Hamilton bank
officer was a particularly strong person and it did not make
sense to him that, if that officer was lying, he would continue
to do so under a tough grilling, given his relatively modest
salaried position at the bank. So, Mr. Loumiet arranged an
interview at Hamilton’s offices where the Hamilton bank
officer, voluntarily unaccompanied by counsel, underwent a
lengthy barrage of questions from the head Arnold & Porter
partner involved, the Greenberg securities shareholder, and
another Greenberg litigation shareholder who was a former
senior federal prosecutor, the latter with express
instructions from Mr. Loumiet to break the Hamilton bank
officer down. Together, these three attorneys had then been
practicing for about 70 years. Mr. Loumiet deliberately was
not present to allow the three other lawyers to do their best
without any influence from Mr. Loumiet. After several
hours, the three attorneys emerged and informed Mr.
Loumiet that they had been unable to even dent the
Hamilton officer’s story.
42.
Some time after that session, Mr. Loumiet
began assembling a second report, which was sent out on
March 14, 2001. Again, there was no blueprint for the task.
The first part of the report compared at length the
statements from the counterparty-bank official with those of
the Hamilton bank officer, tried to reconcile them, and
ultimately concluded a few were irreconcilable. The second
part took each of the OCC’s six “red flags” and listed all of
the known facts supporting or challenging them. Ultimately,
the report concluded that while the Transactions had been

102a

very poorly handled by Hamilton officers, there was not
enough evidence to conclude that the three had intentionally
lied. However, like the predecessor report, this report also
did not conclude that they had told the truth. Before being
sent out in final form, the report was reviewed by Arnold &
Porter (who suggested changes softening the language of the
report in places, many of which Mr. Loumiet rejected),
Deloitte and the Greenberg securities shareholder. The
report went out in the names of both Mr. Loumiet and that
shareholder.
43.
As was the case with the prior Greenberg
report, the report was delivered to the Hamilton Audit
Committee and Board of Directors, and Mr. Loumiet heard
no dissatisfaction from either. In each case, Greenberg billed
for its work (which totaled US$ 210,000 for the 20 weeks or
so of work on both reports) in due course and the bill was
paid without comment by Hamilton.
44.
By this time, Mr. Loumiet was committed to
leaving both Greenberg and this matter behind in a few
short weeks. In the additional weeks after the letter was
received from the OCC in mid-January describing the
counterparty-bank official’s surprising deposition to the
OCC, Mr. Loumiet’s continued involvement with Hamilton
had exposed Mr. Loumiet to a series of incidents that showed
OCC staff behaving in a very disturbing manner. Before
becoming involved in the Hamilton OCC matter, Mr.
Loumiet had generally had good experiences working with
the OCC in matters relating to national banks. In fact, Mr.
Loumiet had worked well with the OCC on a variety of
matters, including the extension of the Deposit Guaranty
statewide branching precedent to Florida in the late 1980s,
and Mr. Loumiet considered the OCC to be enlightened in
terms of certain of its policies—for example, on nationwide
banking and new powers (insurance and others) for national
banks. However, Mr. Loumiet cannot remember having ever

103a

before dealt with the Special Supervision and Fraud
Division of the OCC, which by early 2000 had taken over
responsibility for Hamilton, with defendant Rardin serving
as Hamilton EIC, or ever having been involved in a contested
enforcement action brought by the OCC’s Enforcement and
Compliance Division.
45.
Mr. Loumiet had already been dismayed by the
OCC’s admission at the meeting in late November at OCC
headquarters that the OCC ombudsman was an agency
rubber stamp. In the period from mid-January to mid-March
2001, when the second Greenberg report was issued, Mr.
Loumiet learned of additional very disturbing OCC behavior
at Hamilton. For example, Mr. Loumiet learned that OCC
representatives had repeatedly told seemingly pointless lies
to Hamilton officers and others. In addition, OCC staff on
various occasions had either ignored the law or, disregarding
their own prior precedents, reinterpreted it in a manner that
then suited their immediate objectives. Mr. Loumiet also
learned that the principal Arnold & Porter partner in charge
of Hamilton had been threatened that, if he did too good a
job representing Hamilton in its various disputes with the
OCC, he had better “watch his back” every time he walked
into OCC headquarters in Washington, D.C. (This threat
was confirmed by that attorney in a sworn deposition given
in the action later brought by the OCC against Mr. Loumiet.)
Since this partner’s practice was a D.C.-based bank
regulatory practice revolving in large part around national
banks, and since he was himself a former OCC official, Mr.
Loumiet did not take this threat lightly. The OCC had also
sought to pressure the Deloitte officials in Miami working on
the Hamilton matter by contacting Deloitte representatives
responsible for that firm’s national banking practice, which
was very significant. When combined with the OCC’s
repeated disregard for precedent and its corresponding
proclivity to make rules up as suited it along the way, Mr.
Loumiet saw these ham-handed actions as a troubling

104a

disregard for the rule of law by the OCC representatives
involved.
46.
The OCC’s behavior was troubling enough.
However, that behavior was compounded by overtly antiHispanic behavior and language by OCC officials at
Hamilton, whose staff, as noted, was probably 90% or so
minority. The then-OCC EIC at Hamilton in 1999 (the
predecessor to defendant Rardin) told Hamilton employees
that he had been forced to leave his native Miami-Dade
County because of the arrival of the Cubans. (Many, if not
most, of Hamilton employees were Cuban.) Unfortunately,
the OCC has had a troubled relationship with the Hispanic
community in our country for many years. On information
and belief, there are some 5 national banks in the U.S. in
total currently owned or controlled by Hispanics, out of a
total of approximately 1,800 national banks altogether—or
about 4/10ths of 1%—even though Latinos now represent
more than 1/6th—or almost 17%—of our nation’s population.
Mr. Loumiet did not believe that this percentage disparity is
attributable to Hispanics somehow being culturally less
suited for the banking industry, or less interested in it, than
non-Hispanics. Mr. Loumiet does not know of any senior
Hispanic official at the OCC, in its almost 150-year history.
The history of American banking is littered with the
carcasses of Latino-owned or controlled national banks
closed by the OCC—many in South Florida—in numbers
way disproportionate to the total number of such banks that
have existed, when compared to the corresponding numbers
for national banks generally. Moreover, Mr. Loumiet was
told at the time that the OCC had a history of internal racial
issues, having been the subject of a Consent Decree with the
Justice Department in the 1970s and 1980s over this precise
issue. Until Hamilton, while Mr. Loumiet had heard secondhand of OCC difficulties with the Latino community, he had
never had to face the situation directly, so he had simply
ignored the situation. Now it was in Mr. Loumiet’s face.

105a

47.
47. As a result, Mr. Loumiet was faced with a
quandary: whether and how to blow the whistle on the
behavior of OCC representatives. There were many good
reasons for Mr. Loumiet to simply turn his head and pretend
he did not see. Mr. Loumiet was a prominent and established
banking attorney with a significant practice, to whom the
OCC itself, at the trial that would follow some five years
later, would ironically refer on the trial record as “preeminent,” “leading,” “distinguished” and “learned”. (This all
while publicly accusing Mr. Loumiet of “concealing crimes,”
“suppressing material evidence,” “purposely” covering up
the Hamilton officers’ misconduct, and the like; Mr. Loumiet
could only wonder at trial what superlatives the OCC could
possibly have used to describe Mr. Loumiet had it not been
prosecuting him and attempting to ban him for life from
representing any FDIC-insured institution.) At the time, Mr.
Loumiet generally prided himself on his good relationship
with U.S. bank regulators generally. Moreover, as already
noted, Hamilton had never been an important client of Mr.
Loumiet’s, and he knew he would be leaving his current law
firm in a manner of weeks and that Hamilton was unlikely
to be a significant client of his at his new firm. As a veteran
regulatory lawyer, Mr. Loumiet also knew that reporting a
regulator’s misbehavior was likely to only hurt hid
relationship with the agency involved on a going-forward
basis. In addition, Mr. Loumiet was warned by another
regulatory lawyer who had much greater experience than he
in dealing with the OCC Divisions involved that these were
“mean, nasty, vindictive” people, who would do whatever
they could in the future to get back at him. The then-existing
threats against the Arnold & Porter partner simply
reinforced this point. Mr. Loumiet thought long and hard
about just shutting up and going along.
48.
Given the eventual personal consequences of
his actions, as described below, which he candidly did not
anticipate when he acted, Mr. Loumiet has many times since

106a

second-guessed himself for not doing just that. Perhaps Mr.
Loumiet was ultimately compelled to blow the whistle by his
deep-rooted belief, based on his own life experience as a
young immigrant from a homeland where the rule of law at
one point devolved to whatever the uniformed man with the
gun standing in front of you said, that there is no rule of law
unless the Government itself is the first to respect it.
Perhaps it was that Mr. Loumiet also believes that if the Bar
does not stand up when necessary and call the Government
to task for ignoring the rule of law, who in our society will do
so? Certainly, an important factor was that Mr. Loumiet had
already discerned a worrisome, increasing anti-Hispanic
sentiment and backlash as the U.S. Latino population grew
dramatically in the 1980s and 1990s, and Mr. Loumiet
simply was not willing to put up with overt anti-Hispanic
behavior from the Government as well while remaining
silent. Some combination of these factors ultimately
persuaded Mr. Loumiet that he should blow the whistle on
the OCC behavior involved.
49.
The next concern was, to whom and how to blow
the whistle? Mr. Loumiet simply wanted someone in a
position of authority to look into the situation and take
appropriate steps, without necessarily generating any
publicity. The obvious person was the Comptroller himself,
since the behavior at issue had been that of his staff.
However, that did not seem right, since by law the same
Comptroller would be the final decision-maker in the various
pending Hamilton administrative actions, and Mr. Loumiet
did not want to affect (or appear to be trying to affect) the
outcome of those actions. (To Mr. Loumiet, the OCC’s
behavior at Hamilton was not legally, morally or logically
linked to the merits of any administrative action involving
that bank, any more than police brutality is justified by the
merits of any arrest the police officer may be making.) So
instead, Mr. Loumiet wrote to the Office of Inspector
General (“OIG”) at the Treasury Department, whose

107a

statutory functions include assuring that all of the agencies
and bureaus within that Cabinet department, including the
OCC, and their employees, comply with the law. On March
26, 2001, Mr. Loumiet wrote to the Treasury Inspector
General, avoiding any mention of Hamilton, but complaining
about OCC staff behavior at an unnamed national bank in
some detail. Because the letter was a public document, Mr.
Loumiet did not reveal in the letter all of the troublesome
OCC behavior (such as the threats against Hamilton’s lead
regulatory lawyer). To make sure that the OCC did not think
that Mr. Loumiet was acting surreptitiously, he copied the
General Counsel of the OCC on the letter.
50.
On an afternoon in late April 2001, there was a
third meeting at OCC headquarters in Washington, D.C.
relating to Hamilton’s ongoing problems with the OCC. At
that meeting, the Board of Hamilton and Bancorp was given
approximately 20 minutes, while required to remain in a
OCC conference room, to “voluntarily” agree to comply with
a series of onerous OCC requirements which were sprung on
them for the first time at that meeting, without even a prior
hint. No discussion or even minimal change to the
requirements was allowed—it was take it or leave it, “as is.”
Moreover, the alternative to its agreement, the Board was
told, was that those same requirements would be imposed
unilaterally by the OCC by Cease and Desist Order that
same afternoon, while the Board was flying home.
Particularly since Bancorp was a publicly-traded entity, it
was impossible for the Board to deliberate and act in 20
minutes on the complicated issues presented, without any
background or consultation with third parties or advisors
(other than the few present) and without leaving OCC
headquarters, and still meet its fiduciary duties to its
shareholders. As a result, the Board declined to act, and the
OCC imposed the requirements that same afternoon by
unilateral Order. The OCC imposed the requirements
without providing any explanation for them to the Board,

108a

and without explaining the urgency for their
implementation in this rushed manner. In addition, the
OCC prohibited Hamilton from discussing even with its own
affected clients what had happened. Among the various
requirements the OCC imposed on Hamilton was that it
immediately, overnight, and without delay, sever and
discontinue doing all business with a long list of customers,
including the Panamanian Consulates in the U.S., some of
which had been its customers or more than 10 years, without
explanation for why it was yanking their banking
relationship literally overnight and with no time allowed for
them to migrate that relationship elsewhere—this,
regardless of any consequences from that sudden, drop-dead
rupture either to Hamilton or to those clients or their
business, and without any allegation that those selected
clients were themselves engaged in any wrongdoing. The
single visible common denominator for all of these clients
was that they were Spanish-speaking. Mr. Loumiet found
this additional OCC behavior—which again did not seem to
him to comport with due process, and again smacked of bias
against the Hispanic community—profoundly troubling, so,
after returning to Miami, Mr. Loumiet sent the Treasury
Inspector General a follow-up letter denouncing aspects of
that third meeting.
51.
On May 1, 2001, Mr. Loumiet changed law
firms, moving from Greenberg to Hunton & Williams LLP.
Unexpectedly and ironically, one of the very first
congratulatory messages he received was an e-mail from the
former OCC EIC at Hamilton who had been “kicked
upstairs” to Washington, D.C. in 2008, before Hamilton’s
serious conflicts with the OCC began. Mr. Loumiet had met
this OCC official and even once, years before, had lunch with
him, but Mr. Loumiet was frankly surprised at the warmth
of the e-mail.

109a

52.
In late Spring 2001, the senior OCC official who
had stated at the late November 2000 meeting that the OCC
ombudsman was but a rubber stamp, ceased to occupy her
post. Her statement had been singled out and recounted in
Mr. Loumiet’s March 26, 2001, letter to the Treasury OIG.
On information and belief, Mr. Loumiet’s two letters to the
Treasury OIG caused severe embarrassment to various OCC
Special Supervision and Fraud, and Enforcement and
Compliance, officials who had been involved in the OCC
behavior relating to Hamilton that those letters criticized,
including prominently, and in senior roles, defendants
Rardin, Schneck and Sexton. Further, Mr. Loumiet’s
communications stood out because they were highly unusual
since, as already suggested, given the vast power that OCC
officials wield over anyone in any way involved with a
national bank, as explained below, it is extremely rare for
anyone to challenge those officials’ behavior. Even though
the OCC has several thousand employees to draw on, several
of those same officials—e.g., defendants Rardin, Sexton and
Schneck—would be directly and actively involved in the
decision to sue Mr. Loumiet five years later, as well as in the
actual conduct of that litigation. This lack of concern for
their own personal conflict in bringing and pursuing that
action would render the OCC’s conflicts charges against Mr.
Loumiet in that action, as discussed below, ironic.
53.
In late June of 2001, three months after
Greenberg’s second and last report, the OCC issued an
examination report for Hamilton. Normally, those reports
are privileged and confidential. However, in this case the
OCC later, on its own, chose to use that examination report
in its trial of Mr. Loumiet, thereby waiving any examination
privilege relating to Hamilton. Nowhere in that lengthy
examination report is there any suggestion that the three
senior Hamilton officials had lied to or misled the OCC or
anyone else in connection with the transactions investigated
by Greenberg. While the report, not surprisingly, was

110a

generally highly critical of Hamilton management, it praised
the leadership and inspirational value of the Chair and CEO
of Hamilton, suggesting that he resign as CEO but remain
as Board Chair. It seems inconceivable to Mr. Loumiet that
if in June 2001, after some two years of investigating the
subject transactions, and with the benefit not only of the
Greenberg reports, but also the additional information the
OCC had gathered, the OCC itself had concluded that the
three Hamilton officers involved had repeatedly lied,
including under oath, the OCC under any circumstances
would have recommended that the most senior of those
officers remain as Chair of Hamilton’s Board. This means
that like Greenberg, Deloitte and Arnold & Porter, as of
June 2001, the OCC had not been able to conclude that those
three individuals had acted in an intentionally wrongful
manner. In an amazing example of “do as I say, not as I do,”
this fact would not prevent the OCC from prosecuting Mr.
Loumiet years later for having failed to reach the “right”
conclusion on this issue in the Greenberg reports.
54.
In the Summer of 2001, Mr. Loumiet was
approached by a former Big 4 accountant in Miami who had
become CEO of a small national bank in Arkansas by the
name of Sinclair National Bank, many of whose customers
were less-affluent African-Americans and Hispanics.
Sinclair was in the midst of its own battles with the OCC,
which, according to sworn Affidavits from Sinclair
representatives, included some troublesome racial behavior
by OCC staff. Sinclair already had other Washington
counsel, and had already sued the OCC through that
counsel. Nevertheless, Sinclair’s CEO and its Board Chair
wanted Mr. Loumiet to also represent the bank in this
matter before the OCC. After giving the matter some
thought, Mr. Loumiet declined the representation, since he
did not want to risk any possibility of the two instances of
alleged racism—Hamilton and Sinclair—being treated as
one. Sinclair was closed by the OCC in September 2001.

111a

55.
Also in the Summer of 2001, Mr. Loumiet was
invited to Washington to meet with an attorney of the
Treasury OIG to discuss the two letters he had written to
that office. Mr. Loumiet thought that meeting went very
well, and that there was genuine concern at the Treasury
OIG about the OCC’s troubling behavior. Moreover, some
time after returning to Miami, Mr. Loumiet received a letter
from the Office of Legal Counsel at the OCC, whom he had
copied on the original letters, stating that the proper
authority to look into the incidents described in those letters
was, in fact, the Treasury OIG. Nevertheless, not long after
Mr. Loumiet received another letter from the Treasury OIG
stating, without explanation, that it would not be looking
into those matters. It was only years later, in the course of
discovery for his trial, that Mr. Loumiet would learn that a
meeting to discuss those letters had taken place between
representatives of the OCC and the Treasury OIG. At that
meeting, the OCC officials persuaded their counterparts
from the OIG that it was not necessary for them to look into
the matters, since the OCC itself would do so. Of course,
OCC never did and the matter was swept under the
proverbial rug.
56.
Also in the Summer of 2001, Hamilton engaged
CIBC, an investment bank, to seek a possible sale of
Hamilton. However, through the Summer and Fall of 2001
the situation at Hamilton continued to deteriorate as the
OCC progressively required the bank to write down its
assets to the point where, under the federal Prompt
Corrective Action statute, its capital had been sufficiently
reduced so that it could be seized. Since the OCC
ombudsman was not available for challenge of any writedowns, Hamilton was largely at the mercy of its OCC
examiners. Some of the write-downs occurred under unusual
circumstances. For example, after closing the OCC’s
examination of the bank for the quarter ended June 30,
2001, defendant Rardin on his own some time later

112a

overnight retroactively wrote down the bank’s books
effective June 30 by an additional US$ 12 million because
the bank unexpectedly recovered in early July that exact
same amount on loans that had been previously written off.
Because of this and other behavior reflecting the
extraordinary hostility that had by then developed between
Hamilton and the OCC, Deloitte resigned as auditor for
Hamilton in October 2000, citing the inability to perform its
job under those circumstances. Not long before its closing,
Hamilton filed in federal court a lengthy verified civil rights
complaint against the OCC which Mr. Loumiet co-signed
along with two well-known litigation partners at the firm
where he then practiced. That complaint summarized much
of the OCC’s inappropriate behavior at Hamilton. Before it
ever responded to the complaint, the OCC closed Hamilton
in early 2002 and appointed the FDIC as receiver for the
bank. On information and belief, that complaint, and Mr.
Loumiet’s involvement in it, further angered defendants
Rardin, Schneck and Sexton, who had been senior OCC
officials actively involved in, and responsible for much of, the
behavior it described.
57.
Hamilton was seized on January 11, 2002,
slightly more than a year after the Audit Committee and
Board agreed to write down the bank’s books by US$ 22
million because of the “adjusted price trades.” Hamilton was
one of only 11 FDIC-insured banks closed nationwide in all
of 2002. On the day before Hamilton was seized, Mr.
Loumiet was involved in negotiations to sell Hamilton’s
assets and liabilities to another national bank based in
Miami for US$ 40 million and some contingent return on
assets. Had those negotiations been completed and
successful, there would have been no need to close Hamilton,
and its shareholders would have received some return, albeit
a modest one, on their investment. In addition, no loss to the
FDIC insurance fund would have resulted. The OCC was
aware of this effort when it closed Hamilton.

113a

58.
The FDIC receivership of Hamilton, which
lasted approximately four years, was ultimately reported to
have produced a loss of US$ 127 million to the FDIC
insurance fund. For whatever reason, rather than
Hamilton’s being sold as a combination of liabilities and
performing loans when it was seized, as is normally the case
when a bank in this country is closed, at the time of
Hamilton’s closure only most of its deposit liabilities and
three of its branch offices were transferred to a successor
bank (the remaining six branches were closed). Hamilton’s
assets, primarily loans, some two-thirds of which were shortterm, trade-related loans, which as already noted
historically have widely been viewed in the banking industry
as safer than other types of longer-term loans, were retained
by the FDIC as receiver. At the time Hamilton was seized,
those assets were reported to be about US$ 1.2 billion. Many
of those assets were relatively small credits to debtors from
abroad, meaning that collection of the credits could
ultimately involve the great inconvenience of having to
pursue debtors in foreign jurisdictions. Once Hamilton was
closed, its receivership estate ceased being a source of
potential renewed or additional funding for borrowers,
eliminating one major incentive that borrowers have, as a
practical matter, to service their loans. Moreover, when
Hamilton went under, many of its borrowers were left
without financing on existing or proposed transactions,
causing them inconvenience and loss. When, combined with
these considerations, those debtors learned that the FDIC as
receiver, rather than chasing them in foreign countries,
would accept deeply discounted payments in satisfaction of
their outstanding loans, even very affluent borrowers from
abroad wound up paying only a modest percentage of what
they owed in settlement of their Hamilton loans. In addition,
the customary FDIC fire sale of bank assets produced
significant losses even on performing loans made to U.S.
borrowers; for example, the block sale of a portfolio of US$
140 million in performing loans to excellent corporate

114a

borrowers in Florida by itself produced more than one-half
of the FDIC fund’s estimated total US$ 127 million in losses
on Hamilton.
59.
After Hamilton was seized, the FDIC launched
its usual receivership investigations to determine who might
have liability to it. As is often the case, this led to “agreed”
fines and settlements with a series of officers and Directors
at Hamilton. The FDIC also looked at the Transactions,
including into the possible liability of Greenberg and its
attorneys (including Mr. Loumiet) relating to the
investigation and two reports. In the course of its
investigations, the FDIC obtained, and later shared with the
OCC, all documents (including e-mails) at Hamilton relating
to Greenberg, and vice-versa.
60.
Under federal law, when a bank fails and costs
the FDIC insurance fund more than US$ 100 million, the
Treasury OIG must prepare a report to Congress assessing
the collapse, including the performance of Government
regulators involved. In the case of Hamilton, the Treasury
OIG issued a report highly critical of the way the OCC had
handled the Hamilton situation, though not for any of the
grounds brought to the attention of the OIG by Mr. Loumiet
in his letters. In fact, the report failed to make any mention
of Mr. Loumiet’s two letters to the OIG, or of the civil rights
complaint filed against the OCC in December 2001, or
anything discussed in those writings. This seems
particularly noteworthy in that those letters and complaint
were precisely about the conduct of the OCC staff at
Hamilton, that as noted, was the general subject of the
Treasury OIG’s report. Incredibly, the OIG’s report
discussed all other litigation between the OCC and
Hamilton, omitting only this particular complaint. In other
words, besides never investigating the merits of the matters
described in the two letters or in that complaint, the

115a

Treasury OIG did not feel any need to even mention those
matters in its report to Congress.
61.
On information and belief, from even before
Hamilton was seized, defendants Rardin, Sexton and
Schneck, all embarrassed and angered by Mr. Loumiet’s
whistle-blowing, began discussing how to retaliate against
him for his temerity, and continued doing so as events
unfolded from 2002 to 2006. In fact, all three of these
defendants were actively involved in the case brought by the
OCC against Mr. Loumiet and described below. Again on
information and belief, largely at the instigation of those
defendants, in the Summer of 2005 Mr. Loumiet received a
“15-day letter” asking Mr. Loumiet, Greenberg and the
securities shareholder involved in the Hamilton matter why
the OCC should not commence an action against them
relating to the Hamilton investigation and the two
Greenberg reports. Counsel to Greenberg, Mr. Loumiet and
the other shareholder responded with a lengthy submission.
The OCC never responded to the points raised in that
submission, but simply ignored them, even though many of
the same arguments contained in that submission would be
equally valid years later, when raised at Mr. Loumiet’s trial,
and would eventually appear in the administrative law
judge’s Recommended Decision. In other words, the entire
process of giving the potential accused an opportunity to
respond before a decision was taken to proceed or not—due
process—was a sham, no more real than the earlier
meaningless ombudsman process had been for Hamilton.
62.
In early 2006 Greenberg settled the FDIC
action. As part of that settlement, Mr. Loumiet was asked to
exchange releases with the FDIC, and did so.
THE OCC SUES MR. LOUMIET

116a

63.
The Individual Defendants caused the OCC to
notify that an administrative action would be brought
against Greenberg, the securities shareholder and Mr.
Loumiet in the Summer of 2006.
64.
In the early Fall of 2006 in Washington, D.C.,
OCC officials met with Greenberg’s counsel, who sought to
persuade the OCC not to proceed individually against Mr.
Loumiet and the securities shareholder. After all, it was
Greenberg, not those shareholders, that had been hired by
Hamilton; those attorneys had acted solely as employees of
Greenberg on all matters relating to Hamilton, and they had
never acted in a personal capacity or individually received
any benefits from Hamilton or anyone connected to it. The
response from defendant Sexton was that the language used
in the Greenberg reports had “gone too far,” and therefore
Mr. Loumiet and the securities shareholder themselves “had
to pay.”
65.
When he learned of this statement, Mr.
Loumiet was shocked because he strongly believes that, as
later eloquently stated by the court in Vinluan v. Doyle, 60
A.D. 3d 237, 251 (N.Y. App. Div. 2009), and as highly
pertinent to this case, “A prosecution which would …
potentially inflict punishment for the good faith provision of
legal advice is, in our view, more than a First Amendment
violation. It is an assault on the adversarial system of justice
upon which our society, governed by the rule of law rather
than individuals, depends.”
66.
Federal courts have held for years, without
seeing the need for much discussion in upholding such a selfevident point, that the Government cannot interfere except
under extreme circumstances with an individual’s right to
speak to an attorney. See, e.g., Martin v. Lauer, 740 F 2d 36
(D.C. Cir. 1984). However, an individual’s protected right to
speak to his attorney is worth little if the attorney in

117a

responding does not enjoy similar protection, but can be
punished by the Government because it—not the client—
does not approve of how the attorney responds. Essentially,
that was the situation at issue in connection with the
Greenberg reports. In 2001, the U.S. Supreme Court held
that attorney speech to clients was, in fact, protected speech,
when it held that, under the First Amendment, Congress
could not condition financial support to The Legal Services
Corporation on its attorneys’ not giving certain types of
advice that Congress disliked. Legal Services Corporation v.
Velazquez, 531 U.S. 533 (2001). (In that decision the Court
specifically referred to the attorneys’ First Amendment
rights in speaking to their clients.) Thus, by the time this
action was under consideration several years later, the
precedent that an attorney’s communications with his client
were protected from Government sanction by the First
Amendment for what he said was established. The OCC
simply chose to ignore this First Amendment protection
throughout this proceeding, even though it was raised early
and often by Mr. Loumiet. In fact, in the briefing at the D.C.
Circuit level in connection with Mr. Loumiet’s later
successful action for legal fees and expenses under the Equal
Access to Justice Act (EAJA), the OCC declined to take any
position at all on this fundamental Constitutional question,
knowing that there was nothing it could say that would not
either elicit widespread public criticism and rejection or,
alternatively, condemn its own behavior in bringing and
prosecuting this case. As to the FDIC Act’s “institutionaffiliated party” statute under which the OCC proceeded
against Mr. Loumiet, as discussed immediately below,
nothing in that statute or its legislative history suggests that
Congress intended for bank regulators to ignore the
Constitution in bringing enforcement actions under the
statute, not that Congress could so authorize anyway under
the terms of the First Amendment itself.

118a

67.
It was now even more obvious that the various
charges that the OCC was threatening to bring against Mr.
Loumiet, discussed below, were trumped-up, contrived and
pretextual. The statute under which the OCC was
proceeding was the FDIC Act’s “institution affiliated party”
(IAP) statute, 12 U.S.C. 1818(e) (2011). As relevant to this
complaint, that statute allows federal bank regulators to
punish outside service providers to FDIC-insured
institutions, including accountants and lawyers, who have
been hired as “independent contractors” by a bank, through
a federal administrative proceeding. (Of course, in his case,
it was Greenberg, and not Mr. Loumiet, who had been
contracted, a point that the OCC also simply chose to ignore.
In effect, the OCC took the position that under that statute
it may punish not only any company or firm hired by a
national bank, of which there are likely tens of thousands in
this country, but also any employee of any such entity, of
whom there are likely millions.) This punishment is above
and beyond, and independent of, any damages the FDIC as
receiver might collect from the advisors. As applicable to
outside service providers, the statute expressly contains
three noteworthy safeguards intended to protect against
excessive Government enforcement. The first is that the
provider must have been “conducting the affairs of the
bank.” (See discussion below.) A second is that the
wrongdoing charged has been committed with “scienter’—
i.e., either knowingly or recklessly—that is, with “conscious
disregard.” (The OCC in the past has lobbied Congress to
modify the statute to allow it to pursue persons for mere
negligence, because, it has claimed, the higher standard of
culpability is too difficult to prove; and it was frequently
apparent throughout the proceeding against Mr. Loumiet
that the OCC had simply chosen to ignore that higher
culpability standard Congress had set and subsequently
refused to alter.) Third, that the wrongdoing have caused
more than “minimal financial loss” to, or have had a
“significant adverse effect” on, the institution involved. The

119a

IAP statute not only permits potentially huge fines to be
imposed, but also allows the regulator to ban the
“independent contractor” involved from rendering any
further services to any FDIC-insured bank for life, or for
such shorter period as the regulator might propose.
Obviously, to anyone dependent on the banking industry for
a living, the statute is a huge club that renders that person
very vulnerable to the wielding federal bank regulator. In
fact, just being pursued publicly under the statute is enough
to destroy a person’s career in banking. While the three
standards that the statute imposes should theoretically
protect the accused individual to some degree, as will be seen
from Mr. Loumiet’s own case, a regulator can simply allege
that the standards are met and force a resisting individual
into a long and costly (economically, psychologically and
reputationally) administrative proceeding where the
regulator ultimately need make no serious effort to establish
that those conditions were met. Where bank regulators act
in bad faith, the best that an accused individual can hope for
is a Pyrrhic victory.
68.
Compounding the threat created by the IAP
statute is that the proceeding involved is conducted before
an ALJ, and is an administrative proceeding. Unlike “real”
Article 3 federal judges, federal ALJs are hired on a
renewable (or not) contract basis by the Cabinet department
or agency whose cases they hear. (In Mr. Loumiet’s case, the
ALJ was employed by the Treasury Department, which the
OCC forms part of.) As to the nature of administrative
proceedings, because as explained below the ultimate
decision is taken not by them, but by the head of the federal
agency involved, ALJs tend to be reluctant to rule based on
dispositive legal issues; and particularly as concerns
evidentiary matters, the proceedings are far less defined
than in federal court actions as to what may be taken under
consideration. (For example, in the case against Mr.
Loumiet, the OCC claimed privileges—such as that certain

120a

documents were “secret,” or were protected by a very broad
and undefined “investigation” privilege—that would be
highly unlikely to apply in a federal District Court action
and that limited what OCC-produced documents and
evidence Mr. Loumiet could present in the administrative
proceeding.) Moreover, as already suggested, the ultimate
decision-maker in the case is not the ALJ, who at least has
some training as a judge and an inclination to seeing justice
done, even though the Government agency involved pays his
or her salary. Instead, while the ALJ hears the evidence and
presents a recommended decision, it is the head of the
agency himself, whose staff is prosecuting the accused and
who at times is far more invested in the decision to prosecute
than any reasonable person would deem appropriate for a
supposedly “impartial” judge, who makes the final decision.
Moreover, it is usually the agency’s staff that write the final
decision for the agency head, who is understandably too busy
to sit down at a keyboard and start drafting. It is within that
agency head’s discretion to ignore the ALJ’s recommended
decision, subject to appeal to a federal Court of Appeals by
the accused should the agency head’s final decision be
“arbitrary, capricious, an abuse of discretion or otherwise
not in accordance with the law.” 5 U.S.C. § 706 (2)(A).
69.
Beyond the obvious risk of unfairness inherent
in the process, the accused is in a fight where his opponent
has far greater resources and can take as long as necessary
to exhaust the accused’s resources and pound him into
submission. When you combine both factors, small wonder
that one experienced banking lawyer who handled such
matters told Mr. Loumiet at the time that more than 90% of
contested administrative proceedings involving federal bank
regulators are won by the regulators.
70.
Greenberg was legally responsible for the
behavior of its attorneys at Hamilton because they were its
employees, and the same principle applies to the OCC’s

121a

responsibility for its own staff. However, no principle of law
made Mr. Loumiet liable for work done by other Greenberg
attorneys on this matter. This was particularly true in the
case of a statute such as the IAP statute, which requires
knowledge or “conscious disregard” (i.e., “recklessness”) by
the accused. Neither of these standards can logically be met
vicariously. As will be seen, this did not stop the OCC from
repeatedly attempting to hold Mr. Loumiet responsible for
other Greenberg attorneys’ alleged misbehavior, while
offering no legal basis for doing so.
71.
Once the decision to bring suit was finally made
by the OCC, Greenberg elected to settle, on information and
belief, in order to avoid the costs protracted litigation with
the OCC would have on the firm’s banking practice. Again
on information and belief, the securities shareholder was
then required by Greenberg to also settle, since his
continuance in the case would have effectively meant
Greenberg’s continuance in it as well. Both agreed as part of
the settlement to cooperate with the OCC. As a result of the
settlement, Mr. Loumiet ceased to be represented by counsel
and was left on his own. The OCC set a deadline of October
31, 2006, for Mr. Loumiet to settle. In mid-to-late October
2006, Mr. Loumiet, in a last-minute effort to convince the
OCC that its case was entirely without merit, sent the OCC
a lengthy letter explaining why its proposed case against
him made no sense, again citing many of the reasons that
would appear in the ALJ’s Recommended Decision almost
two years later. The OCC never responded.
72.
Mr. Loumiet alleges and will establish at trial
that in deciding to bring and in bringing the action against
him, the OCC, unduly influenced by defendants Rardin,
Sexton and Schneck, failed to follow its own internal
stipulated rules and procedures for such a decision and the
prosecution of such an action.

122a

73.
As already suggested, the Notice of Charges
filed against Mr. Loumiet failed to differentiate what he had
done from what other Greenberg lawyers had done, in
essence blaming Mr. Loumiet for the behavior of other
Greenberg attorneys and making it appear as if Mr. Loumiet
had been involved in and responsible for all of that behavior.
However, the actual charges against Mr. Loumiet were
based on five supposed behaviors by him, subsumed under
the broad umbrellas of “breach of fiduciary duty” and
engaging in “unsafe and unsound banking practices”: 1) that
he had reached the “wrong” conclusion in the two Greenberg
reports as to the truthfulness of the Hamilton officers; 2)
that he had failed to conduct a proper investigation; 3) that
there were five statements in the two reports that were
“materially false and misleading”; 4) that he had been
involved in an impermissible conflict of interest; and 5) that
he had “suppressed material evidence” in the form of a
“missing” fax cover sheet.
74.
Taking these charges sequentially, the one
relating to Mr. Loumiet’s failure to reach the “right”
conclusion in the two Greenberg reports was, as noted,
particularly ironic because the OCC as of its mid-June 2001
Examination Report—issued three months after the second
Greenberg report—as discussed above had similarly failed
to reach that same conclusion, notwithstanding a far longer
investigation and with far greater powers and resources. In
fact, it was not that the Greenberg reports had reached the
“wrong” conclusion; it was that, like the OCC, they had been
unable to reach a conclusion at all. Nevertheless, it was
apparent that the OCC was angry at Mr. Loumiet and his
colleagues for failing to do the OCC’s job for it by reaching
the conclusion the OCC itself wished it had reached.
Prosecuting Mr. Loumiet individually for this faulty “nonconclusion” also ignored that while Mr. Loumiet was the
principal author of the two reports, they were a joint effort
contributed to and approved by several Greenberg attorneys,

123a

and also prior to publication had been commented on
without significant objection by Deloitte (the long-term
auditors of Hamilton and Bancorp) and as concerned the
second report, Arnold & Porter, regulatory counsel to
Hamilton, both of which had their own fiduciary duties to
Hamilton and had already looked at the matter extensively.
Beyond this, a prosecution based on someone’s reaching the
“wrong” factual conclusion obviously raises troublesome
Free Speech issues. This was not the type of legal conclusion
to which there was a right or wrong answer based on
statutes, regulations or case law; this was a situation where
reasonable individuals could differ on what the assembled
facts showed. Of course, the power to punish is the power to
control. It therefore seems rather pointless and hypocritical
to extol Free Speech if the Government can, instead of
punishing the speech itself, punish Americans for the
conclusions they reach through their thought processes—a
necessary precursor to speaking. A final irony is that the
OCC, which had deliberately misled Mr. Loumiet by telling
him and his Greenberg colleagues that the OCC knew of no
other pertinent information that what was reflected in their
first report while deliberately withholding information from
them, would then sue Mr. Loumiet for not reaching the
“right” conclusion in reliance on the information he did have.
75.
The first thing to note about the second
charge—that Mr. Loumiet had conducted a faulty
investigation— is that allowing the Government to punish
citizens because it does not like the way they investigate
facts before reaching a conclusion obviously creates another
tremendous gap in First Amendment protection. Of what
importance is it that under the First Amendment the
Government cannot punish you for the conclusions you
reach, or the way you express them, if the Government can
instead punish you for, in its opinion, doing an inadequate
job in the fact-gathering and organizing that necessarily
precedes both that conclusion and speech? Moreover, as

124a

noted above, the Greenberg time sheets clearly showed that
Mr. Loumiet had played a very small role in the
investigation that had led to the initial Greenberg report in
the Fall of 2000, so it was far from clear why Mr. Loumiet
should be held responsible personally for that investigation.
In point of fact, out of the thousands of pages reviewed, the
numerous witnesses interviewed and facts analyzed in the
course of the Greenberg investigation, the matter ultimately
devolved at trial to the OCC’s claim that the Greenberg
investigators had failed to appreciate the significance of how
a handful of the debts purchased had been treated on some
of Hamilton’s internal reports after their purchase. (It
should be noted that this issue, at the time, had also
apparently been overlooked by Deloitte, Arnold & Porter and
the OCC itself, since it was never raised until after the
enforcement action against Mr. Loumiet began.) In other
words, on reflection, what may have been most disturbing
and telling about this charge was the OCC’s willingness to
impose extremely severe sanctions on Mr. Loumiet—
including a lifetime ban on representing FDIC-insured
banks—over a very minor issue supposedly “missed” in the
investigations conducted by the Greenberg attorneys and all
others. (This predisposition should be of grave concern to
anyone conducting a similar investigation of a national bank
at any time in the future; fail to “properly” value in the
OCC’s opinion any relatively minor fact produced in the total
investigation, and that may be used as an excuse to impose
severe personal sanctions.) Finally, this charge was, again,
“ironic” in light of the OCC’s having intentionally misled the
Greenberg lawyers as to the information the OCC itself had:
how do you rationalize punishing someone for supposedly
failing to “properly” appreciate all of the information at his
disposal, while deliberately and misleadingly concealing
from him other information that could be pertinent?
76.
The third charge had to do with five allegedly
“materially false and misleading” statements contained in

125a

four sentences in the two Greenberg reports. The two reports
together were 41 single-spaced pages long, and comprised
some 550 sentences. The OCC did not claim the reports as a
whole were materially false and misleading, but only those
five separate, unrelated statements. Moreover, the OCC did
not allege that those five statements were any more
significant than statements contained in the other 546 or so
sentences whose accuracy was not questioned, or that those
five statements had actually misled anyone or caused
anyone to do anything. There is abundant judicial authority
in related speech areas such as defamation and obscenity
logically holding that statements may not be judged in
isolation without taking into account their over-all context.
The OCC attempted no such thing. As discussed below, to
challenge several of the statements the OCC even had to
ignore prior relevant sworn Government testimony, even
though that testimony was expressly brought to its
attention. Moreover, to attack the statements the OCC also
had to, and intentionally did, ignore its own then-wellestablished distinctions between how securities acquired by
a bank after being underwritten as loans (IULs), and
securities purchased by a bank’s Treasury Department on
established markets, are treated on a bank’s books. After
analyzing and rejecting the OCC’s charges, the ALJ in her
Recommended Decision reached the following impeccably
logical, though masterfully understated, conclusion: “That
five sentences out of two lengthy legal memoranda totaling
40 pages may, when taken out of context, appear in isolation
to be inaccurate, does not, under the circumstances, evidence
a breach of Respondent’s duty of care or candor.”
77.
The fourth charge had to do with a supposed
unresolved legal conflict of interest that Mr. Loumiet had
suffered as a result of Greenberg’s having undertaken the
class action litigation in January 2001 while he continued
the work for the Audit Committee commenced the previous
Fall. Mr. Loumiet had not been involved in the arrival of that

126a

case at Greenberg, did not at the time perceive an
unwaivable legal conflict (neither did the ALJ in her
Recommended Decision), had understood that conflicts had
been cleared by his firm, had consciously stayed out of that
case once undertaken, and had concluded that, as the ALJ
would later observe in her Recommended Decision, his
ethical duty of loyalty to the client would not be served by
dropping work he had already been involved in for some time
because his law firm was choosing to undertake other work
with the knowledge, consent and conflict waiver of the client.
At trial, the undisputed evidence was that the conflict
situation had been discussed and waived, and the ALJ so
found.
78.
The fifth and final charge was based on the
OCC’s widely-publicized “smoking gun” in the case against
Mr. Loumiet— the “material” evidence he had supposedly
“suppressed”—i.e., the infamous “missing” fax cover sheet.
Just days before the trial defendant Straus, knowing that
there was no evidence whatsoever to support his defamatory
statement, told the press that this “missing” fax cover sheet
would be Mr. Loumiet’s “downfall.” Then, in his Opening
Statement at trial he melodramatically tore a piece of paper
from a sheath he held in his hands and tossed it to the
ground to dramatize how Mr. Loumiet, according to the
OCC, had ripped off and discarded the fax cover sheet to
make the loan purchase and sale transactions look separate.
As intended, the press just lapped it up. So what happened
once the press left after the first day of proceedings, and the
trial continued? The undisputed evidence at trial showed: 1)
that it was the OCC itself that had removed that fax cover
sheet when it turned the fax over to Deloitte, who then gave
it to Greenberg leading to its attachment as an exhibit to the
first Greenberg report in the same manner received, without
the cover sheet the OCC itself had removed; 2) that Mr.
Loumiet never saw that fax cover sheet until after the OCC
turned it into the “smoking gun” in this action; 3) that it was

127a

a young associate, not Mr. Loumiet, who attached the
exhibits to the first Greenberg report, with no interference
by Mr. Loumiet; 4) that the same point evidenced by the fax
cover sheet—that one bank in these transactions had served
only as an intermediary, and the loan purchases and sales
had been done through the other bank alone— was touched
on in at least six different places in the two Greenberg
reports, meaning there was no possible reason to omit the
cover sheet; 5) that a couple of exhibits behind in the same
Greenberg report was another fax to both banks, this time
with its cover sheet, which showed the same thing that the
first fax, together with cover sheet, showed; and 6) that the
transmission information on the fax itself made it easy to tell
that both banks had received the same fax. No evidence
whatsoever was ever introduced supporting the OCC’s
widely— and publicly—broadcast, defamatory version of
what Mr. Loumiet had “intentionally” done. While the ALJ
found in Mr. Loumiet’s favor on this issue in her
Recommended Decision, she did not mention all of the
details that were particularly embarrassing for the OCC,
including that it was OCC representatives themselves who
had sent missing the “smoking gun” in the first place. Mr.
Loumiet derived some small satisfaction when, at Closing
Argument months later, before an ALJ trying very hard to
maintain a straight face, Mr. Loumiet’s own counsel exactly
mimicked the press-grabbing, theatrical behavior of the
OCC counsel in his Opening Statement, while pointing out
all of the obvious problems cited above with this supposed
“smoking gun.”
79.
These five, then, were the essential behavior
for which Mr. Loumiet was prosecuted by the OCC. Beyond
the sheer absurdity of the charges themselves, there was the
fact that the OCC never tried to establish that the
challenged behavior—supposedly grievous enough to
warrant a lifetime ban on Mr. Loumiet’s pursuing his career
— had ever caused anyone to do anything. No member of

128a

Hamilton’s Audit Committee or Board was called to say that
those bodies or any of their members had ever perceived any
impropriety by Mr. Loumiet, or had relied on his
“misbehavior” in any decision or action taken. In other
words, the OCC felt free to completely disregard the actual
attorney-client relationship that was at the core of the
alleged misbehavior, and punish Mr. Loumiet in the abstract
for behavior the OCC, not the client, deemed inappropriate.
Even worse, the OCC had evidence in its possession that
even if the Greenberg reports had reached a different
conclusion on the issue of the three officers’ truthfulness, it
could well have made little difference to Hamilton’s Board.
Specifically, the OCC had in its possession, but of course did
not bring up before the ALJ—claiming that it was “secret”—
a deposition given by the Vice-Chairman of Hamilton’s
Board of Directors where the OCC directly asked him, twice,
what the Board would have done had the Greenberg reports
concluded that the three officers had lied. His response was
that the Board would have hired another law firm and
sought a second opinion. Consequently, the OCC prosecuted
Mr. Loumiet for behavior that not only could not be shown
to have disappointed the client in any way, or caused anyone
to do anything (other than concluding, as the OCC had
desired, that an “adjusted price trade” had occurred), but
that the relevant information the OCC had in hand indicated
would likely have made no difference had it instead been
perfectly to the OCC’s particular tastes.
80.
Compounding the frivolity of the charges and
the fact that Mr. Loumiet’s alleged misbehavior had
influenced no one, were the sanctions that the OCC sought
to impose on Mr. Loumiet—a fine of US$ 250,000 and a
lifetime prohibition on representing FDIC-insured banks.
Mr. Loumiet at the time the OCC sued him had been
representing FDIC-insured banks as a very important of his
livelihood for more than 28 years. In our country there is
abundant judicial authority that the Government’s banning

129a

a citizen from pursuing his livelihood, much less for life, is a
very serious sanction that should not be lightly imposed. The
OCC ostensibly sought to punish Mr. Loumiet in this way
for behavior described in the preceding paragraphs that no
objective human being could possibly conclude warranted
such extreme punishment. In fact, Mr. Loumiet during the
course of the litigation surveyed all of the instances since the
beginning of 2000 where the OCC had sanctioned
individuals, and provided to The Florida Bar and the OCC a
chart of that survey’s results. The chart showed that the rare
times when comparable sanctions had been imposed by the
OCC on any person had involved situations of outright fraud
on a financial institution by the penalized individual, for
example, by a loan officer setting up shell company
borrowers, making loans to them and pocketing the money
for himself. No individual not on a vendetta could possibly
compare this type of behavior to the charges against Mr.
Loumiet, yet the sanctions sought were equally severe.
81.
This, then, was the situation that Mr. Loumiet
faced in late October 2006. He knew that the charges against
him were frivolous, but also that the full weight of a large
federal Government agency, with its unlimited resources,
was about to come crashing down on him. He knew that the
administrative forum where this would all be fought was the
OCC’s home turf, that the OCC had unlimited staying
power, that much of his legal practice and livelihood would
disappear once the action began and became known, and
that he would be on his own, Greenberg and his fellow
former shareholder having settled. He also knew that at best
he would win a hollow victory, since—regardless of
outcome—the very fact that he had been prosecuted by a
federal Government agency would likely never be lived
down, and that—if he lost—his career would be difficult to
salvage. He knew that not just he, but his wife and children,
would suffer. All of the moral and philosophical
considerations he had faced 5 1/2 years before, when

130a

deciding whether or not to blow the whistle on the OCC’s bad
behavior at Hamilton, as described above, were again
present, but this time the consequences of his decision were
much, much heavier and far more immediate.
82.
The settlement deadline came and went. On
November 6, 2006, the OCC filed the Notice of Charges
against him. The action was assigned to an ALJ who years
earlier had ruled against Hamilton, and for the OCC, in one
of the various administrative actions the two had fought,
which simply heightened Mr. Loumiet’s anxiety. Aside
from— as already noted— deliberately confusing Mr.
Loumiet’s role in the various activities conducted by
Greenberg for Hamilton with that of other Greenberg
lawyers, so as to make Mr. Loumiet appear more culpable,
the Notice accused Mr. Loumiet of intentionally
misbehaving, when the OCC knew fully well that there was
not a shred of evidence that Mr. Loumiet intentionally did
anything wrong. Utilizing such defamatory words to
describe Mr. Loumiet’s behavior as “concealed crimes,”
“suppressed material evidence” and “purposely” covering up
officers’ misconduct, when the OCC knew there was no basis
to think he had done any of it, the Notice was vindictively
intended to damage his reputation and career to the
maximum extent possible. (In fact, the incident described
above and discussed in the second Greenberg report,
concerning the grilling of the Hamilton bank officer
arranged by Mr. Loumiet in an attempt to break him down,
in and of itself showed conclusively that Mr. Loumiet had
not been trying to conceal anything.) In reality, the OCC
would make no effort whatsoever in the proceeding to
establish that Mr. Loumiet had ever knowingly done
anything wrong.
83.
Indicative that the defendants knew from the
outset that their harshly-worded claims against Mr.
Loumiet were meritless was the way defendants handled

131a

publicity at the time they filed suit against Mr. Loumiet.
While defendants widely publicized their settlements with
Greenberg and the securities shareholder, contrary to
standard OCC practice they gave no publicity whatsoever to
their filing of a Notice of Charges against Mr. Loumiet. It
was only some six weeks later, when an enterprising
reporter, having read of the settlement with Greenberg and
the securities shareholder and wondering what had
happened with Mr. Loumiet—the other Greenberg
shareholder involved in the matter—through Freedom of
Information Act requests to the OCC learned of the Notice of
Charges that had been filed against Mr. Loumiet and wrote
a lengthy story on the filing, that the OCC publicly admitted
the suit. On information and belief, this delay in making the
suit against Mr. Loumiet public until there was no
alternative was attributable to defendants’ knowing from
the beginning that their claims against Mr. Loumiet were
frivolous.
84.
Prominent in the legislative history of the IAP
statute that the OCC was using to prosecute Mr. Loumiet,
was the Congressional intent that the statute not be used to
pursue outside attorneys who had acted in good faith.
Notwithstanding all of the harsh language used to describe
Mr. Loumiet’s behavior by the OCC in the Notice of Charges
and in other public statements, the OCC never suggested at
trial that Mr. Loumiet had ever acted other than in good
faith. This created a dichotomy where, for press and public
consumption, Mr. Loumiet was depicted as evil, while in the
proceeding itself, when the press was not present, he was
graciously described before the court as “eminent,” “leading,”
“distinguished” and “learned,” as already noted. Leaving
aside this additional “ironic” behavior by the OCC, the
immediate point is that, in prosecuting Mr. Loumiet, the
OCC paid as little heed to the Congressional instruction that
attorneys acting in good faith not be sued under the IAP
statute, as it had to the statutory requirement that it set up

132a

a fair ombudsman process for national banks. In addition, in
February 2008, some three months after Mr. Loumiet’s trial
had been completed, the D.C. Circuit held in the case Grant
Thornton LLP v. Office of the Comptroller of the Currency,
514 F. 3d 1328 (D.C. Cir. 2008), that the accounting firm,
Grant Thornton, which had conducted an audit of another
failed national bank, did not qualify as a IAP because as an
outside auditor it could not be said to have “conducted the
affairs of the bank.” Since all Mr. Loumiet had done was
briefly represent an audit committee in an internal
investigation— a much lesser activity than auditing a
bank— Mr. Loumiet immediately sought dismissal of the
action against him on the basis of this direct legal authority.
Instead of accepting this direct authority, the OCC, without
any valid reason for doing so, opposed dismissal. (In his
Final Decision 17 months later dismissing all charges
against Mr. Loumiet, the Comptroller agreed without much
discussion that the holding in Grant Thornton applied to Mr.
Loumiet as well.)
85.
Typical of the deliberately damaging
misinformation that the OCC in bad faith disseminated
publicly about Mr. Loumiet was that he had been driven to
misbehavior by his “greed” to share in profits from US$ 1.6
million in fees that Greenberg collected from Hamilton and
Bancorp in 2001 and 2002. This accusation was contained
both in the Notice of Charges and in subsequent press
releases and statements to the press by representatives of
the OCC’s Enforcement and Compliance Division
prosecuting the action against Mr. Loumiet, among other
OCC representatives. (Those press releases contained other
defamatory statements as well, such as the statement that
Mr. Loumiet had intentionally removed and concealed the
missing “smoking gun” fax cover sheet.) In fact, since Mr.
Loumiet had left Greenberg at the end of April 2001, before
any of those profits were distributed, this was just plain
wrong. Contrary to the OCC’s assertion, Mr. Loumiet, rather

133a

than being driven by “greed” to share in those profits, had
knowingly and voluntarily left any compensation related to
those profits behind when he left Greenberg at the end of
April 2001. This was a fact that the OCC knew and that
could be found out by simply asking Greenberg, which, as
part of its settlement with the OCC, was committed to
cooperating with the OCC. Moreover, notwithstanding being
told by Mr. Loumiet early on that the statement was simply
not true, the OCC maliciously continued to repeat it publicly,
even in its press release on the eve of trial. Of course, once
trial began only a few days later, the OCC made no effort to
prove this flat-out-wrong defamatory statement.
THE PROSECUTION OF THE CASE
86.
If the premise and charges for the OCC’s action
against Mr. Loumiet were silly and morally offensive, then
equally or more so was the way the OCC handled the
litigation. One cannot review the prosecution of the case by
the OCC and not see immediately the pretextual way the
OCC handled a case that the Individual Defendants and
others at the OCC knew all along had no merit, but that they
intended to drag out as long as possible so as to exact
revenge on Mr. Loumiet.
87.
In March of 2007 Mr. Loumiet, wrote to the
OCC legal counsel pointing out that the former President of
Hamilton had given sworn testimony that he and fellow
conspirators had lied to those who had investigated those
matters internally at Hamilton. Since that had to mean the
Audit Committee, it also had to include Greenberg (and Mr.
Loumiet) as the counsel that had conducted that committee’s
investigation. The response from the OCC was that this
made no difference. Subsequently, Mr. Loumiet provided the
OCC with numerous pages containing sworn testimony by
Government witnesses in another proceeding that supported
the accuracy of the allegedly “materially false and

134a

misleading” five statements in the two Greenberg reports.
Consistent with the reality demonstrated over and over in
this proceeding that the facts in this case simply made no
difference to its agenda against Mr. Loumiet, the OCC
simply proceeded with its case.
88.
As an example of the silliness of this case, the
first two persons that the OCC deposed (after Mr. Loumiet
himself) could not remember ever meeting or dealing with
Mr. Loumiet, making them hugely irrelevant in a case where
the issue was Mr. Loumiet’s own knowing or reckless
behavior. (Evidencing the difficulties that a private-sector
investigation can encounter, one of them was the former
Assistant Treasurer of Hamilton at the time the
Transactions occurred, who admitted having told the
investigating Greenberg lawyers—who did not include Mr.
Loumiet—who had contacted him after he had left the bank
for other employment, that he had nothing to say.) By the
time discovery was concluded, the evidence against Mr.
Loumiet, to be very charitable to the OCC, was
circumstantial and minimal, to the extent it existed at all.
As a result, in the absence of any significant direct evidence,
the OCC decided to prosecute its case relying
overwhelmingly on defendant Rardin, its own former EIC at
Hamilton, and on two paid “expert” witnesses. As to
defendant Rardin, prior to assuming the function of EIC at
Hamilton, he had been EIC at Peoples National Bank of
Commerce, then the only African-American owned bank in
Miami-Dade County, which had been closed by the OCC in
September 2009, and in connection with that closing had
received an award from the OCC. As Hamilton EIC
subsequently, he had been very involved in the misbehavior
at Hamilton that Mr. Loumiet had criticized, as well as, by
his own admission, in the OCC’s decision to prosecute Mr.
Loumiet, so that his testimony could not be deemed
“objective” from any perspective. The two paid expert
witnesses were a criminal law professor who was to testify

135a

principally as to the investigation conducted by Greenberg;
and a professor of legal ethics who was to testify principally
on the alleged conflicts.
89.
When Mr. Loumiet sought discovery from the
OCC in order to defend himself, he was told that the OCC
had 145,000 pages of documents that complied, and that Mr.
Loumiet would have to pay US$ 29,000—20 cents per page—
in copying costs in order to obtain discovery from the OCC.
This, in an action brought by the OCC against Mr. Loumiet.
The result was a hearing where the ALJ ordered the OCC to
make all of these documents available to Mr. Loumiet’s
counsel on a disc, allow counsel to review the documents and
select the ones it wished to have copied, and have Mr.
Loumiet pay only for the copying of those select documents.
90.
Mr. Loumiet unsuccessfully sought to
introduce into the administrative action against him the
issues of bias and retaliation by the OCC discussed above.
He also sought to have the ALJ address the obvious and
troubling First Amendment issues also discussed above,
again to no avail. The ALJ declined to allow Mr. Loumiet to
explore in the proceeding the OCC’s behavior at Hamilton
and the way the decision to prosecute Mr. Loumiet had been
taken. Similarly, the ALJ expressed no view on the First
Amendment issues raised by Mr. Loumiet.
91.
After the inevitable press reports came out
trumpeting the OCC’s language that Mr. Loumiet had
“suppressed material evidence,” “concealed crimes,” and
“purposely” covered up the Hamilton officers’ misconduct,
the Florida Bar in late January 2007, on its own launched
an investigation into the behavior by Mr. Loumiet that had
provoked such scandalous language from an agency of our
Government, presumably on the mistaken assumption that
such harsh words would not be lightly used by such a
supposedly responsible federal agency. The press found out

136a

about the investigation, and of course, blared it prominently.
In response to the investigation, Mr. Loumiet sent the Bar
three letters in the Spring of 2007, explaining why the case
against him was ridiculous. Mr. Loumiet heard nothing until
June 2007, when counsel for the Bar telephoned Mr.
Loumiet and told him that this was the strangest case of
alleged misbehavior by a Bar member that he’d ever
encountered, and that the Bar was suspending its own
investigation until the OCC’s administrative action was
completed. The press later reported that three days after the
Comptroller voluntarily dismissed the action against Mr.
Loumiet, the Bar closed its own suspended investigation.
92.
Knowing that the OCC would otherwise simply
bleed and outlast him, Mr. Loumiet from the outset insisted
that this matter go to trial as soon as possible, without any
extensions of time whatsoever. As a result, the case went to
trial in October 2007, 11 months after the action was
initially brought.
93.
Prior to trial, Mr. Loumiet moved to exclude the
“expert” testimony of the criminal law professor, on the basis
that his criminal investigative experience was irrelevant to
the handling of an Audit Committee investigation such as
had taken place at Hamilton. In his pre-trial deposition the
professor had freely acknowledged that he knew little if
anything about banks, banking transactions or operations,
banking law, corporations, corporate law, corporate
transactions or corporate governance, accounting, the
practice of commercial law or the field of securities law, and
had never represented a corporation, Audit Committee or
Board of Directors. All of this made him a thoroughly
unqualified choice to comment as an “expert” on how a law
firm such as Greenberg should have handled the
representation of an Audit Committee of a bank owned by a
publicly-traded holding company. Given the million-plus
members of the Bar in the United States, a not-insignificant

137a

number of whom have at some time conducted corporate
investigations, the apparent inability of the OCC to find
someone who had actually done something similar and who
was willing to criticize Greenberg and Mr. Loumiet, spoke
volumes. The ALJ agreed that the professor was not
qualified to testify as an “expert” on what Greenberg
attorneys should have done, and the professor’s proposed
testimony was excluded on the basis of Daubert v. Merrill
Dow Pharmaceuticals, 509 U.S. 579 (1993), and its progeny.
In his Final Decision dismissing the charges against Mr.
Loumiet, the Comptroller attacked the ALJ for this decision,
of course not mentioning why the professor had been deemed
unqualified, then proceeded to discuss at length the
testimony the professor would have given on the Greenberg
investigation (in which, as noted, Mr. Loumiet had played a
small role) had he been allowed to testify. Among other
things, this ignored the hornbook-law fact that an expert
witness is free to change his testimony at any time prior to
giving it at trial, as the OCC’s own expert on ethics in fact
did in this case in changing the basis of her opinions, as
discussed below, as well as the elemental due process
concept, reflected in the OCC’s own rules of evidence, that a
decision in a judicial proceeding may rely only on evidence
admitted at trial and to which the accused has therefore had
the opportunity to respond. It did, however, allow the OCC
to further bad-mouth Mr. Loumiet publicly in the Final
Decision as a parting shot.
94.
Of course, since the OCC’s entire case against
Mr. Loumiet was contrived from the outset, the exclusion of
this “expert” made no difference to the OCC. Instead, it
offered at trial as an “expert” on Greenberg’s conduct of the
investigative phase defendant Rardin, whose behavior Mr.
Loumiet had criticized years earlier in his letters to the OIG
and who also admitted at trial to having been actively
involved in the OCC’s decision to sue Mr. Loumiet. All of this
quite likely established new lows in American jurisprudence

138a

in terms of an “expert” witness’ supposed objectivity and
impartiality (though see the discussion below as to the
testimony from the professor of legal ethics). Beyond this,
defendant Rardin was not a lawyer, admitted he did not
have experience in hiring or employing lawyers, and did not
pretend to be expert on what lawyers do. In terms of the
Greenberg investigation that Mr. Loumiet had had little
involvement in, defendant Rardin proceeded to remarkably
testify under oath, among other extraordinary things, that
there is a “universal standard” on how investigations related
to banks must be conducted, which supposedly Greenberg
had violated. That standard, though supposedly
“universal”—i.e., applicable to all banks and all persons—
had never before (nor since) been mentioned anywhere by
anyone else. According to defendant Rardin, the universe
could ascertain the standard it must meet by piecing
together
even-today-unidentified
sections
of
the
Comptroller’s Manual for National Bank Examiners. The
ALJ summarily dismissed this “universal” standard as being
of the EIC’s “own design,” noting that it was “uncodified, in
part unwritten, not previously publicized, and neither
adopted by any professional entity nor known to be regularly
employed by one.” It is, of course, profoundly disturbing to
see a senior Government official just making up sworn
testimony on a witness stand.
95.
As another example of his inventiveness on the
witness stand, in an effort to establish that the Greenberg
reports had had a “material adverse effect” on Hamilton,
defendant Rardin also opined that had those reports
concluded that the Hamilton officers had lied, one or more of
them would have been removed. Of course, as the D.C.
Circuit noted in its later opinion in Mr. Loumiet’s EAJA
action against the OCC, defendant Rardin provided no
support whatsoever for that proposition. What the D.C.
Circuit decision did not mention was that the only evidence
the OCC then had relevant to this statement , as noted

139a

above, was the deposition from the former Vice-Chairman of
Hamilton saying the exact opposite, a deposition that, as
noted, the OCC did not allow to be presented at the trial
against Mr. Loumiet.
96.
Realizing how monumentally silly and
indefensible defendant Rardin’s “universal standard” for
bank investigations was, in its post-hearing brief the OCC
changed tack and advanced another perhaps even more
remarkable theory. According to the OCC’s brief, its role as
regulator of national banks under the National Bank Act
allows it to set the standards as to how lawyers provide
services to national banks, to do so after-the-fact, and to
punish those attorneys who fail to observe those unknown
standards. This, according to the OCC, justified its sanctions
against Mr. Loumiet. Of course, due process allows none of
this.
97.
As noted above, the IAP statute being used to
prosecute Mr. Loumiet requires that the misbehavior of the
accused have caused more than “minimal financial loss” or a
“significant adverse effect” to the bank. In the case of
Hamilton, there was no evidence that anyone at the bank
had done anything in reliance on the Greenberg reports
other than agree with the OCC that an “adjusted price trade”
had occurred. As a result, the OCC concocted the theory that
the fees paid to Greenberg itself for its work had been the
more than “minimal financial loss” required. Again not
surprisingly, this theory does not appear to have ever been
advanced before by anyone else anywhere. Beyond this, even
if one accepts the proposition that a service provider’s fee for
services actually rendered could itself constitute the type of
“loss” the IAP statute required, the OCC never made the
least effort to explain why US$ 210,000 (the total fees paid
Greenberg) constituted a more than “minimal financial loss”
for a bank with assets of some US$ 1.2 billion. In fact, the
OCC in this proceeding remarkably took the position that a

140a

loss as small as US$ 5,000 sufficed, regardless of the size of
the bank involved. There was no suggestion, much less
evidence, at trial that the fee had been excessive for the work
done—other than the fact that the OCC itself at trial loudly
declared the reports “worthless”—or that the services
contracted for had not been provided. Once again raising the
question whom a banking lawyer truly serves, the client or
the Government, the OCC’s position simply amounted to its
ignoring the view of Hamilton’s Audit Committee and Board,
for whom the services had been rendered, as to the worth
and value of the reports, and substituting for that view its
own dissatisfaction. Obviously, by converting the service
provider’s fee itself into the required more than “minimal
financial loss,” the OCC’s position, from an enforcement
perspective, conveniently made it possible to ignore one of
the safeguards against abusive prosecution carefully built
into the IAP statute itself by Congress. In the end, after the
ALJ rejected the OCC’s charges, even the Comptroller
himself made the point in his Final Decision of expressly
rejecting this position as unfounded. This did not prevent the
OCC from raising the point to the D.C. Circuit in the
subsequent action successfully brought by Mr. Loumiet to
recover legal fees and expenses. Of course, the D.C. Circuit
dismissed the argument there as well.
98.
Turning to the supposed conflict of interest, at
trial the OCC did not call any Hamilton Board member or
officer (including internal lawyers) to testify as to the
supposed conflict, and all of the first-hand evidence at trial
established that oral waivers of the conflict—which was
what Florida Bar rules then required—had been obtained.
Instead, the OCC as its witness on the issue of conflicts
produced a professor of legal ethics who provided “expert”
testimony that can only be described as having been at times
surreal—as if related to events in some alternative
universe—given how disconnected it was with the evidence
actually presented at trial.

141a

99.
To begin with, although no reason for the
“assumption” was ever offered, the ethics professor’s pretrial expert report was based almost entirely on “assumed”
significant social interaction by the Fall of 2000 between the
Board Chairman of Hamilton and Mr. Loumiet. Since no
evidence or explanation of any kind was presented by the
OCC to support such an assumption, one can only wonder to
what extent this “assumption” was based on the fact that
both individuals were Cuban-American, both from South
Florida, a few years apart in age, and spoke Spanish,
including occasionally to each other. Of course, on this ethnic
basis Mr. Loumiet would have “significant social
interaction” with literally many thousands of other
Hispanics in South Florida. However, perhaps most
remarkable about this “assumed significant social
interaction” was that when the FDIC had taken Mr.
Loumiet’s deposition years before—a deposition the OCC
had in hand all along, used to depose and cross-examine Mr.
Loumiet in this case, and even introduced into evidence at
trial—some of the very first questions asked were about the
extent of social interaction between Mr. Loumiet and the
Board Chair back in 2000, to which Mr. Loumiet responded
that it had been essentially non-existent. Even knowing this
response, the OCC, without any evidence to the contrary,
allowed its expert to “assume” an unfounded and troubling
“foundation” for her pre-trial expert report that it knew to
have no support.
100. The ALJ at the outset of the ethics Professor’s
trial testimony interrupted to note that she had read the
Professor’s pre-trial expert report, that it was almost
entirely based on that assumption, and that there was
simply no evidence on the record supporting this “assumed
significant social interaction.” At that point, the Professor
pirouetted, announced without explanation that she was
abandoning that foundation altogether, and segued to a
supposed important business relationship between

142a

Greenberg, Mr. Loumiet as a lawyer at Greenberg, and
Hamilton, as the basis for her expert opinions to be
expressed at trial. Following that, the Professor opined that
Greenberg had been the de facto outside General Counsel to
Hamilton in 2000, even though there was not a single
statement or piece of paper anywhere from anyone at
Hamilton or Greenberg introduced in support of that
conclusion. On information and belief, Greenberg received
no more than 10% or so of the total legal fees paid by
Hamilton to outside law firms for 1999 and 2000, based on
the numbers in the publicly-filed annual reports of Hamilton
Bancorp itself for those years. Those percentages hardly
suggest that Greenberg was then Hamilton’s de facto outside
General Counsel. Along these same lines, against all data
and evidence actually produced at trial, and without relying
on any financial or other information from within Greenberg
or Hamilton, the Professor opined that Hamilton was
already an important client (in size of business) for
Greenberg in the early Fall of 2000, when the investigation
was undertaken. (Of course, as noted earlier, the actual
numbers showed otherwise.)
101. The Professor, against all of the Greenberg
time sheets and other relevant evidence actually produced
at trial, opined, based on the fact that Mr. Loumiet’s name
appeared first out of alphabetical order on the “from” line in
the initial Greenberg report, where all three Greenberg
attorneys who had been most active were named, that Mr.
Loumiet had really been in charge of the investigation that
preceded that initial report. This test, on its own, seems an
outrageously flimsy foundation for an “expert” opinion.
However, in this case it also ignored the obvious fact that
Mr. Loumiet’s name appeared second in the second
Greenberg report issued March 14, 2001, even though Mr.
Loumiet was unquestionably in charge of the process at that
point in time. (Somehow one doubts the Professor would
have applied the same alphabetical order test and concluded

143a

that whoever’s name appeared first in that second report
must have been in charge at that point in time as well.)
102. Similarly, against the later sworn testimony at
trial from current and former Greenberg shareholders that
at that law firm there was no such thing as a “Relationship
Partner”—i.e., a single partner responsible for and involved
in all aspects of a client relationship—and without any
evidence from within either Hamilton or Greenberg to
support her conclusion, the “expert” opined that Greenberg
in 2000 and 2001 had “Relationship Partners” because,
according to her, big law firms do. (Perhaps the Professor
knew this by virtue of having worked as a first-year
associate at a law firm for one year some 30 years before,
immediately upon graduating from law school.) Not only
that, but she could tell that Mr. Loumiet was that
“Relationship Partner” at Greenberg for the Hamilton
relationship, again on the basis of no visible evidence. It
followed, in her expert opinion that Mr. Loumiet had to have
been involved in all aspects of the relationship between
Greenberg and Hamilton. From there, it was an easy
(though completely false) syllogism to conclude that Mr.
Loumiet must have been actively involved in Greenberg’s
being engaged to undertake the class action for Hamilton in
January 2001—again on the basis of no evidence, and
against the sworn testimony from the former Greenberg
litigation shareholder who actually brought the matter into
the firm and led it. Not surprisingly, the Professor also
opined against all of the first-hand evidence produced at
trial that there had been no conflicts waivers obtained by
Greenberg from Hamilton.
103. There was also a truly extraordinary exchange
when the Professor—claiming that in Mr. Loumiet’s brief
intervention (8 to 9 hours total over four months) in the
Summer of 2000 on the Consent Agreement, as discussed
above, Mr. Loumiet had actually represented not the

144a

Hamilton Board, but its individual members—sought to
explain to a visibly incredulous ALJ, who specifically
interrupted her testimony to question her on the issue, that
an attorney can represent a person even though there are no
apparent manifestations of such representation, no
individual communications take place, no confidential
personal information is ever exchanged, and neither the
person nor the lawyer thinks or intends that to be the case.
104. The same Professor additionally maintained
that, under Florida Bar ethical rules, an attorney
representing a client has to be free to mislead a court by
presenting facts and positions the attorney knows not to be
true. This assertion on its face contravenes Florida Bar Rule
of Professional Conduct Rule 4.3.3, entitled “Candor Toward
the Tribunal.” And so on and so on, culminating with the
unforgettable statement that the Professor’s expert opinions
in her pre-trial report would not change regardless of what
first-hand testimony might be produced at trial by
individuals who had actually been involved in these matters
or, stated another way, facts be damned.
105. The ALJ made short shrift of the ethics
Professor in her Recommended Decision, finding her
testimony “logically perplexing,” “contradicted by the great
weight of the evidence,” and that therefore, it “cannot be
credited.” The OCC’s presentation of its absurd “expert”
testimony in this case went against all norms followed by
reasonable lawyers in the use of such testimony. It is
impossible to justify presenting such absurd testimony, and
going through this ridiculous, expensive “expert” exercise at
all, other than, again, to inflict maximum injury to Mr.
Loumiet, who had to engage his own expert to respond. If
“expert” testimony is not driven by substantial actual facts
proven at trial, what possible value and justification can it
have legally, morally and economically? Overall, it again
seems “ironic” that, in a case where the OCC sued Mr.

145a

Loumiet for having reached the “wrong” conclusion in the
Greenberg reports, their “expert” witnesses were so free
reaching their own wrong conclusions at trial based on no
significant evidence, and often (as the ALJ herself noted)
against the great weight of the evidence.
106. In short, the desire of certain officials at the
OCC to retaliate against Mr. Loumiet for the
embarrassment he had caused them drove the OCC to bring
an action that it knew had no merit, based on charges that
were both monumentally silly and completely out of
proportion to the extremely harsh penalties sought to be
imposed, then conduct the action in a manner befitting its
utter lack of merit, while demonstrating profound disrespect
for judicial process and legal ethics generally. Small wonder
that the D.C. Circuit was able to conclude, without dissent,
that the OCC’s action against Mr. Loumiet had lacked
“substantial justification,” or stated another way, lacked any
reasonable basis in law and fact, or under Florida law would
be called “frivolous.” However, while the OCC’s case itself
was always vengeful fantasy, its deleterious effect on Mr.
Loumiet’s life, including on a banking legal practice he had
built over many years, was all too real. Until the OCC sued
him, Mr. Loumiet had never been the subject of any public
filing or complaint in almost 29 years of practicing law, and
was respected in his profession, as evidenced by 16
consecutive years of receiving the highest rating possible
from his colleagues in South Florida for both quality and
ethical behavior in the Martindale-Hubbell Legal Directory.
Once the OCC’s suit became known, Mr. Loumiet’s
practice—particularly in the banking field—
largely
evaporated, as banks and other clients and prospective
clients, mistakenly believing, like the Florida Bar, that there
must be some substance to such powerful, inflammatory
words from an agency of the Government aimed at a member
of the Bar, stayed away. In the four years after the OCC filed
its action, Mr. Loumiet’s income dropped significantly, and

146a

Mr. Loumiet fell six partnership levels at his then law firm.
Based on national statistics, those were precisely the years
of his practice that should have been Mr. Loumiet’s peak
earning years as a lawyer. Mr. Loumiet suffered significant
economic damages as a result. Mr. Loumiet also suffered
severe emotional distress as a result of the OCC’s years-long
vendetta and misconduct, as described above.
107. Again “ironically” in light of the ethical charges
brought against Mr. Loumiet, as demonstrated by the
foregoing description of the charges brought against Mr.
Loumiet and the manner in which the case against him was
conducted, in bringing and prosecuting this case defendants
Straus and Sexton—both experienced trial lawyers who
knew better—intentionally violated a series of ethical rules
in the ABA’s Model Rules of Conduct, and presumably of
their State Bar rules of professional conduct as well, some
on more than one occasion. The ethical rules violated
include:
a. Rule 3.1 on bringing a proceeding, as well as on
asserting or controverting an issue in a
proceeding, without a basis for doing so that is
not frivolous;
b. Rule 3.3(a)(1), on making a false statement of
fact or law to a tribunal; and subsection
(3) on offering evidence that the lawyer knows to be
false;
c. Rule 3.4(b), on counseling a witness to testify
falsely;
d. Rule 3.4(d), on failing to make a reasonably
diligent effort to comply with a legally proper
discovery request;

147a

e. Rule 3.4(e), generally, in numerous respects
and instances;
f. Rule 3.6 on public communications with a
substantial likelihood of materially prejudicing
an adjudicative proceeding; and
g. Rule 4.1(a) on making a false statement of
material fact to a third person in the course of
representing a client.
108. The Counts numbers 1 through 7 that follow,
which are against the Government, are based on Florida law
and meet this FTCA requirements. Counts 8 and 9 are
constitutional claims against the Individual Defendants:
Count 8 is based on the First Amendment, Bivens, Hartman,
and other similar cases; and Count 9 is based on Bivens and
the Fifth Amendment (Due Process). Mr. Loumiet seeks no
damages from the OCC’s decision to intervene Hamilton, or
does not ask this Court to hold that it was unwarranted. Mr.
Loumiet instead asks this Court to decide on this case
something that a federal court is extremely qualified to
judge and which does not depend on finding that the OCC
acted inappropriately at Hamilton. In fact, Mr. Loumiet only
sets forth facts about Hamilton as background for his
retaliatory prosecution claims. Further, even the
Comptroller himself has conceded that Mr. Loumiet, as an
outside lawyer who did not meet the statutory tests, was not
an IAP under applicable federal banking laws. Therefore,
the OCC had no statutory right whatsoever to do what it did
to Mr. Loumiet, since it had no enforcement jurisdiction over
him whatsoever as a non-IAP. In this case, the situation is
analogous to an OCC official driving over a customer of a
bank in a truck; nothing in federal banking law gives the
OCC the authority to either run over a bank customer or
bring an enforcement action against an individual who is not
an IAP. Mr. Loumiet challenges the Government to point to

148a

a single forum provided by federal banking law where claims
relating to a retaliatory enforcement action can be brought;
federal banking laws do not provide any such remedy. It is
because there is no such alternative forum, and because the
question “what for” can be easily answered in this case—
“for” retaliatory prosecution— that allowing a Bivens action
in this case is completely consistent with the Supreme
Court’s decision in Wilkie v. Robbins, 1275 S.Ct. 2588 (2007).
There are many millions of persons employed in our nation's
8,000 or more banks and even more millions, like Mr.
Loumiet, in service providers to those banks. In what might
best be described as an Alice in Wonderland result,
extending Sinclair v. Hawke to this scenario would place
millions of bank employees and employees of providers of
services to banks in a Constitutional position inferior to all
other persons working in our nation’s private sector, as well
as even to federal prisoners, all of whom have at least some
Constitutional rights that they may assert under Bivens
against overreaching federal Government officials. It should
be added that, as already suggested above in the context of
the First Amendment, Congress has never suggested
anywhere that in enacting the banking laws it meant to take
away or in the least bit reduce the Constitutional rights of
any of the untold millions of persons touched by our banking
laws, or that a right to bring a Bivens claim by those persons
would interfere in any way with the Congressional
framework for banking.
109. In December 2010, Mr. Loumiet filed a
Freedom of Information Act request with the OCC for all
communications, e-mails, memos and correspondence,
external or internal, mentioning the words “Loumiet” and
“Hamilton” from 2000 until the filing of the OCC’s action
against Mr. Loumiet on November 6, 2006. That request was
turned down without a single responsive document being
provided.

149a

110. On July 20, 2011—less than two years after the
Comptroller’s Final Decision on July 27, 2009—Mr. Loumiet
filed with the OCC the six-months’ notice of claims required
by law before filing a FTCA action. On January 9, 2012, the
OCC wrote back rejecting Mr. Loumiet’s claims. Less than
six months have elapsed since that rejection. As a result, all
conditions precedent to the filing of the FTCA claim have
been met, waived or otherwise performed.
111. Because the defendants’ behavior failed to
comply with the internal rules and procedures of the OCC
itself, and also grossly offended the First and Fifth
Amendments to our Constitution, the “discretionary
activity” exclusion under the FTCA does not apply.
112. Mr. Loumiet has engaged the law firm Rivero
Mestre to prosecute his claims here and has agreed to
compensate them for the reasonable attorneys’ fees and costs
they incur in this case.
COUNT I – INTENTIONAL
INFLICTION OF EMOTIONAL DISTRESS
[Against the Government and Individual
Defendants]
113. Mr. Loumiet repeats and restates paragraphs 1
through 8 and 15 through 112 as if fully set forth here.
114. Representatives of the OCC acted recklessly or
intentionally in bringing charges against Mr. Loumiet and
pursuing those charges when they had no basis in fact or
law.
115. Individual Defendants were instrumental in
the OCC’s legal action against Mr. Loumiet. The conduct of
the OCC and the Individual Defendants was extreme and
outrageous because the charges had no basis in fact or law

150a

and were brought with the ulterior purposes to retaliate
against Mr. Loumiet and harm his reputation.
116. The defendants’ misconduct caused Mr.
Loumiet severe emotional distress because of their
malicious, extreme and outrageous conduct detailed above.
WHEREFORE, Mr. Loumiet demands judgment against
the Government and Individual Defendants for damages to
be proven at trial to compensate for the severe emotional
distress caused to Mr. Loumiet.
COUNT II – INVASION OF PRIVACY
[Against the Government and Individual
Defendants]
117. Mr. Loumiet repeats and restates paragraphs 1
through 8 and 15 through 112 as if fully set forth here.
118. The OCC and Individual Defendants invaded
Mr. Loumiet’s privacy by making public through the Notice
of Charges and their statements to the press and press
releases, private facts that would not otherwise have become
public concerning Mr. Loumiet’s representation of Hamilton.
119. The facts disclosed would be offensive to any
reasonable person.
120. Given that the OCC knew its charges against
Mr. Loumiet were without merit from the outset, no
privilege attaches to its actions.
WHEREFORE, Mr. Loumiet demands judgment against
the Government and Individual Defendants in the amount
indicated in paragraph 148 below.

151a

COUNT III – ABUSE OF POWER
[Against the Government and defendants Schneck
and Sexton]
121. Mr. Loumiet repeats and restates paragraphs 1
through 8 and 15 through 112 as if fully set forth here.
122. In bringing the OCC action, the OCC made an
illegal, improper or perverted use of process against Mr.
Loumiet.
123. As was known to the OCC and defendants, the
OCC action was baseless from the outset. The defendants
filed and prosecuted the meritless OCC action with the
ulterior purposes of retaliation and inflicting as much injury
as possible on Mr. Loumiet.
124. Mr. Loumiet has suffered damage as the result
of the defendants improper abuse of process.
WHEREFORE, Mr. Loumiet demands judgment against
the Government and defendants Schneck and Sexton in the
amount indicated in paragraph 148 below.
COUNT IV—MALICIOUS PROSECUTION
[Against the Government and defendants Schneck
and Sexton]
125.
Mr. Loumiet repeats and restates paragraphs 1
through 8 and 15 through 112 as if fully set forth here.
126. The OCC and the Individual Defendants
maliciously commenced and prosecuted its action against
Mr. Loumiet.
127. In bringing the OCC action, the OCC made an
illegal, improper or perverted use of process against Mr.
Loumiet. As was known to the OCC and defendants, the

152a

OCC action was baseless from the outset and the defendants
had no probable cause. The defendants filed and prosecuted
the meritless OCC action with the malicious ulterior
purpose of retaliation and inflicting as much injury as
possible on Mr. Loumiet.
128. Mr. Loumiet obtained a bona fide dismissal of
the OCC action in favor of him.
129. Mr. Loumiet has suffered damage as the result
of the defendants improper abuse of process and malicious
prosecution.
WHEREFORE, Mr. Loumiet demands judgment against
the Government and defendants Schneck and Sexton in the
amount indicated in paragraph 148 below.
COUNT V – NEGLIGENT SUPERVISION
[Against the Government]
130. Mr. Loumiet repeats and restates paragraphs 1
through 8 and 15 through 112 as if fully set forth here.
131. The OCC owed a duty to Mr. Loumiet to
adequately supervise its employees.
132. During the course of the Individual
Defendants’ employment, Mr. Loumiet notified the OCC of,
or the OCC should have become aware of, problems with the
Individual Defendants’ unfitness, including, but not limited
to, the problems alleged in paragraphs 49 and 52, among
others.
133. Despite
knowledge
of
the
Individual
Defendants’ unfitness, the OCC failed to take further action
such as investigation, discharge, or reassignment.

153a

134. The OCC’s failure to investigate or take
corrective action was unreasonable.
135. But for the OCC’s negligent failure to supervise
the Individual Defendants, they would not have been able to
retaliate against Mr. Loumiet when he sought the
intervention of the Treasury OIG.
136. Mr. Loumiet has been harmed by the OCC’s
negligent supervision of the Individual Defendants.
WHEREFORE, Mr. Loumiet demands judgment against
the Government in the amount indicated in paragraph 148
below.
COUNT VI – VIOLATION OF
MR. LOUMIET’S FIRST AMENDMENT RIGHTS
[Against Individual Defendants]
137. Mr. Loumiet repeats and restates paragraphs 1
through 8 and 15 through 112 as if fully set forth here.
138. The Individual Defendants intentionally
violated Mr. Loumiet’s First Amendment rights both in their
frivolous attack on Mr. Loumiet’s constitutionally-protected
right to communicate with his client free of Government
intimidation and punishment, and because that attack was
driven by a desire to retaliate against Mr. Loumiet. As the
D.C. Circuit Court of Appeals determined last year, the
prosecution of Mr. Loumiet was without “substantial
justification” —i.e., without “any reasonable basis in law and
fact.”
139. The Individual Defendants’
violations caused harm to Mr. Loumiet.

constitutional

154a

WHEREFORE, Mr. Loumiet demands judgment against
the Individual Defendants in the amount indicated in
paragraph 149 below.
COUNT VII – VIOLATION OF MR. LOUMIET’S
FIFTH AMENDMENT DUE PROCESS RIGHTS
[Against the Individual Defendants]
140. Mr. Loumiet repeats and restates paragraphs 1
through 8 and 15 through 112 as if fully set forth here.
141. The Individual Defendants intentionally
violated Mr. Loumiet’s Fifth Amendment rights both in their
frivolous attack on Mr. Loumiet’s constitutionally-protected
right to communicate with his client free of Government
intimidation and punishment, and because that attack was
driven by a desire to retaliate against Mr. Loumiet. As the
D.C. Circuit Court of Appeals determined last year, the
prosecution of Mr. Loumiet was without “substantial
justification”—i.e., without “any reasonable basis in law and
fact.”
142. The Individual Defendants’
violations caused harm to Mr. Loumiet.

constitutional

WHEREFORE, Mr. Loumiet demands judgment against
the Individual Defendants in the amount indicated in
paragraph 149 below.
COUNT VIII – CIVIL CONSPIRACY
[Against Government and Individual Defendants]
143. Mr. Loumiet repeats and restates paragraphs 1
through 8 and 15 through 112 as if fully set forth here.
144. Representatives of the OCC, including the
Individual Defendants, agreed and conspired to do an
unlawful act or to do a lawful act by unlawful means, that

155a

is, to retaliate against Mr. Loumiet, ruin his reputation and
career, commit the various torts as set forth in this
Complaint, and therefore trample on his Constitutional
rights as set forth in this Complaint.
145. Representatives of the OCC, including
Individual Defendants committed overt acts in further of
their conspiracy, including, but not limited to, the acts
detailed in paragraphs 61 (the 15-day letter), 61 (the
charges), 16 (the lawsuit), and 85 (statements to the press).
146. The defendants’ conspiracy was, in fact,
executed and led to the commission of all the other torts
charged in the counts of this Complaint.
147. The conspirators illegal agreement, and their
acts in furtherance, harmed Mr. Loumiet.
WHEREFORE, Mr. Loumiet demands judgment against
the Government and Individual Defendants in the amount
indicated in paragraph 149 below.
DAMAGES
148. For the FTCA claims under Counts 1 through 5
above, Mr. Loumiet requests damages against the
Government and Individual Defendants in the amount of
US$ 4 million, representing estimated losses over the 15 or
so years from November 6, 2006 until Mr. Loumiet turns 70.
Mr. Loumiet also requests reasonable attorneys fees and
costs to the extent allowable by law.
149. For the Constitutional claims under Counts 6,
7, and 8 above, Mr. Loumiet requests damages against the
Government and Individual Defendants for compensatory
and punitive damages in such amount as the jury deems
appropriate.

156a

JURY
150.
so triable.

Mr. Loumiet requests a jury trial on all issues

Dated July 9, 2012
Respectfully submitted,
RIVERO MESTRE LLP
Attorneys for Carlos Loumiet
2525 Ponce de Leon Boulevard
Suite 1000
Miami, Florida 33134
Telephone: (305) 445-2500
Fax: (305) 445-2505
Email: jmestre@riveromestre.com
arivero@riveromestre.com
cwhorton@riveromestre.com
By: /s/Jorge A. Mestre
JORGE A. MESTRE
D.C. Bar No. 998301
ANDRES RIVERO
Florida Bar No. 613815
CHARLES E. WHORTON
Florida Bar No. 46894

